<html>
<title> - MEMBERS' DAY</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                              MEMBERS' DAY

=======================================================================

                                HEARING

                               before the

                        COMMITTEE ON THE BUDGET
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, FEBRUARY 14, 2006

                               __________

                           Serial No. 109-13

                               __________

           Printed for the use of the Committee on the Budget


  Available on the Internet: http://www.access.gpo.gov/congress/house/
                              house04.html



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
26-125                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                        COMMITTEE ON THE BUDGET

                       JIM NUSSLE, Iowa, Chairman
JIM RYUN, Kansas                     JOHN M. SPRATT, Jr., South 
ANDER CRENSHAW, Florida                  Carolina,
ADAM H. PUTNAM, Florida                Ranking Minority Member
ROGER F. WICKER, Mississippi         DENNIS MOORE, Kansas
KENNY C. HULSHOF, Missouri           RICHARD E. NEAL, Massachusetts
JO BONNER, Alabama                   ROSA L. DeLAURO, Connecticut
SCOTT GARRETT, New Jersey            CHET EDWARDS, Texas
J. GRESHAM BARRETT, South Carolina   HAROLD E. FORD, Jr., Tennessee
THADDEUS G. McCOTTER, Michigan       LOIS CAPPS, California
MARIO DIAZ-BALART, Florida           BRIAN BAIRD, Washington
JEB HENSARLING, Texas                JIM COOPER, Tennessee
DANIEL E. LUNGREN, California        ARTUR DAVIS, Alabama
PETE SESSIONS, Texas                 WILLIAM J. JEFFERSON, Louisiana
PAUL RYAN, Wisconsin                 THOMAS H. ALLEN, Maine
MICHAEL K. SIMPSON, Idaho            ED CASE, Hawaii
JEB BRADLEY, New Hampshire           CYNTHIA McKINNEY, Georgia
PATRICK T. McHENRY, North Carolina   HENRY CUELLAR, Texas
CONNIE MACK, Florida                 ALLYSON Y. SCHWARTZ, Pennsylvania
K. MICHAEL CONAWAY, Texas4           RON KIND, Wisconsin
CHRIS CHOCOLA, Indiana
JOHN CAMPBELL, California

                           Professional Staff

                     James T. Bates, Chief of Staff
       Thomas S. Kahn, Minority Staff Director and Chief Counsel


                            C O N T E N T S

                                                                   Page
Hearing held in Washington, DC, February 14, 2006................     1
Statement of:
    Hon. Randy Neugebauer, a Representative in Congress from the 
      State of Texas.............................................     1
    Hon. Steve King, a Representative in Congress from the State 
      of Iowa....................................................     5
    Hon. Vernon J. Ehlers, a Representative in Congress from the 
      State of Michigan..........................................    10
    Hon. Rush D. Holt, a Representative in Congress from the 
      State of New Jersey........................................    21
    Hon. Cathy McMorris, a Representative in Congress from the 
      State of Washington........................................    25
    Hon. Ralph Regula, a Representative in Congress from the 
      State of Ohio..............................................    29
    Hon. Don Young, a Representative in Congress from the State 
      of Alaska..................................................    35
    Hon. Ruben Hinojosa, a Representative in Congress from the 
      State of Texas.............................................    39
    Hon. Todd Tiahrt, a Representative in Congress from the State 
      of Kansas..................................................    47
    Hon. Vito Fossella, a Representative in Congress from the 
      State of New York..........................................    52
    Hon. Shelley Moore Capito, a Representative in Congress from 
      the State of West Virginia.................................    57
    Hon. James P. McGovern, a Representative in Congress from the 
      State of Massachusetts.....................................    61
    Hon. Julia Carson, a Representative in Congress from the 
      State of Indiana...........................................    71
    Hon. Timothy H. Bishop, a Representative in Congress from the 
      State of New York..........................................    74
    Hon. John L. Mica, a Representative in Congress from the 
      State of Florida...........................................    77
    Hon. Sue W. Kelly, a Representative in Congress from the 
      State of New York..........................................    83
    Hon. Dennis J. Kucinich, a Representative in Congress from 
      the State of Ohio..........................................    86
    Hon. Brad Miller, a Representative in Congress from the State 
      of North Carolina..........................................    90
    Hon. Robin Hayes, a Representative in Congress from the State 
      of North Carolina..........................................    94
    Hon. Mark R. Kennedy, a Representative in Congress from the 
      State of Minnesota.........................................    98
    Hon. Ginny Brown-Waite, a Representative in Congress from the 
      State of Florida...........................................   100
    Hon. John T. Salazar, a Representative in Congress from the 
      State of Colorado..........................................   103
    Hon. Michael G. Fitzpatrick, a Representative in Congress 
      from the State of Pennsylvania.............................   106
    Hon. Charles F. Bass, a Representative in Congress from the 
      State of New Hampshire.....................................   109
Prepared statements, letters, extraneous material submitted by:
    Mr. Neugebauer...............................................     4
    Mr. King.....................................................     7
    Mr. Ehlers...................................................    17
    Mr. Holt.....................................................    22
    Miss McMorris................................................    27
    Mr. Regula...................................................    32
    Mr. Young of Alaska..........................................    37
    Mr. Hinojosa.................................................    41
    Mr. Tiahrt...................................................    49
    Mr. Fossella.................................................    55
    Mrs. Capito..................................................    60
    Mr. McGovern:
        Letter...................................................    64
        Prepared statement.......................................    65
    Ms. Carson...................................................    73
    Mr. Bishop of New York.......................................    75
    Mr. Mica:
        Prepared statement.......................................    79
        Cover letters............................................    81
    Mrs. Kelly...................................................    85
    Mr. Kucinich.................................................    89
    Mr. Miller of North Carolina.................................    92
    Mr. Hayes....................................................    96
    Mr. Kennedy of Minnesota.....................................    99
    Ms. Ginny Brown-Waite of Florida.............................   102
    Mr. Salazar..................................................   105
    Mr. Fitzpatrick..............................................   108
    Mr. Bass:
        Prepared statement.......................................   110
        Letter...................................................   112
    Hon. Tom Price, a Representative in Congress from the State 
      of Georgia.................................................   113
    Hon. Lane Evans, a Representative in Congress from the State 
      of Illinois................................................   113
    Hon. Jim Gibbons, a Representative in Congress from the State 
      of Nevada..................................................   114


                              MEMBERS' DAY

                              ----------                              


                       TUESDAY, FEBRUARY 14, 2006

                          House of Representatives,
                                   Committee on the Budget,
                                                    Washington, DC.
    The committee met, pursuant to call, at 2:05 p.m., in room 
210, Cannon House Office Building, Hon. Jim Ryun presiding.
    Members present: Representatives Ryun, Crenshaw, Wicker, 
Diaz-Balart, Bradley, McHenry, Conaway, Spratt, Moore, Baird 
and Cooper.
    Mr. Ryun [presiding]. Good afternoon and welcome, everyone, 
to the Budget Committee Members' Day hearing. The hearing is 
directed by the Budget Act, and its intent is to provide a 
forum in which Members of Congress can relay their priorities 
from their districts, State, and country to this committee. We 
are pleased to have a diversified group of Members on the 
roster today and look forward to receiving their testimony.
    Before we go to our first Member, are there any Members who 
have any opening statements?
    I would like to recognize Mr. McHenry.
    Mr. McHenry. Mr. Chairman, thank you so much. I appreciate 
the Members coming forward with their ideas and look forward to 
hearing what good ideas we can try to incorporate as we try to 
create the budget for this coming fiscal year.
    I just want to thank my colleagues Mr. Neugebauer and Mr. 
King especially for being here.
    Thank you, Mr. Chairman.
    Mr. Ryun. Thank you very much.
    We will proceed with Members and their testimony. We will 
begin today with Representative Neugebauer of Texas.

    STATEMENT OF HON. RANDY NEUGEBAUER, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Neugebauer. Mr. Chairman, thank you, and I ask that I 
be able to revise and extend my remarks.
    Mr. Ryun. Without objection.
    Mr. Neugebauer. Thank you, Mr. Chairman.
    You know, we moved in the right direction last year when it 
comes to the budget. For the first time in 8 years, Congress 
passed legislation that reforms mandatory spending programs and 
slows their growth rates, saving nearly $40 billion. Through 
the appropriation process we reduced nondefense discretionary 
spending and held total discretionary growth to just 1.8 
percent. Tax revenues continue to rise, and we are on a track 
to pass legislation that will prevent any future tax increases.
    Despite this setback in the deficit due to emergency 
spending without enough offsets, we must maintain the momentum 
on spending control and continue to keep our tax rates low. To 
this end, Congress should have three goals in this year's 
budget. First, our budget must again contain spending 
reconciliation instructions in order to drive additional reform 
and savings in the rapidly growing entitlement programs. 
Second, we must prioritize our domestic spending better in 
areas in order to live within our means. Finally, we need to 
reform our budget process so that Congress is more accountable 
to the taxpayers.
    It has been a number of years since Congress used 
reconciliation to achieve savings and reforms in mandatory 
programs. We can't afford to wait a long time before we do it 
again, so reconciliation must become a regular part of the 
budget process. Left on autopilot, Medicare and Medicaid alone 
will become 32 percent of all Federal spending, and all 
mandatory programs will reach a two-thirds level of the budget 
within 10 years. The economy does not grow that fast, and 
neither can our government. Our goal should be to hold total 
spending growth to an annual GDP growth or less.
    And what I mean by that, Mr. Chairman, is that I think the 
President is going to report to us that the economy grew at 3.1 
percent GDP last year. And our spending cap should be for our 
Federal Government, that the Government should grow at no 
greater rate than 3.1 percent. If we begin to do that over the 
next few years, instead of letting government grow at a rate of 
over 5 percent, we begin to reduce the budget deficits at a 
much faster clip.
    So one of the things I would like for this committee to 
look into is coming up with some reasonable spending 
restraints. We are restraining the amount of revenue that is 
coming in in the form of keeping taxes lower, but as long as we 
keep writing checks that there are not sufficient funds for and 
we have to borrow, then the spending restraints are not 
enforceable. So what I think we should do, as we put this 
budget together, is look at other ways to enforce and impose 
upon ourselves certain spending caps.
    I would urge the Budget Committee to again include the 
reconciliation instructions in the budget resolution and giving 
the authorizing committees full latitude in order to decide how 
to achieve those savings. I also believe that the 
reconciliation targets should be set in line with a committee's 
share of total mandatory spending.
    What I mean by that is, for example, under the Agriculture 
Committee's jurisdiction, about one-half of a percent is the 
Federal budget and 4 percent of all mandatory spending. So when 
we look at assigning those spending and reform targets, that 
should be in proportion to that committee's share of the 
budget.
    Currently in the Agriculture Committee we will be working 
on reauthorizing the 2007 Farm Bill. We need to make sure that 
whatever bill that we do for budget purposes we keep in place 
our ability to keep our promise that we made to producers in 
the 2002 Farm Bill. I urge the Budget Committee keep these 
considerations in mind when setting targets so that Agriculture 
does not take a disproportionate share of those savings.
    The fiscal year 2007 budget resolution must also challenge 
appropriators and authorizers to better prioritize spending by 
reducing the amount allocated for discretionary spending. The 
discretionary spending debate needs to shift from how much to 
increase programs to whether or not we should be funding those 
programs at all. If an authorizing committee has not done the 
work to reauthorize a program, Congress should not continue to 
appropriate those funds to it. Reducing the discretionary 
spending level in the budget resolution is one way to force 
this change in debate.
    Limiting resources results in real priority setting and 
more debate on whether a program or Members' earmark requests 
are actually necessary. There are a lot of things that would be 
nice for the Federal Government to be doing, but the debate 
really ought to be what we should be doing.
    I appreciate the work that the Budget Committee does; 
however, reforming the way that we budget will enable Congress 
to do a much better job of being good stewards of the 
taxpayers' dollars.
    Two steps: No. 1, enforcing domestic spending caps for the 
next 5 years; and, No. 2, reinstating PAYGO for any new 
mandatory programs, again putting a ceiling on what we spend, 
and if we do initiate new programs, requiring that all new 
mandatory programs would have to be paid for.
    It is important for Congress to create a revolving sunset 
of all Federal programs. What I propose with that is whether 
that period is a 6- or 8-year period, that we say over the next 
8 years on a staggered basis that we are going to sunset every 
major Federal program. Then we begin the real debate on whether 
those programs should be reauthorized or not, looking at the 
effectiveness of them, measuring their success, looking at 
whether if we do reauthorize those programs, are three ways to 
reauthorize them in such a way that they are more efficient and 
better stewards of the taxpayers' dollars.
    Our budget process needs to take into account for emergency 
spending. I agree sometimes Federal resources such as hurricane 
recovery relief need to be made; however, when an emergency 
situation becomes a priority, we need to offset the cost by 
reducing spending items that are less pressing. Providing a 
clear definition of what constitutes an emergency, I think, 
would also be helpful, and creating an emergency spending fund 
within the budget would serve Congress better.
    We know that when we look back historically over the years 
that we have had, in numerous years, emergency spending 
requests that have had to come before this Congress. Let us 
anticipate those and build an emergency fund in our budget.
    We also, finally, need a debate on the budget process 
itself. In conclusion, a sound 2007 Federal budget resolution 
will guide Congress through to making further reforms to 
mandatory programs, prioritizing domestic programs, and 
allowing for continued economic growth by preventing tax 
increases.
    I also urge you to consider recommendations for budget 
reforms that other Members will be bringing forward today.
    Thank you for this opportunity to present my views on this 
year's budget.
    Mr. Ryun. Thank you very much for your testimony.
    [The prepared statement of Mr. Neugebauer follows:]

   Prepared Statement of Hon. Randy Neugebauer, a Representative in 
                    Congress From the State of Texas

    Last year, for the first time in 8 years, Congress passed 
legislation that reforms mandatory spending programs and slows their 
growth rates, saving $40 billion. Through the appropriations process, 
we actually reduced non-defense discretionary spending and held total 
discretionary growth to 1.8 percent.
    Tax revenues continue the increase that began in 2004 due to 
sustained growth in the jobs and the economy, and we are on track to 
pass legislation that prevents a tax increase. Allowing tax rates to 
rise would take away resources from Americans that they use better than 
the government can to generate economic growth.
    As challenging as these budget accomplishments were, the deficit 
will still increase in FY 2006. Congress appropriated billions of 
dollars in emergency spending in response to the Gulf hurricanes and to 
continue to support our troops abroad, but we did not approve 
sufficient offsets to cover these needs.
    Despite this setback, we moved in the right direction last year. 
This year, we must maintain the momentum on spending control, prevent a 
tax increase and address the long-term threats to the nation's fiscal 
health. To this end, Congress should have three goals in this year's 
budget:
    First, our budget must again contain spending reconciliation 
instructions in order to drive additional reform and savings in 
rapidly-growing entitlement programs. Second, we must prioritize our 
domestic spending better in all areas in order to live within our 
means. Finally, we need to reform our budget process in order to make 
Congress more accountable to the taxpayers we represent.

                       MANDATORY SPENDING SAVINGS

    The Deficit Reduction Act will, on average, slow mandatory spending 
growth from 5.9 percent to 5.7 percent. It had been a number of years 
since Congress used reconciliation to achieve savings and reforms in 
mandatory programs; we can't afford to wait that long before we do it 
again. Reconciliation must become a regular part of the budget process 
given the deficit, the growing share of the Federal budget that 
mandatory spending comprises and the growing demographic demands on the 
largest entitlement programs.
    Congress has more opportunities to consider the long-term stability 
of programs such as Medicare and Medicaid when we add regular review of 
entitlement spending. CBO projects each of these programs will grow by 
more than 8 percent over the next 10 years. Left on autopilot, these 
two programs alone will comprise 32 percent of all Federal spending, 
and all mandatory programs would reach two-thirds of spending. The 
economy does not grow that fast, and neither can government. Our goal 
should be to restrict the growth of all spending annual GDP growth or 
less.
    I urge the Budget Committee to again include reconciliation 
instructions in the Budget Resolution that give authorizing committees 
full latitude in deciding how to achieve the savings. I also believe 
reconciliation targets should be set in line with a committee's share 
of total mandatory spending and commensurate with the degree a 
committee's programs are growing in excess of the economy.
    For example, all programs under the Agriculture Committee's 
jurisdiction comprise a half percent of total Federal budget and 4 
percent of all mandatory spending. In the Ag Committee, we have begun 
work to reauthorize Department of Agriculture programs and replace the 
current Farm Bill that expires in September, 2007. Reductions in 
agriculture mandatory spending could reduce the amount the available 
for the Farm Bill before we even write the bill. I ask that the Budget 
Committee keep these facts in mind when setting savings targets so that 
agriculture does not face a disproportionate share of the reductions.

                          PRIORITIZE SPENDING

    The FY2007 Budget Resolution must challenge appropriators and 
authorizers to better prioritize spending by reducing the amount 
allocated for discretionary spending. Although we could eliminate all 
non-defense discretionary spending and still run a deficit, we need to 
squeeze all the savings we can out of this area.
    The discretionary spending debate needs to shift from ``how much'' 
to increase a program to whether or not we should be funding the 
program at all. If an authorizing committee has not done the work to 
reauthorize a program, Congress should not continue to appropriate 
funds to it.
    Reducing the discretionary spending level in the budget resolution 
is one way to force this change in debate. Limiting resources results 
in real priority-setting and more debate on whether a program, or a 
Member's earmark request, is necessary or is effective. There are a lot 
of things that may be nice for the Federal Government to do, but the 
spending debate ought to be about what the Federal Government should be 
doing.

                         BUDGET PROCESS REFORM

    I appreciate the work of the Budget Committee in setting the 
parameters for spending and tax policy every year. However, reform in 
the way we budget will enable Congress to be a better steward of tax 
dollars. Two first steps we need to take are setting and enforcing 
domestic spending caps for the next 5 years and re-instating PAYGO for 
new mandatory spending. Congress has used these tools successfully in 
the past, and we need to put them in force again.
    It is also important for Congress to create a revolving sunset for 
all Federal programs. A revolving sunset will push Congress to do more 
oversight and long-term planning and make better decisions about the 
role and activities of the Federal Government. Sunsetting will also 
help reduce duplication, waste and obsolete programs.
    Our budget process needs to take better account of emergency 
spending. I agree that we needed to devote Federal resources to 
hurricane recovery. However, when an emergency situation becomes the 
priority, we need to offset those new costs by reducing spending on 
items that are less pressing. Providing a clear definition of what 
constitutes emergency spending and setting aside an emergency ``rainy 
day'' fund in the budget would serve Congress better.
    There are a number of budget reform proposals on the table, 
addressing ideas such as biennial budgeting, earmarking, new budget 
points of order and a simplified budget resolution. We need a full 
debate on budget process reform this year.
    A sound FY2007 Budget Resolution will guide Congress in making 
further reforms to mandatory programs, prioritizing domestic programs 
and allow for continued economic growth by preventing tax increases. I 
also urge you to consider recommendations for budget reforms.
    Thank you for the opportunity to present my views on this year's 
budget.

    Mr. Ryun. Any Members with any questions at this time?
    Before we move to the next witness, I would like to take a 
moment and turn to Mr. Spratt for any opening comments he would 
like to make.
    Mr. Spratt. I have none, Mr. Chairman. I thank both 
witnesses for their attendance here and look forward to the 
further testimony and apologize for being late.
    Mr. Ryun. Our next witness is Mr. King from Iowa.

STATEMENT OF HON. STEVE KING, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF IOWA

    Mr. King. Thank you, Mr. Chairman and Ranking Member 
Spratt, and other members of the committee. I appreciate the 
privilege to testify before this committee, and I ask unanimous 
consent to introduce my statement into the record and just 
speak directly to you off the statement extemporaneously.
    Mr. Ryun. Without objection.
    Mr. King. Thank you, Mr. Chairman.
    I want to make five points before this committee, all of 
which are included in my printed remarks. The first is a 
discussion on joint resolution; and then the need, I think, to 
produce a model balanced budget; and then to budget emergency 
spending, which Mr. Neugebauer addressed as well; and then to 
discuss a rescissions bill that could be useful to us in 
controlling spending; and then to point out what it would take, 
at least in a very snapshot way, to balance this budget this 
year.
    First of all, with a joint resolution on the budget, that 
is something we have discussed at some length in the past 2 or 
3 years that I have been here in this Congress, Mr. Chairman, 
and I think that it is essential for us to be able to pass a 
budget out of this House that goes over to the Senate and ask 
them to put an approval on that. So we would have a joint 
resolution that would have the endorsement of the House and 
Senate, and then send it to the President for his signature so 
it would have the full force and effect of law.
    That would eliminate a great deal of the temptation that 
comes in the appropriations process if we are bound then by a 
joint resolution and limits us to the 302(b) allocations that 
would be part of that budget. I have supported this for some 
time. There is significant support, I believe, to do so. And if 
we don't do this, we will continue to see this government grow 
6 to 8 percent every year, as we have seen it grow in the past. 
That would be my first point.
    My second point is a respectful request to this Budget 
Committee, and it is one that I have made in private over the 
last 3 years I have served in this Congress, and it is one I 
would ask your help with, and that is let us produce a balanced 
budget. Whether we can pass it or not is a secondary question, 
but we should hang a model up on the wall that lets the 
American people know how painful it might be to do the cuts 
that are necessary to balance this budget, like we would have 
to balance our family budget or our business budget.
    I reflect back that even though I was faced with emergency 
spending in my business in 1993, when four of my major projects 
went underwater in the construction business, I didn't have the 
alternative to produce anything but a balanced budget because I 
would have been out of business otherwise. And I am 
incorporating two ideas here, the balanced budget and emergency 
spending. We face this in our business and our families every 
day in this country. We do what is necessary to balance the 
budget, no matter how painful it is, because we know we are 
insolvent if we don't do so.
    So I would submit that this committee could be very 
valuable as a tool to produce a balanced budget, if nothing 
else, as a prototype, as a model or template to show how much 
we deviate from that when we produce the budget that actually 
gets 218 votes. I think this committee could do it, and I think 
you have the will to do it. You certainly have the will to get 
a budget out of here. I think you have done a great job out of 
this committee, especially in the last couple of years. Let's 
produce a model balanced budget.
    The third point would be one of Mr. Neugebauer's points as 
well, and that is to budget for emergency spending. There has 
been more efforts to do that in the past, and I applaud those 
efforts, but I think we need that line-item in there, and a 
realistic line-item, not one that is inflated that can provide 
for any contingency, but one that is realistic, that is perhaps 
the average of emergency spending for the last 5 years. Plug 
that number into the budget and adjust our other numbers 
accordingly. Then, if we have an emergency that exceeds that 
line-item within our 302(b) allocation, then let us put it in 
law, in our joint resolution, that there will be mandatory 
offsets so that we can control this spending in the event of a 
disaster, like we have seen down in the gulf coast this year.
    My fourth point is the one that I think could actually make 
a dramatic difference in the spending, and that is to bring a 
rescissions bill to the floor of Congress, at least one bill at 
the end of the appropriations process under an open rule in 
such a way that every single line item--and we talk about a 
line-item veto for the President. We don't even get to, as 
Members of Congress, offer a line-item veto for a majority vote 
of Congress. But under a rescissions bill that would come to 
the floor under an open rule, it would allow any Member of 
Congress to bring an amendment that would strike a line item. 
And in this I am keeping in mind earmarks that have been a 
central point of our discussion, but any line item, and direct 
those funds to any fund that Member chose, whether to reduce 
the overall debt or whether it is to go to another program, and 
let the majority of Congress put a vote up on the board that 
says where we are.
    When we finish this process of a rescissions bill, and I 
don't allege this will be an easy process, especially the first 
year, but after 2 or 3 years of a rescissions bill under an 
open rule that lets us bring anything, you would find that the 
earmarks would be reduced. Outrageous programs wouldn't be 
submitted because they wouldn't want to face the scrutiny of a 
potential majority vote in Congress. So I think that is an idea 
that has a lot of merit and that addresses the earmark problem 
and the overspending problem.
    And then in conclusion, Mr. Chairman, I would just add that 
under a quick analysis of a spreadsheet program I have had made 
available to me, I just went in yesterday and did some quick 
clicks on that, some potentials of what would it take to 
balance the budget for the 2007 fiscal year, and if I just go 
to nondefense discretionary spending, it would take a reduction 
of about 5 percent of nondefense discretionary spending. That 
is probably, I am certain, too painful for the majority of 
Congress to go that way, but I think it is important for this 
committee to analyze different proposals and come back to the 
Congress with a proposal that lets us know how painful it is to 
balance the budget in this time.
    That would conclude my testimony, and I would be open to 
any questions. Thank you, Mr. Chairman.
    [The prepared statement of Mr. King follows:]

  Prepared Statement of Hon. Steve King, a Representative in Congress 
                         From the State of Iowa

    I wish to thank the gentleman from Iowa (Mr. Nussle), Chairman of 
the Budget Committee, and other members on the Budget Committee for 
holding this important hearing today to chart our financial course for 
Fiscal Year 2007.
    Spending is out of control and we are paying more money per 
household for taxes than we have at any time since the Second World 
War. We need to get out of the cycle of automatic spending increases. 
Since much of the budget is calculated from formulas that result in 
automatic spending increases, the size of government may be expected to 
grow by 6 to 8 percent every year--automatically. Baseline budgeting 
estimates how much Federal spending is projected to increase. An 
automatic increase to mandatory programs is not an effective tool to 
reduce spending. During this time of year, those seeking funds often 
play on syntax and claim that budgets are being decreased. For example, 
if a proposal to reduce the rate of growth on spending that has not yet 
actually occurred--recommending that entitlements increase by 6.2 
percent rather than 6.3 percent--there is a mad scurry stating that 
funding is being cut when in fact it is not. We need to get Washington 
out of the mind-set that budget assumptions need to account for the 
growth of government.
    Here are a few of my suggestions to keep us on track toward a 
balanced budget.
    First, I believe that we should transform the concurrent resolution 
on the budget into a joint resolution, requiring the President's 
signature and making it enforceable. The Executive and Legislative 
branches would begin early on to work on budget priorities together 
rather than working on two separate tracks, which is the current 
system. Early involvement between the two branches would foster 
cooperation, leading to less conflict when legislation implementing 
budget resolution policies is finalized later in the session. This 
would make the appropriations process more accountable because the 
appropriators would be bound by law to not exceed the discretionary 
spending caps set by the 302(b) Budget Allocations. Authorizing 
committees would be required by law to find savings in existing 
programs. It would help to keep the budget process from being watered 
down by the time the bill makes it out of conference committee. The 
work during Fiscal Year 2006 is a good start, but we have a long way to 
go.
    Secondly, to fully understand the scope of the budgeting challenges 
we are faced with in the coming years, Members of Congress need to 
understand the full scope of a balanced budget and what it will take to 
get us there. The Budget Committee should be required to present a 
balanced budget annually even if the balanced budget is not passed out 
of committee. This would give us a template to work from and always 
direct us toward a balanced budget. It is important that we set short-
term, mid-term, and long-term priorities. Setting a budget is more than 
just numbers. It defines us by vision and priorities for this Nation.
    Third, Congress currently provides additional funds during the 
fiscal year, usually in supplemental appropriations, to respond to 
specific natural disasters and other emergency, or unanticipated, 
situations. Congress and the President usually designate the additional 
spending as an ``emergency requirement,'' effectively exempting it from 
budget constraints established under the Budget Enforcement Act of 
1990, as amended. I propose that emergency spending should be planned 
for to the best of our ability. We are not really living under a real 
and true budget when spending can be taken off the table and accounted 
differently under the auspices of an emergency. As a small businessman 
who saw my very livelihood in pending construction jobs and equipment 
washed down the Missouri River in the flood of 1993, I had to count 
that disaster as part of my whole budget.
    Finally, the Budget Committee should require that at least one 
rescissions bill be brought to the floor of the House and the Senate 
under an open rule so that every member has the opportunity to bring 
amendments. This will reduce the number of earmarks simply because of 
the intimidation factor. Bloated spending will be dramatically cut by a 
majority vote of Congress.
    I believe we can work together to reduce the deficit and still 
support a budget that provides for the common defense, helps us fight 
and win this war on terror, and promotes economic growth. I have some 
sample charts that illustrate what a 5-percent cut to discretionary and 
other non-Medicare or non-Social Security spending would look like over 
the next 5 years. There is nothing courageous or commendable about 
voting for deficits. True courage is exhibited by taking a tough stand 
and choosing to cut spending. When it comes to Federal programs, it is 
not how much money is spent, but what we spend the money on that 
counts. I believe we need to chart an economic course in this Nation 
that will not bankrupt our children and grandchildren. The easiest and 
best way to stop the growth of Federal spending and give more money 
back to American families is to make these tough decisions now. There 
still remains much work to be done, and I look forward to working with 
the Committee to accomplish the goal of not only reducing the deficit 
but also balancing the budget.
    Once again, I thank and commend the Chairman (Mr. Nussle) and the 
Committee for the work they have done and encourage them to press 
forward on our tough budget decisions ahead.

    Mr. Ryun. Thank you very much for your testimony, and I 
would like to at this point turn to any Members that might have 
questions.
    Mr. Wicker.
    Mr. Wicker. Let me ask a question, and I appreciate the 
testimony from both of you. It seems that both of you would 
like for us to change the budget procedure with regard to 
emergency spending.
    Mr. King, you were a little more specific, suggesting that 
we look back at the past 5 years and use that average as an 
amount. Have you run the numbers to see how that would have 
changed things for the Hurricane Katrina. Is it something that 
you have already done; or would you supply that to the 
committee?
    And, also, how would it actually change things as a 
practical matter, since we actually did offset a great deal of 
the emergency spending that we had last year?
    Mr. King. Well, I would be happy to run those numbers and 
provide them to the committee.
    I have just laid out a philosophy, and I don't think any 5-
year history would have prepared us for the Katrina/Rita 
disaster that hit us, because the magnitude of that is beyond, 
I believe, what that would have accommodated for. But that is 
from a philosophical perspective. It isn't clear yet the 
expenses of Katrina to be able to determine the impact of that 
particular disaster, but I do think Katrina/Rita is anomaly.
    We have faced severe disasters in the past, none of that 
magnitude. So I am hopeful that that will be kind of a blip on 
the radar screen in a fashion that as we look back 
historically, we would be able to have a perspective that is 
broader than Katrina and absorb that into our average in future 
years.
    Mr. Wicker. Would this contingency emergency fund be added 
to the baseline each year? That is one of the arguments in 
favor of emergency spending, that you go back to the original 
baseline; you don't add that in.
    Mr. King. It would be my philosophical position, not a 
procedural one, that unspent funds would be returned back into 
the general fund so that they didn't add to the baseline. 
Otherwise we would be inflating on unspent funds, and that 
wouldn't reflect the disasters that we faced.
    Mr. Neugebauer. I think I would probably take a little bit 
different approach. I think I would put it in the baseline. It 
is easier to give it back. But if you build your budget around 
that, one of the things, for example, in Katrina, if we had had 
an emergency contingency fund, I think we would have given 
Congress a little more time to have sat down and looked at what 
would have been an appropriate reaction to Katrina. As a result 
of that, we came back and we passed an unprecedented--I think 
it is the largest disaster bill in the history of this country. 
If you had had a certain amount of money in there that could 
have been activated under the budget, rather than having to 
come back and passing an emergency bill, I think possibly a 
better outcome of how we spent that money could have been 
achieved.
    In my business, for example, I just recently came to 
Congress from the private sector, and we reserved amounts for 
potential overages or for potential unforeseen things that 
could happen during the budget year because we had to build it 
around that. It is hard to go back to your customers after you 
have sold all your merchandise and say, I didn't sell this for 
enough because we had an extraordinary expense that occurred 
during the year.
    So I think you have to build that into this budget, whether 
it is a drought in the Midwest or hurricanes in Florida or 
hurricanes in the Southeast. I think we have to build that in 
our budget because we have been spending those kinds of monies.
    Mr. Wicker. Well, I thank you both for your testimony. Both 
of you do come from a business background. That is very helpful 
in looking at the problems that we face.
    I want to congratulate these two witnesses, Mr. Chairman, 
for being creative and thinking outside the box in providing us 
their expertise on this issue.
    Mr. Ryun. Thank you very much.
    Any more questions?
    May I just say to Mr. McHenry, if you can make your 
question brief. We have two other witnesses. You may continue.
    Mr. McHenry. Thank you, Mr. Chairman.
    I do want to thank Mr. Neugebauer and Mr. King for their 
testimony. What they both struck upon was the need for a 
balanced budget.
    Mr. King, you spoke directly about that. Do you want to 
fill in any more of the details on what you would like to see, 
the approach here? Because I know every year we have the 
opportunity to offer amendments, and if it is something the 
committee cannot take up, I would be very willing to work with 
you on crafting our view and create our version of a budget so 
that we can move toward balance and bring the Congress with us.
    Mr. King. Well, thank you, Mr. McHenry. I have not worked 
out a budget yet myself. As you know, it takes a broad staff 
and time to do that in a responsible fashion. But I think we 
need to look at all the components of the budget and analyze 
them. And it is the growth of entitlements that I am 
particularly concerned about.
    I am also concerned that we put together a budget that if 
it doesn't balance this year, let us set a target for when it 
does balance and let us try to make a promise to the American 
people and head down that path. We need a short-term, a mid-
term, and a long-term strategy, and that strategy needs to 
include these entitlements, particularly Medicare, Medicaid, 
and Social Security.
    And there is going to have to be some policy changes there 
in order to keep that growth under control, or interest will 
eat us up in the end down the road. So I would like to look at 
that with you in the overall composition of the budget.
    I do not think a 5-percent cut in the discretionary 
nondefense spending would be the way to balance the budget. I 
think that is too draconian, but I used that because it was a 
simple model. So I would like to look at that in a broader 
scope with you and anyone else interested in producing a 
balanced budget.
    Mr. Ryun. Mr. King, thank you very much for your testimony, 
and we will move now to Mr. Ehlers of Michigan for his 
testimony.

    STATEMENT OF HON. VERNON J. EHLERS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Ehlers. Thank you very much, Mr. Chairman, and I thank 
you for the opportunity to testify on my favorite topic and, I 
believe, yours, the same thing I have spoken to you about over 
the past several years, about the need for more funding for 
scientific research and the need for great improvement in math-
science education in this Nation.
    I was always received very cordially by this committee, but 
I was always told that you could not grant my entire request 
because you could not go over the President's request. So we 
now have a situation where the President has requested 
substantial improvement through his American Competitiveness 
Initiative, and I would like to discuss that a little bit and 
certainly lend my wholehearted support to that.
    First of all, the most important thing to understand is 
about math and science education, and I have put on the board 
something that indicates I am not alone in this. This is 
President's Bush's comments about America's Competitiveness 
Initiative announced in a letter on February 2nd, and I think 
this speaks for itself. I am not in the habit of reading 
PowerPoint presentations to people, but you can see it for 
yourself.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In addition to that, there is another dimension which I 
have testified to you before about, and which is becoming 
increasingly apparent, and that is the national security aspect 
of this. The national security aspect--probably the best 
statement I can give you on that is the Hart-Rudman Report of 
2001, which is, in this Commission's view, that the 
inadequacies of our systems of research and education pose a 
greater threat to U.S. national security over the next quarter 
century than any potential conventional war that we can 
imagine.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Basically they are saying, and I see I have the undivided 
attention of the committee, this is extremely important, our 
national security depends on developing better research systems 
and better math-science education. If we look at what we have 
been doing and what is happening with our Federal funding, we 
have--for NASA, Department of Energy, and the National Science 
Foundation (NSF), we have actually gone down in most of our 
funding for scientific research, except the NSF has climbed 
very slowly.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    What this chart does not show, and I have not included a 
chart on that because I don't want to overdo it with charts, 
but if you compare it to other countries, we are falling behind 
dramatically. In fact, we are at the point where South Korea 
will very shortly surpass us in the amount spent on research 
compared to their GDP, and so will other nations, who are 
already ahead of us on that point.
    One area we have done well is not shown in this, and that 
is at the National Institutes of Health (NIH), where we, 
through agreement with a previous administration and with the 
strong support of Speaker Gingrich, doubled it over a period of 
5 years. And if you talk to Mr. Gingrich today, he will tell 
you he considers it his greatest failure as a Speaker the lack 
or the failure to double National Science Foundation at the 
same time.
    It has reached the point where scientists at NIH are saying 
we will have to fund physical science research ourselves 
because we cannot proceed faster and further in health and life 
science research until we get the physical science and research 
done. So the President's initiative addresses this.
    This shows what we have actually done with the National 
Science Foundation, and the President's request targets three 
entities, the National Science Foundation, National Institute 
of Standards and Technology, and the Department of Energy's 
Office of Science. Now, when you look, notice here what has 
happened. For years the President's request was below the 
Congress' actual appropriation. That has changed. In the last 
few years, if you look at fiscal year 2005, the red bar, the 
President's request was substantially above what the Congress 
appropriated. The next year, same thing; still below the 
President's request.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    I am pleased that the President has offered a much higher 
request this year, recognizing the urgent need for the 
increased funding for scientific research, particularly for the 
National Science Foundation, and I ask that this committee will 
agree with that request.
    This chart is interesting because the House itself decided 
to double the appropriations for the National Science 
Foundation. They doubled the authorization over 5 years. The 
red lines show what that authorization is, and the other lines 
demonstrate how clearly we have failed to meet our goal as 
passed in that legislation.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Basically, in the National Science Foundation, the 
President requested an increase of 8 percent, which is large in 
terms of our budget difficulties, but won't begin to really 
catch up with other nations unless we keep this up for some 
years. But his effort is to double in 10 years.
    Department of Energy, Office of Science, increased by 14 
percent in several areas, and half that will go to researchers 
and half to facilities that will keep us competitive 
internationally.
    And then we have the National Institute of Standards, which 
is often neglected, but is very vital to our competitiveness in 
terms of their standards-setting, their Manufacturing Extension 
Partnership and the Advanced Technology Program (ATP), which is 
now in limbo. But this will provide the increase they need, 
particularly in cybersecurity. They have some of the world's 
cybersecurity experts there, and other branches of government, 
including the Defense Department, depend on those individuals 
to keep abreast of the developments in cybersecurity.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    So my request is that we follow the President's request, 
that we raise the basic research, the math and science 
education and the Function 250 levels to the President's 
request, and this, I believe, should be our top priority if we 
expect our Nation and our businesses to remain competitive with 
other countries.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    It is not just a matter of different wage rates in 
different countries. It is a matter that our engineering 
enrollment has gone down for 20 years, whereas the Chinese have 
gone from producing half as many as we do to now producing six 
times as many as we are. They have graduated 300,000 engineers 
this past year, six times what we have graduated, and it is a 
concerted effort on their part. India has done the same, both 
of those as a result of decisions made 20 years ago that they 
could beat us only if they improved their investment in 
research and in math and science education.
    They decided to do it, they have done it, and, frankly, 
they are beating the pants off us in some areas. So we have to 
get with it and meet the competition.
    Thank you very much for your time.
    [The prepared statement of Mr. Ehlers follows:]

   Prepared Statement of Hon. Vernon J. Ehlers, a Representative in 
                  Congress From the State of Michigan

    Thank you, Mr. Chairman, for the opportunity to testify as the 
Committee considers a FY 2007 Budget Resolution. I know the Committee 
must weigh many pressing national priorities, including the continuing 
war on terrorism, facilitating economic stimulus, and maintaining 
fiscal responsibility.
    Mr. Chairman, I strongly support the President's call to maintain 
the competitive ability of the United States in an increasingly 
innovative world economy. His American Competitiveness Initiative (ACI) 
requests focused funding on areas that will improve education, promote 
domestic innovation and economic productivity. I hope that you share my 
view that the research and education initiatives are a national 
priority, and I encourage you to budget the necessary resources for 
scientific research and education as you evaluate the FY 2007 budget.
    In making these difficult budget choices, we must not overlook the 
fact that scientific research and development underpins our economic 
and national security. Scientific research and development forms the 
foundation of increased innovation, economic vitality and national 
security and is an investment that has historically delivered 
significant returns on that investment. For the U.S. to remain a 
prosperous country, it must maintain its technological leadership in 
the world. As you begin the budget process, I strongly urge you to give 
high priority to scientific research and development and math and 
science education as highlighted in the American Competitiveness 
Initiative.
    For the past several years, research and development funding for 
defense, weapons development and national security has increased while 
other areas of Federal research and development, especially basic 
research in the physical sciences, has remained flat or declined in 
real terms. The President's FY 2007 request of $137 billion for 
research and development seeks to reverse this trend at three important 
agencies: the National Science Foundation, Department of Energy's 
Office of Science, and National Institute of Standards and Technology.
    While our focus on immediate threats is certainly warranted, it is 
necessary for us also to consider longer-term threats to our national 
security and the agencies that support research in these areas. 
Fundamental research and science education are essential to advances in 
medicine, military applications and continued economic prosperity, 
including the development of cancer therapies, GPS- or laser-guided 
missiles, and the Internet. The diversity of the basic science research 
portfolio ensures discoveries that lay the foundation for biomedical 
advances and defense. Historically, our investment in physical science 
research has been slipping, and our overall national investment in 
research and development is at a rate much slower when compared to 
other growing economies. Furthermore, Congress has actually reduced the 
appropriated funds for physical sciences at NSF and DOE in recent 
years, compared to the request.
    The bulk of the requested funds at the three agencies will support 
research in the areas of computer technology and homeland security 
infrastructure and fund facilities that will maintain the U.S. as a 
paramount location to conduct physical sciences and energy research. 
The American Competitiveness Initiative sets the U.S. on a bold path to 
double the budgets of three agencies in the next 10 years. In addition 
to doubling these research budgets, it is a bold and ambitious approach 
to keeping America at the forefront of research and education by 
increasing the numbers of highly qualified math and science teachers, 
expanding high school advanced placement offerings, and providing 
workforce skills training to some 800,000 workers annually.

                      NATIONAL SCIENCE FOUNDATION

    The National Science Foundation is the only Federal agency 
dedicated solely to supporting basic scientific research. NSF funding 
accounts for one-fifth of all Federal support for basic research and 40 
percent of physical science research at academic institutions. Nearly 
90 percent of these awards are made through a competitive, merit-review 
process that ensures that excellent and innovative research is being 
supported. Furthermore, NSF consistently receives the highest rating 
from OMB for the efficiency and excellence of its programs.
    The NSF's FY 2007 budget request of $6.0 billion is an 8-percent 
increase over FY 2006 appropriations, the first year in a 10-year 
commitment to double its budget. This marks a shift from previous 
budget requests, as the NSF budget has been stagnant in recent years, 
and even cut in FY 2005. This significant infusion of research funds is 
extremely necessary for FY 2007 and I ask you to enhance the science 
allocation accordingly. The request is still well below the authorized 
funding level necessary to complete the commitment Congress made to 
double NSF funding in 2002, but I am confident that this request is the 
start of a new doubling path that we can truly follow.
    While I am heartened by the commitment the Administration's request 
shows for the fundamental research budget at NSF, I would like to 
register my concern that the education programs at the Foundation have 
not been included in the ACI. NSF is the primary Federal supporter of 
science and math education; it underwrites the development of the next 
generation of scientists and engineers. I am particularly concerned 
about the trend of the current budget request that restructures the 
Education and Human Resources (EHR) budget at the Foundation and 
eliminates three programs critical to our nation, including the Math 
and Science Partnership program. The budget request, while firmly 
supporting research endeavors at NSF, overlooks the education role of 
NSF. While the overall budget of NSF increases almost 8 percent, the 
EHR directorate experiences a modest 2.5-percent increase and a 
dramatic restructuring. This is a continuing, but distressing, trend 
for NSF to move away from their K-16 educational mission and to focus 
solely on graduate education and activities to broaden participation in 
STEM fields. Decreasing the role of NSF in education, or eliminating 
any new awards entirely, seems very shortsighted when we are currently 
facing the challenge of adequately preparing our students to enter 
science and technology fields.
    I have worked very hard to maintain the Math and Science 
Partnership program at NSF, where grants are awarded on a peer-reviewed 
basis that complements the strengths of a research-based organization. 
The FY 2007 request for the Math and Science Partnerships of $46 
million will only allow continued funding for the programs that were 
started in previous years, eliminating the future of a research-based 
program to determine how our students best learn the subjects of math 
and science. I urge the Committee to provide NSF with the highest 
possible budget allocation this year in order to support the education 
as well as research mission of the Foundation.

                DEPARTMENT OF ENERGY'S OFFICE OF SCIENCE

    The Department of Energy's Office of Science funds 40 percent of 
our nation's physical science research. Research in these areas has led 
to many new economic and medical advancements including, among others, 
new energy sources, the Internet, cell phones and laser surgery. To 
maintain our economic, technical, and military pre-eminence, the 
Federal Government must continue to support research in alternative 
energy sources, nanotechnology and supercomputing. I am pleased that 
the Office of Science is included in the President's ACI and that the 
FY 2007 budget request for the Office of Science is $4.1 billion--an 
increase of 14 percent from the FY 2006 enacted level. I respectfully 
request that the Committee provide the Office of Science with a budget 
that reflects the critical role that it plays in maintaining our 
economic and military pre-eminence. Last year it endured significant 
cuts that, in part, led to layoffs and the delay of many important 
instruments. As part of the American Competitiveness Initiative, the 
Office of Science is not only important to the future of U.S. science, 
but also our competitiveness and energy security.

             NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY

    The National Institute of Standards and Technology is the nation's 
oldest Federal laboratory, and the only laboratory with the explicitly-
stated mission to promote U.S. innovation and industrial 
competitiveness. Because it has consistently provided high-quality, 
cutting-edge research into a wide range of scientific and technical 
fields critical to U.S. industry it is perfectly placed to play a 
central role, as proposed in the Presidents' American Competitiveness 
Initiative.
    The budget request includes $467 for the core NIST laboratory 
programs and facilities in FY07, a 17-percent increase over FY06 
enacted. This increase includes $72 million for new research 
initiatives and enhancements to NIST's user facilities. I believe it is 
very important to support this request, as it represents a significant 
yet sensible investment in programs that give the U.S. a significant 
head start in several fields of emerging technology in quantum physics 
and nanotechnology that will ultimately have great economic impacts. 
Work at NIST's labs also supports our nation's efforts to improve 
cybersecurity, building safety, and voting technology. In addition, 
NIST has a proven track record in research and development on standards 
and measurement techniques that help U.S. industries become more 
globally competitive and retain leadership in cutting-edge technologies
    While I am pleased that the president has included NIST labs in his 
ACI, I am very concerned about other manufacturing programs at NIST. 
The President's FY 2007 budget request cuts the Manufacturing Extension 
Partnership (MEP) program by over 50 percent to $46 million. The MEP 
program is interested in upgrading its services beyond its traditional 
model of simple cost reduction assistance that helps these firms 
compete at a higher level, to move into areas such as design and 
technological sophistication. This is necessary for their survival in 
the 21st century globalized economy, and MEP is an excellent entity to 
transfer the products of scientific research to small and medium-sized 
firms. I have worked very hard over the years to help my colleagues in 
Congress understand that MEP is vital to retaining American 
competitiveness and American jobs, and I believe they appreciate the 
value of this program. Data on the improvement of assisted firms proves 
MEP works, and therefore Congress continues adequate funding. Yet each 
budget cycle the Administration proposes to significantly cut this 
program. Diminishing funding for MEP will devastate small and medium-
sized manufacturers and in the long run severely hurt our competitive 
edge in the manufacturing sector. Furthermore, I continue to support 
the Advanced Technology Program (ATP) and am disappointed that the 
Administration has again included no funds for the program in the 
budget request. ATP is NIST's only extramural research grant program, 
funding high-risk, high-return technology research and development on a 
cost-shared basis with U.S. industry, and as such can make a major 
contribution to the American Competitiveness Initiative.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION
    Finally, I would like to address the National Aeronautics and Space 
Administration (NASA) and its share of function 250. In order to align 
the agency with the President's challenge to travel to the moon and 
Mars, NASA has reorganized and streamlined its structure again this 
year under new Administrator Griffin. The proposed missions will be 
very costly and will pose significant technical obstacles that will 
only be solved through basic research. Despite a 3.2-percent requested 
increase in FY 2007, in order to fund the next generation human space 
vehicle and to retire the Shuttle by 2010, $1.5 billion has been 
transferred from the science mission budget at NASA.
    I understand that the impacts of unanticipated budget constraints 
have been felt across the entire agency, but I remain concerned that we 
will finance the return to the moon and travel to Mars at the cost of 
other critical scientific discovery. Basic science and engineering 
research underpin all of NASA's major accomplishments as well as many 
of the technologies you and I use everyday. Furthermore, basic research 
at NASA will support the future exploration endeavor; if we continue to 
reduce basic research in the out-years, our astronauts will be working 
with outdated technology. I urge you to protect NASA's future by 
supporting its basic research accounts and making the function 250 
budget a significant amount.
 
                              CONCLUSION

    I realize that the fate of many of the programs I have highlighted 
in this testimony lies not with you, but with the appropriations 
committee. While the budget does not spell out exact funding for these 
programs, I believe that you can send a strong signal about the 
importance of fundamental science and education to the appropriations 
committee by making function 250 a top priority in the FY 2007 budget. 
Behind your lead, I, along with many colleagues who also support 
science funding, will fight for these programs throughout the budget 
and appropriations process. When faced with the difficult choices you 
must make this year, I urge you to remember that we cannot afford to 
sacrifice the research and education which current and future 
generations need to ensure their economic prosperity and domestic 
security.
    Thank you again for allowing me to testify.

    Mr. Ryun. Any Members that have any questions at this point 
for the gentleman from Michigan?
    Mr. Spratt. Dr. Ehlers, thank you very much for your 
emphasis, in particular on the education and human resources 
budget. I had an interesting experience several years ago. I 
went to a church homecoming in a little town called Dillon, 
South Carolina, notable today because Ben Bernanke, now head of 
the Fed, grew up in that school. And I was seated next to a 
gentleman who is African American, also graduated the year 
before Ben Bernanke, and, in fact, convinced him he should come 
to Harvard instead of Brandeis, and probably had an 
incalculable impact on his future. This man today is professor 
of the history of science at MIT. Both he and Ben Bernanke came 
from the same small high school in Dillon, South Carolina.
    I asked him what would he do to change math and science 
education in the country, and particularly in a State like 
South Carolina. And he said clearly there are complicated and 
simple answers to that, but the simple answer is to start much 
earlier, with much better instruction in the lower grades, as 
opposed to just concentrating your effort on college education 
and graduate education. Start in the first, second, and third 
grade, with teachers who are clearly competent to deal with 
scientific concepts and to capture the imagination of young 
people at a point in time when they can become enthralled with 
science and develop a momentum that will take them through the 
rest of their years.
    And I am simply glad to see you are putting the emphasis on 
the fact that we should not let up in that area. If we are 
truly going to have a math and science initiative, the NSF 
clearly will have to be involved in developing the curriculum 
and methods of teaching and the people who will be the resource 
people for making this initiative work.
    Mr. Ehlers. Thank you very much for that comment. I would 
point out I feel very strongly about this. I have watched the 
National Science Foundation work in math-science education for 
over 30 years, I have been in the field longer than that, and 
it is crucial to our efforts to improve math-science education.
    The emphasis in the President's budget is more on the 
Department of Education than on the National Science Foundation 
in an apparent effort to eliminate duplication. I would simply 
point out that it is not duplication.
    The National Science Foundation deals with research on the 
best ways to teach math and science, on curriculum development, 
and on teacher training provided by the initiative of faculty 
members who submit grants that are peered-reviewed and, if 
approved, go into effect. The Department of Education also does 
excellent work, but they work through State boards of education 
and State departments of education, and so we lose our focus to 
a certain extent depending on which State gets it and how that 
State feels about it.
    So I strongly favor a very good program in that area in the 
National Science Foundation. I do not in any way denigrate what 
the Department of Education is doing. I just think they are 
complementary and should both be funded and work together.
    Mr. Ryun. Are there any other questions? Seeing none, Mr. 
Ehlers, thank you very much for your proposal.
    We will next move to the gentleman from New Jersey, Mr. 
Holt, for his testimony.

 STATEMENT OF HON. RUSH D. HOLT, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Mr. Holt. Thank you very much. I am really pleased to be 
here with my colleague Vern Ehlers. We do tag team on this 
issue often. But I guess we had better work on our strategy, 
because over the past 5 years we haven't yielded that much.
    I strongly concur in his recommendations for Function 250 
and for science and math education, and I would just hasten to 
point out that this is critical for what you do, for what we 
do, for what America does. Even if none of you intend to go 
into science or engineering, you have already got a career, let 
me tell you that what you are predicating your work on, what 
you are predicating this Budget Committee's work on, is growth 
in our economy. It will not happen without investment in 
education and research and development.
    We are living off of the investments that were made two or 
three decades ago. For productivity, you need new ideas, and 
you need a good workforce. That requires investment. According 
to the American Association for the Advancement of Science, in 
real terms the total Federal R&D portfolio will decline for the 
first time since 1996 after flattening out for a number of 
years.
    The NSF, which my colleague spoke about, has had 
essentially a real decrease. The contradictions between the 
President's call for improved science and math education and 
the budgets proposed represent contradictions that are poignant 
and telling. Programs zeroed out in the NSF education and human 
resources directorate include the NSF Math-Science 
Partnerships, about which my colleague spoke, we need these 
programs.
    The NIH, yes, has had a budget doubling, although it is now 
starting to creep downward again. But all of the 
instrumentation, methodology, and the scientists themselves 
which are necessary to make good use of that NIH budget come 
from programs like the NSF, like the Department of Energy, like 
NASA, and they are not coming. So we are falling far short in 
our investments.
    The Democrats have put together something we call the 
innovation agenda. I plead with you on the other side of the 
aisle here to take that issue away from us. The reason we have 
presented that innovation agenda is because the work is not 
getting done. It is not getting done in science education, it 
is not getting done in implementing broadband, and it is not 
getting done in energy research.
    Let me take energy research for just a moment. If you have 
a business with a questionable input, you might want to spend, 
1 or 2 percent of your revenue in searching for some insurance 
on your input. Well, we have an $800 billion energy economy. 
Each year we are spending $800 billion on energy goods and 
services. We are not spending anywhere close to 1 percent of 
that amount in R&D on alternatives to what we know is a 
questionable input.
    So just to take that example of energy R&D and extend that 
across the whole field in which you deal, I think you can 
quickly see we are not making the investments we need to make 
in order to get the productivity growth on which your 
projections are predicated. This is not charity to people in 
lab coats, this is not charity to schoolteachers, but an 
investment that we must make for all the reasons that Mr. 
Ehlers gave, or all the reasons that you yourself could give.
    Function 250 is lagging, science and math education are 
lagging, and study after study, whether it's the Hart-Rudman 
Commission, or the National Academy of Sciences Commission this 
year, or the John Glenn Commission, study after study shows 
that this is reaching a critical point. We may have passed the 
critical point. It requires dramatic action on your part and 
all of us in Congress to correct.
    With that, I would be happy to take any questions or 
provide additional material for the record.
    [The prepared statement of Mr. Holt follows:]

 Prepared Statement of Hon. Rush D. Holt, a Representative in Congress 
                      From the State of New Jersey

    Thank you, Chairman Nussle, Ranking Member Spratt, and 
distinguished Members of the Committee on the Budget. I appreciate the 
opportunity to testify regarding appropriate funding levels for 
Function 250 programs in the FY 2007 Budget.
    I come here today to share with you the importance of increasing, 
not cutting, the budget of Function 250 programs. The President's 
``American Competitiveness Initiative'' has proposed an increase in the 
Research and Development budgets in particular areas of three major 
agencies of the U.S. Government: the Department of Energy Office of 
Science, the National Institute of Standards, and the National Science 
Foundation. These increases are mildly encouraging, and only mildly 
encouraging. The increases are at the expense of research and 
development in other agencies. Peter is being robbed to pay Paul.
    In the AAAS Preliminary Analysis of R&D in the FY 2007 Budget one 
finds the following:
    ``The overall Federal investment in R&D would increase to $137 
billion in 2007, but in a repeat of past budgets the continuing 
Administration priorities of weapons development and space vehicles 
development would take up the entire increase, and more, leaving 
declining funding for the remainder of the R&D portfolio.''
    The proposed increase for the Federal R&D portfolio in FY07 is 1.9 
percent, which is short of the 2.2-percent increase needed to keep pace 
with the expected inflation.
    Additionally, ``The large proposed increases for physical sciences 
and engineering research are not enough to keep the Federal investment 
in basic and applied research (excluding development) from declining 
for the third year in a row after peaking in 2004.''
    As the AAAS notes, ``In real terms, the total Federal R&D portfolio 
will decline for the first time since 1996 after flattening out the 
last few years.''
    The proposed R&D budget is not even keeping pace with inflation!
    After we achieved the doubling the National Institutes of Health 
budget, the focus shifted to doubling the budget of the National 
Science Foundation. The intent was not to reduce the NIH and raise the 
NSF, but to have both budgets increased.
    The current increase in the NSF is packaged as the start of a 10 
year doubling effort of the NSF. We should not forget that in the 2002 
NSF authorization, the Bush Administration and Congress agreed on a 5 
year doubling effort by 2007. This 2007 request, according to the AAAS, 
falls nearly $4 billion short of that previous target.
    With the increase in the NSF budget we see the NIH budget flat for 
the second year in a row, and would fund less than 1 out of every 5 
grant applications (AAAS). After adjusting for inflation, the NIH 
budget would decline for the third year in a row. All but three of the 
NIH institutes and centers would see their budgets fall for the second 
year in a row. The NIH is not alone in these tough decisions, however.
    Despite the increase in the Department of Energy's budget for 
nuclear physics, computing research, and basic energy sciences, high 
energy physics, fusion, and biological and environmental research would 
remain below last year's budget.
    In addition, despite the increase in energy R&D monies, the DOE 
would eliminate R&D on gas and oil technologies and some renewable 
energy technologies. Just last week, in response to the FY06 budget, 
the National Renewable Energy Laboratory in Golden, Colorado, cut its 
budget on travel, outside contracts, other operating expenses and still 
had to lay of 32 staff, eight being researchers--1 from solar physics, 
and the 7 from the biomass and hydrogen arenas.
    NREL's biomass projects focus on developing, integrating, and 
demonstrating biochemical and thermochemical conversion technologies, 
and renewable diesel technologies. Through its Hydrogen, Fuel Cells, 
and Infrastructure Technologies Program, NREL conducts R&D in hydrogen 
production and delivery, hydrogen storage, fuel cells, technology 
validation, safety, codes and standards, and analysis.
    Aren't these areas in the President's State of the Union address as 
areas that are components of the Advanced Energy Initiative?
    How are we to attract the best and the brightest to areas of 
declared national need, if our national laboratories are firing 
researchers in these areas? The mixed messages of the State of the 
Union address and the Budget of the Federal Government express a lack 
of continuity and trustworthiness.
    The world is in transition right now. We, and the other 
industrialized nations of the world, are accelerating into a knowledge-
based global economy.
    The task of the government is to lead the nation in creating an 
environment where talent grows, talent develops, talent stays, and even 
attracts new talent to create new knowledge, launching new companies, 
spurring on economic growth. The government must work to protect this 
newly created knowledge as well, or the creators will leave and produce 
elsewhere.
    The rules of this new economy based on knowledge and networks are 
very different than the rules of a manufacturing based economy 
(Enriquez, pg. 31), and we need visionary leadership followed by 
thoughtful, critical actions to propel us to forefront of this 
unfolding new world.
    As described by the Organization for Economic Co-Operation and 
Development, technology is the enabler of a knowledge based economy. 
Technology moves forward through basic and applied R &D in all areas of 
science. The application and commercialization of technology are the 
``weed out'' factors of this global economy. We cannot, at this time, 
afford to not invest in the future of our nation which will unfold 
through research and development.
    We can make no assumptions that we will remain the dominant factor 
in this economy. Complacency will be our downfall. Although there is 
some increase in R&D programs, we cannot accept the cuts as well. We 
must take a stand to increase the overall R&D budget (including all 
three arenas: basic, applied, and technology development), not select 
particular programs at the cost of other programs.
    Distressing examples of the current practice is the National 
Institute Standards and Technology, where the laboratories receive a 
substantial increase as the cost of the Advanced Technology Program and 
the Manufacturing Extension Partnership.
    The ATP program, zeroed out for the second year is designed to 
provide cost-shared funding to industry to accelerate the development 
and broad dissemination of high-risk technologies that promise broad-
economic benefits for the nation. When evaluated by National Research 
Council, an arm of the National Academies of Science, the program was 
found to be effective, but with suggested improvements. Companies are 
less likely to gamble on high-risk, high-return research and 
development without an investment by the government. These are highly 
competitive grants with only 12.5 percent of applications passing the 
critical analysis to obtain funding. High-risk, high gain R&D can lead 
us forward in the knowledge economy, but not with the support and 
encouragement of the Federal Government.
    At the National Science Foundation, as the research directorates do 
well, the Education and Human Resources directorate's funding levels 
will remain at a level 20 percent below the 2004 budget in real terms 
(AAAS). Similar actions are taking place in NASA as well, as it 
restructures away from its education directive and focuses on the moon 
and Mars, by reducing or removing effective nation-wide education 
programs.
    The contradictions are poignant and telling, as our President calls 
for improved science and mathematics education, his budget cuts these 
programs throughout the science agencies.
    Programs zeroed out in the NSF Education and Human Resources 
directorate include NSF Math-Science Partnerships. The MSP's result in 
large scale changes in educational practice to improve student 
mathematics and science achievement. The three goals of the program 
are: ensuring that all students have access to, are prepared for, and 
are encouraged to participate and succeed in, challenging and advanced 
mathematics and science courses; enhancing the quality, quantity and 
diversity of the K-12 mathematics and science teacher workforce; and 
developing evidence-based outcomes that contribute to our understanding 
of how students effectively learn mathematics and science. Successful 
MSP projects are intended to serve as models that can be widely 
replicated by state math and science partnership programs under the 
Math and Science Partnerships in No Child Left Behind.
    Why are math, science, and critical foreign language education 
important? Science, technology, engineering, and mathematics are the 
foundations of innovation, technology, and a knowledge economy. 
Critical foreign language fluency allows for better communication with 
markets that are opening to us or arenas of the world with whom who 
need to collaborate to fight disease, terrorism, piracy and challenges 
of globalization yet to be revealed. The youth of our nation are the 
future of America. If we fail to prepare them to compete in the global 
economy, we are failing our nation. Do we want history to look back at 
this time and view us as short-sighted, isolationist, commonplace, 
declining? We must reach out and be innovative with our future.
    To help the concept evolve for you, let me give you the example of 
South Korea, which spends 3.7 percent of its GDP on education, with 
parents contributing the almost as much as the State does on their 
child's education. The brutal system, where the results of the test you 
take at the end of your high school career determines the university 
you attend and your major (therefore your career) has catapulted South 
Korea to a technology leader and one of the world's fastest growing 
economies (Enriquez, p. 188).
    Japan preceded South Korea in this area. Japan learned the value of 
science, technology, and educating one's own and Japanese students out 
perform the U.S. students on mathematics and science tests.
    We often viewed India as behind us, but perhaps they are moving 
ahead. The following comes from Goverdhan Mehta Director, Indian 
Institute of Science: ``Strengthening science education at all levels 
is an enabling requirement, especially for developing nations, for a 
self-standing national science base.'' (Mehta)
    Mehta also states that ``the interactive complexity of the 
triumvirate of science, innovation and commercialization indicates that 
the linear conception of S&T for progress in the emerging knowledge 
society may be inadequate'', and the Innovation Agenda as proposed by 
the House Democrats understands the complexity of innovation, and the 
necessity to act on research and development, education, 
telecommunication technology, energy, and small entrepreneurial 
endeavors not linearly, but conceptually, and within the context of 
connections. They are pieces of the future on one nation. We must come 
together as one Congress, united across party lines, choosing to act 
for our future. The House Democrats have continually attempted to 
engaged our Republican colleagues to work together for our nation. We 
continue to this day.
    We are slipping behind in this clamor for the top of the 
globalization mountain. Other nations are acting as we sit thinking of 
actions to take. The cultural shift required for our nation to move 
forward and maintain a competitive edge over all other nations begins 
with how the Federal Government spends its money.
    Notes: Enriquez, Juan (2001). As the Future Catches you, Three 
Rivers Press, New York.

    Mr. Ryun. Mr. Holt, you and Mr. Ehlers put together a very 
passionate proposal, and certainly it will be given worthwhile 
consideration.
    Are there any questions from the Members?
    Mr. Cooper.
    Mr. Cooper. I just wanted to thank both Members for their 
excellent testimony. I hope that all of our colleagues will 
take it to heart. We do need to invest in the future, and I am 
worried deeply that the future is being terribly shortchanged 
right now. So thank you for pointing that out.
    Mr. Ryun. Mr. Baird.
    Mr. Baird. I just would like to echo that. It is a 
privilege to serve with these two gentlemen on the Science 
Committee. Their commitment to investing in America's science 
education and research budget and talent pool is just 
unparalleled. I am grateful for their service and for their 
testimony today. Well done, gentlemen.
    Mr. Holt. If I might just add, Function 250, if the 
President's request is fully met, will only have increased by 4 
percent over the past 5 years. That is insufficient.
    Mr. Ryun. Very good.
    If there are no further questions, we will turn to Ms. 
McMorris for her testimony.

STATEMENT OF HON. CATHY McMORRIS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Ms. McMorris. Thank you, Mr. Chairman and members of the 
committee. I appreciate the opportunity to testify today on the 
importance of the fiscal year 2007 budget resolution and its 
impact on eastern Washington.
    My primary reason in testifying today is to discuss several 
important budget items the committee will soon consider, 
including fighting meth, ensuring quality affordable health 
care, training our 21st century workforce, the provisions 
related to the Bonneville Power Administration, and, above all, 
supporting the President's efforts to control spending and 
address the deficit .
    One of my top priorities in Congress is working on issues 
and projects that will keep our Nation and communities safe. In 
eastern Washington we deal on a daily basis with the 
devastating effects of meth and other drug abuse. In Spokane 
County alone it is estimated that 80 percent of the crime, 90 
percent of the check fraud is drug and meth related. In 2004, 
Washington ranked sixth in total meth seizures, ahead of 
California. Imagine the increased safety of our communities if 
meth production and abuse were reduced. That is why I strongly 
support the President's call for $40 million toward meth lab 
cleanup, as well as the proposed $69 million to increase our 
Nation's drug courts to offer treatment and alternatives for 
nonviolent offenders.
    Creating a technical and educated workforce is key in 
promoting economic development in eastern Washington and 
throughout our region and Nation. I support the President's 
call toward advancing our 21st century workforce. Specifically, 
I applaud the proposal for the High Growth Job Training 
Initiative as well as the Career Advancement Accounts to assist 
workers who are entering the workforce, transitioning to new 
jobs, or advancing in their current jobs.
    In addition to building our workforce and encouraging 
economic growth, we must also maintain a health care system 
that is affordable and accessible. That is why I strongly urge 
the committee to maintain the President's budget request for 
$169 million for health information technology programs. 
National coordination on health IT is vital in streamlining 
systems, reducing overall medical costs, improving quality of 
care, and strengthening preventive medicine. The use of health 
technology throughout eastern Washington has led to more 
efficient patient treatment, expanded rural health and improved 
doctor care.
    Though I recognize the increased funding of the Office of 
Rural Health Policy, Telehealth, and Community Health Centers, 
the overall proposal for rural health is insufficient. There 
are many programs at the center of our rural health 
infrastructure which are proposed to be zeroed out. These 
grants have demonstrated an essential link between critical 
access hospitals and providers. My district stretches over 
23,000 square miles, 12 counties, and much of that distance is 
rural, creating considerable challenge in ensuring access to 
health care for eastern Washington residents.
    Though the President's budget provides many great 
initiatives, there is one specific proposal that I believe 
could be detrimental to the economy and the livelihoods of the 
people of the Northwest. This proposal is the expedited debt-
retiring provisions affecting the Bonneville Power 
Administration (BPA). As you may be aware, the BPA markets 
electric power from a series of hydroelectric dams within 
eastern Washington and throughout several other Northwest 
States. One of my top priorities is to provide economic growth 
for our region, part of which is ensuring affordable energy. 
The Pacific Northwest economy was built on inexpensive 
renewable energy. This rural proposal would seize a portion of 
BPA's future revenue and use it toward an escalating repayment 
of its Federal debt, essentially reversing BPA's ability to use 
its sale of surplus power to decrease electric rates in the 
Northwest.
    The surplus is often assumed during good water years in the 
Northwest, years which can often be few and far between. BPA 
needs the revenue from this surplus not to pay down a debt 
which BPA is already ahead of paying off, but to use it for 
flexibility in those years in which they must adjust for other 
conditions.
    However, debt repayment is not the issue here. In fact, BPA 
has already prepaid the Treasury $1.46 billion in the last 5 
years and plans to continue additional debt prepayments in the 
future. A proposal such as this could raise rates as high as 10 
percent and will have an enormous impact in our region, a 
region where electricity rates are almost 50 percent higher 
than those in place before the 2001 energy crisis.
    This increase would build upon the already increased rates 
we are paying for salmon recovery costs. In 2004 alone, BPA 
paid over $414 million toward salmon recovery programs, costs 
which are expected to rise within the next several years. That 
cost is then absorbed into every individual customer, 
translating into 21 percent of their bill. Between salmon rates 
and the effects of the administration's proposal on BPA, energy 
consumers will simply not be able to foot the bill.
    At a time of rising energy and electricity costs around the 
country, a proposal that effectively increases these rates in 
Washington, Idaho, Montana, and Oregon is simply not 
acceptable.
    It is my understanding that although this provision is in 
the President's budget, it would not need congressional 
approval, but would rather be implemented by a simple 
rulemaking procedure by the administration. This is of great 
concern to me and something I will work on with my colleagues 
in the House and the Senate to prevent. Our communities and 
businesses are dependent on the low-cost energy rates which BPA 
provides. These same businesses operate because of these low 
electric rates and will face major problems should this 
proposal be enacted.
    In summary, I believe funding to help combat our Nation's 
drug problems, improve the quality of health care, provide 
economic opportunities, all of which are supported in the 
President's budget, will help carry our Nation forward.
    Once again, Mr. Chairman, thank you for the time, and I 
look forward to your leadership as we move forward on the 2007 
budget.
    Mr. Ryun. Ms. McMorris, thank you very much for your 
testimony.
    [The prepared statement of Ms. McMorris follows:]

Prepared Statement of Hon. Cathy McMorris, a Representative in Congress 
                      From the State of Washington

    Mr. Chairman, Members of the Committee, thank you for allowing me 
to speak on the importance of the Fiscal Year 2007 Budget Resolution 
and its impact on Eastern Washington.
    My primary reason in testifying today is to discuss several 
important budget items the Committee will soon consider, including 
fighting meth, ensuring quality, affordable health care, training our 
21st century workforce and provisions regarding the Bonneville Power 
Administration. And, above all, support the President's efforts to 
control spending and eliminate the deficit.
    One of my top priorities in Congress is to keep our nation, and 
communities, safe. In Eastern Washington, we deal on a daily basis with 
the devastating effects of methamphetamine (meth) and other drug abuse. 
In Spokane alone, it is estimated that 80 percent of crime and 90 
percent of check fraud is drug and meth related. In 2004, Washington 
ranked 6th in total meth seizures, ahead of California. Imagine the 
increased safety of our communities if meth production and abuse were 
reduced, and substance abuse programs were more effective. That is why 
I strongly support the President's call for $40 million toward meth lab 
cleanup, as well as a proposed $69 million to increase our nation's 
drug courts to offer treatment and alternatives for non-violent 
offenders.
    Creating a technical and educated workforce is key in promoting 
economic development in Eastern Washington and throughout our region 
and nation. I support the President's call toward advancing our 21st 
Century Workforce. Specifically, I applaud the proposal for the High 
Growth Job Training Initiative, as well as the Career Advancement 
Accounts to assist workers who are entering the workforce, 
transitioning to new jobs, or advancing in their current jobs.
    In addition to building our workforce and encouraging economic 
growth, we must also maintain a healthcare system that is affordable 
and accessible. That is why I strongly urge the Committee to maintain 
the President's budget request of $169 million for health information 
technology programs. National coordination on Health IT is vital in 
streamlining systems, reducing overall medical costs, improving quality 
of care, and strengthening preventative medicine. The use of health 
technology throughout Eastern Washington has led to more efficient 
patient treatment, expanded rural health, and improved doctor care. 
Strengthening and improving Health IT is essential to the future of 
healthcare.
    Though I recognize the increased funding for the Office of Rural 
Health Policy, Telehealth and Community Health Centers, the overall 
proposal for rural health is insufficient. There are many programs at 
the center of our rural health infrastructure which are proposed to be 
zeroed out, including Rural Hospital Flexibility Grants and all of 
Title VII, which funds our Area Health Education Centers. These grants 
have demonstrated an essential link between Critical Access Hospitals 
and providers, increasing quality of care, and producing collaboration 
for these safety net hospitals within our communities.
    My district stretches over 23,000 square miles. Much of that 
distance is rural, creating considerable challenge in ensuring access 
to health care for Eastern Washington residents. We continue to see 
increasing shortage of health care professionals. In towns like Odessa, 
Republic and Davenport primary care coverage is sparse. People in our 
rural region deserve to have access to the same quality of care as 
people in large, urban areas. I will work to restore increased funding 
for critical rural health programs.
    Though the President's budget provides many great initiatives, 
there is one specific proposal that I believe could be detrimental to 
the economy and livelihoods of people of the Northwest. This proposal 
is the expedited debt retiring provisions affecting the Bonneville 
Power Administration (BPA). As you may be aware, the Bonneville Power 
Administration markets electric power from a series of hydroelectric 
dams within Eastern Washington, and throughout several other Northwest 
States. One of my top priorities is to provide economic growth for our 
region, part of which is ensuring affordable energy. The Pacific 
Northwest economy was built on inexpensive renewable energy.
    This rule proposal would seize a portion of BPA's future revenue 
and use it toward an escalating repayment of its Federal debt, 
essentially reversing BPA's ability to use its sale of surplus power to 
decrease electricity rates in the northwest. The surplus is often 
assumed during good water years in the Northwest, years which can often 
be few and far between. BPA needs the revenue from this surplus not to 
pay down a debt which BPA is already ahead of paying off, but to use 
for flexibility in those years in which they must adjust to other 
conditions.
    However, debt repayment is not the issue here. In fact, BPA has 
already prepaid the Treasury $1.46 billion in the last 5 years, and 
plans to continue additional debt prepayments in the future.
    A proposal such as this could raise rates as high as 10 percent and 
will have an enormous impact in our region--a region where electricity 
rates are almost 50 percent higher than those in place before the 2001 
energy crisis. This increase would build upon the already increased 
rates we are paying for salmon recovery costs. In 2004 alone, BPA paid 
over $414 million toward salmon recovery programs, costs which are 
expected to rise within the next several years. That high cost is then 
absorbed by every individual customer, translating to 21 percent of 
their bill. Between salmon rates and the effects of the 
Administration's proposal on BPA, energy consumers will simply not be 
able to foot the bill. At a time of rising energy and electricity costs 
around the country, a proposal that effectively increases these rates 
in Washington, Idaho, Montana and Oregon is simply not acceptable.
    It is my understanding that although this provision is in the 
President's budget, it would not need Congressional approval, but 
rather would be implemented by a simple rulemaking procedure by the 
Administration. This is of great concern to me, and something I will 
continue to work on with my colleagues in the House and Senate to 
prevent.
    Our communities and businesses are dependent on the low cost energy 
rates which BPA provides. These same businesses operate because of 
these low electric rates, and will face major problems should this 
proposal be enacted.
    In summary I believe funding to help combat our nation's drug 
problems, improve the quality of health care, and provide economic 
opportunities, all of which are supported in the President's budget, 
will help carry our nation forward.
    Once again Mr. Chairman, thank you for your time and I look forward 
to your leadership as we move forward on the 2007 budget.

    Mr. Ryun. Are there any questions by any Members?
    Mr. Baird.
    Mr. Baird. Yes. I want to commend the gentlewoman for her 
excellent summary of the challenge we face with this BPA 
proposal. Put that into context, we have seen substantial rate 
increases over the last several years. It has caused 
devastating unemployment in parts of our region. It hit farmers 
hard, and it hit our school districts hard. An additional raise 
in rates would be very, very difficult, especially when you 
have so many power-dependent industries. And I applaud the 
gentlewoman and pledge to work with her.
    I also appreciate and respect very much her commitment to 
dealing with the problem of methamphetamine. I agree it is a 
good thing that the President has called for an increase in 
drug courts. The one thing I would call to your attention, 
however, that we have looked at is the President has proposed 
significant cuts and zeroing out, indeed, of fundamental 
programs for law enforcement that are used to fight meth, among 
them the Byrne grant program, which he has proposed to zero 
out; $300 million in COPS and Safe and Drug-Free Schools would 
be slashed.
    Overall, we calculate about an 80-percent cut in programs 
that are federally funded and that are used by local law 
enforcement to fight meth. So maybe we could work together on 
that, perhaps through the Meth Caucus, to fight 
methamphetamine, because I can tell you that my local sheriffs 
and law enforcement, and I am sure it is the same with you when 
you go back home, will tell you they depend on Byrne grants and 
COPS, et cetera, and our drug efforts depend on Safe and Drug-
Free Schools money.
    It is the number one drug of use, as you so well put. It is 
behind a host of crimes, and now is not the time to be cutting 
back to this magnitude on our Federal commitment to fight meth. 
So perhaps we can work on that as well.
    Ms. McMorris. I look forward to it.
    Mr. Ryun. Are there any other questions by any other 
Members at this point?
    Ms. McMorris, thank you very much for your testimony.
    At this point we are going to turn to Mr. Regula for his 
proposal, and we look forward to your testimony.

 STATEMENT OF HON. RALPH REGULA, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF OHIO

    Mr. Regula. Well, thank you very much. I don't have my copy 
with me of my written testimony.
    Mr. Ryun. Mr. Regula, may I encourage you to turn your 
microphone on.
    Mr. Regula. I say I don't have a copy of my written 
testimony, but you all have copies, and I would end up reading 
it to you anyhow.
    Just some generalities. Let me say you have an extremely 
important challenge. I appreciate the opportunity to be here 
and to share a little bit the challenge that confronts us in 
the Labor-Health-Education Subcommittee. I think it is an 
extremely important function because we deal with things that 
touch people's lives.
    If you could go to the days where we had a couple days of 
outside witnesses, and families come in with children with all 
kinds of diseases and problems and medical conditions, and it 
is almost heartbreaking to listen to their cries for some kind 
of research through NIH to find a solution; or maybe it is a 
parent with Alzheimer's, and on and on, and I know there just 
isn't enough money.
    One of the things we are going to do this year, and I know 
historically that many of you have been part of the decision to 
actually quintuple the budget of NIH, and as a result they have 
gone from something like $12 billion to $28 billion. At the 
hearing I am going to ask the Director this year and our 
subcommittee to give us an accounting of what has been done, 
what has changed as a result of all this money. Are we getting 
results? Are we helping people?
    And I will say that Director Zerhouni testified recently 
that every 5 years life expectancy in the United States goes up 
a year. I said a little tongue in cheek to him that he should 
go to the Ways and Means Committee, because the significance of 
that is enormous in terms of Social Security and Medicare. I 
think whomever is filling your seats here in years to come are 
going to have some really tough decisions. You already are 
faced with trying to replicate that story in the Bible where 
they fed 5,000 with 5 loaves and 5 fishes.
    I would just plead with you to think about in your 
allocation of the enormous importance of medical research to 
the well-being of all of us; and, secondly, of education. I 
don't know how many of you read Tom Friedman's book, ``The 
World Is Flat,'' it is a bit sobering to realize how aggressive 
other countries are, particularly China, India, Taiwan and 
Korea, and places like that. I was struck by the fact that 
Intel sponsors a competition among high school, I think 
seniors, in basically math and science. They had 65,000 Chinese 
and 6,500 American students involved. It is indicative of what 
is taking place.
    It is not going to be overnight. Friedman says it is 25 
years from now when we will be faced with a highly competitive 
situation for skills. I told him 1 day, I said, you are a 
modern-day Paul Revere because you are saying to the American 
people, get ready, they are coming. And he pointed out in his 
book that last year 400,000 American tax returns were done in 
India. I thought that was a bit of a stretch, and then my chief 
of staff in the district said his wife is a CPA with one of the 
big accounting firms, and her job assignment was to train 
Indian tax preparers on how to do Ohio tax returns.
    What I am simply saying is that the coin of the future is 
going to be brainpower and the way in which we utilize those 
skills. And that is why I think it is so important that now we 
address the challenges of education. Not that the Federal 
Government is going to replace the State and the local 
community for basic funding of education, but what we do in 
Labor-H is try to put in carrots, so we have the Pell Grants to 
incentivize poorer students from poorer environments to go and 
get some education; and we have programs for one-stops, where 
people are laid off and where they can go back and acquire a 
new skill. It is really a people's bill in so many different 
ways and touches the lives of them.
    I said when I took the chairmanship, and I hadn't been on 
the subcommittee, but Bill Young asked me to chair it, and I 
said, so you know where I am coming from, it is very simple. 
The Bible says there are two great commandments. The first is 
to love the Lord, and the second is the like unto it, to love 
your neighbor. I said this is the Love Your Neighbor Committee, 
and to do that you have to recognize these programs.
    I know that you just had testimony on math and science and 
the importance of this, and we heard about the competitive 
program in the President's State of the Union. But keep in mind 
you can't do math and science if you can't read. So you have to 
start out with the fundamentals, and what we have are some 
reading programs in Labor-H where you try to give incentives to 
schools to put in upgrades of their reading program.
    I put some extra money in last year to upgrade the 
advancement of teachers and principals. I feel strongly if you 
have a good principal, you have a good school. And if you have 
good teachers, you have a good school, and we have to encourage 
that. We not only looked into the programs from the Department 
of Education to incentivize teachers to go back and get 
additional skills, but we also had testimony from the colleges 
of education, because it starts there.
    Too often the colleges of education have been sort of an 
afterthought for our universities and colleges, and they do not 
put enough emphasis on encouraging talented people to get in 
the education field. Yet there isn't one of you that would not 
be able to remember a teacher that made a difference in your 
life because that individual was an inspirational type of 
person.
    We fund the Teach for America in part because it is a great 
program. These are young college students who care about their 
fellow man, if you will, and they sign up for 2 years to go 
wherever they are sent. And they are sent into the poor 
districts, the poorest of the poor districts in cities for 2 
years, and many of them will stay in the profession. They work 
with the young people, they have certain standards that they 
have to meet in the Teach for America program, and the same 
thing is true of charter schools, because they are a little bit 
outside the box.
    Another program we fund is Troops to Teachers. This is to 
get individuals that get out of the military, usually they get 
some how-to courses and they are usually in their 40s, they 
have medical care, they have been around the world a lot of 
them, they have managed people, and they make great teachers. I 
think last year the Teacher of the Year in America, in the 
United States was a Troop to Teacher individual. There is a 
certain element of maturity that enables them to handle a 
classroom.
    So we need to take programs, and we try to do that in our 
bill to continually upgrade the quality of teaching in the 
classroom and the principalship, because that individual is an 
inspiration to students and teachers alike. I might say I spent 
7 years as an elementary principal and teacher, and went to law 
school at night, and I know how much difference even to this 
day 50 years later, but I bonded with those kids, and it makes 
a difference with them.
    Another thing that troubles me a lot is the dropout rate. 
The average nationwide is 32 percent. Now, we can ill afford 
this as a nation, to have 32 out of 100 students drop out 
before they finish high school. Interesting, a little footnote 
on that, I just read the other day that 85 percent of the 
individuals in the penal system across the board are dropouts, 
and that gives you some idea of the social cost of dropouts, 
and then also welfare and all sorts of social problems that 
arise as a result of individuals dropping out of high school. 
And we are trying to develop programs that we can encourage, 
with a little bit of help, schools to address the problem of 
dropouts because we need to reduce those numbers. The big 
cities are anywhere from 60 to 70 percent do not finish high 
school, and that is a terrible waste of human capital.
    And I just was reading this morning in the Wall Street 
Journal where the Secretary of Defense wants to get a leaner, 
meaner, smaller, long-term Quadrennial Report that looks into 
the future. Well, to do what he hopes to achieve he has got to 
have individuals that have gone through high school at least 
and can read a manual and can operate this sophisticated 
equipment, so the Defense Department has a stake. I think the 
defense budget ought to have a section in it on supporting 
education, because unless they can get quality people to enlist 
and be part of the team they are not going to have what they 
seek.
    I don't want to bore you with a lot of details, but simply 
to say that what we try to do in Labor-H is address the human 
element, the medical research which is vitally important to 
people, to address the incentives in education that will 
address the dropout rate, that will teach kids to read. I said 
the decision to drop out isn't made at the ninth grade, it is 
made at the third grade when you don't learn to read 
adequately. So we try to use the dollars we have; last year our 
budget was roughly $2 billion less than the year before and the 
budget that is being proposed for this year is another $2-
billion cut. I don't know how we are going to stretch it to 
meet what I think are the needs of the future in education. So, 
anything you can do to make a larger allocation for those 
functions, medical, NIH, Centers for Disease Control (CDC). We 
are asking CDC and policemen to keep bird flu away from us, to 
keep out these other things that can be brought to the United 
States. People don't realize the importance of the role of CDC. 
They are the watchdog. They are people in 43 countries 
constantly looking out for things that might get brought to the 
United States via the jets and who knows what.
    So, again, it is an important thing, and this budget that 
is being proposed takes a cut at CDC, takes NIH flat-funded, 
Health and Human Services Department are both down, education 
is down. It is going to be a tough challenge, and I think if we 
care about the future of the United States, we need to address 
those needs of people, and that is essentially what we do in 
Labor-H, and I hope you will give us consideration in the 
allocation of resources. I know it is a tough job, I spent 
several years on the Budget Committee and I realize the 
challenges that come your way, and I appreciate the service you 
are all doing.
    [The prepared statement of Mr. Regula follows:]

 Prepared Statement of Hon. Ralph Regula, a Representative in Congress 
                         From the State of Ohio

    Mr. Chairman, Congressman Spratt, thank you for allowing me the 
opportunity to testify before your Committee. As you begin 
deliberations in the coming days on the fiscal year 2007 budget, I 
wanted to share with you the tremendous importance of and remarkable 
progress being made by programs funded in the Labor, Health and Human 
Services, and Education appropriations bill.
    Whether it is a job training program for the unemployed, research 
to find a cure for the thousands of diseases our citizens suffer from, 
or education for our youth, the programs in this bill provide hope to 
Americans in search of a better life.
    The dreams of a better life take root in a foundation of solid 
education. Education creates the opportunity for sustainable 
livelihood, improves quality of health, reduces crime, raises 
industrial productivity, and increases the level of civic 
participation. It is essential to the preservation of democracy.
    Four years ago, we passed the No Child Left Behind Act and provided 
record funding increases to the Department of Education, and in turn, 
to our local school districts. For the first time ever, we required 
high standards and accountability in our nation's public schools.
    Multiple studies and reports have shown that our efforts are 
working.
    <bullet> The long-term Nation's Report Card (NAEP) results, 
released in July 2005, showed elementary school student achievement in 
reading and math at all-time highs and the achievement gap closing.
    <bullet> For America's 9-year-olds, there's been more progress in 
reading the last 5 years than in the previous 28 combined.
    <bullet> America's nine and 13-year-year-olds posted the best 
scores in math the test ever recorded.
    <bullet> Reading and math scores for African American and Hispanic 
9-year-olds reached an all-time high.
    <bullet> Math scores for African American and Hispanic 13-year-olds 
reached an all-time high.
    <bullet> Achievement gaps in reading and math between white and 
minority 9-year-olds are at an all-time low.
    The state-by-state Nation's Report Card results, released in 
October 2005, showed the number of fourth-graders who learned their 
fundamental math skills increased by 235,000-enough to fill 500 
elementary schools.
    Despite the record gains, Mr. Chairman, much work remains. High 
quality public education has assumed a much greater significance in the 
context of our rapidly changing world and the emergence of new 
technologies. Where oceans and mountains once limited trade and the 
rapid transmission of ideas, as Tom Friedman tells us in his book The 
World is Flat, technology has flattened our world and made borders more 
permeable to products and highly skilled labor.
    The United States has always depended on the inventiveness of its 
people in order to compete in the world marketplace. Now, preparation 
of a well educated workforce is a vital arena for national 
competitiveness. Since 1980, the number of science and engineering jobs 
has grown at more than four times the rate of the U.S. labor force as a 
whole. This is an average annual growth rate of 4.9 percent compared 
with 1.1 percent for the entire labor force.
    The average age of the science and engineering workforce is rising. 
The proportion of foreign-born students in science and engineering 
fields and workers in science and engineering occupations continues to 
rise dramatically. Global competition for science and engineering 
talent is intensifying, such that the United States may not be able to 
rely on the international science and engineering labor market to fill 
unmet skill needs. The number of native born science and engineering 
graduates entering the workforce is likely to decline unless the U.S. 
intervenes to improve success in educating students from all 
demographic groups.
    My Subcommittee has recognized this challenge and provided 
substantial dollars to the math and science partnerships program since 
FY2002. The President senses the importance of this initiative and has 
requested $380 million in new funding to improve math and science 
instruction in schools.
    Just as education, health, too, is important to the economic 
advancement of a nation.
    For over a century, the National Institutes of Health (NIH) has 
played a key role in improving the health of the nation. More than 80 
percent of NIH's funding is awarded through almost 50,000 competitive 
grants to more than 212,000 researchers at over 2,800 universities, 
medical schools, and other research institutions in every state.
    Many important health and medical discoveries of the last century 
resulted from research supported by NIH. In part because of NIH 
research, our citizens are living longer and better. Life expectancy at 
birth was only 47 years in 1900; by 2000, it was almost 77 years.
    In the past several decades, NIH-supported research, and its 
national programs to communicate the results of research to patients 
and their doctors, played a major role in achievements such as the 
following:
    <bullet> Death rates from heart disease and stroke fell by 40 
percent and 51 percent, respectively, between 1975 and 2000.
    <bullet> The overall 5-year survival rate for childhood cancers 
rose to nearly 80 percent during the 1990's from under 60 percent in 
the 1970's.
    <bullet> The number of AIDS-related deaths fell by about 70 percent 
between 1995 and 2001.
    <bullet> Infectious diseases--such as rubella, whooping cough, and 
pneumococcal pneumonia--that once killed and disabled millions of 
people are now prevented by vaccines.
    <bullet> The quality of life for 19 million Americans suffering 
with depression has improved as a result of more effective medication 
and psychotherapy.
    And, the progress continues. The sequencing of the human genome, 
completed in 2003, set a new course for developing ways to diagnose and 
treat diseases like cancer, Parkinson's Disease and Alzheimer's 
Disease, as well as rare diseases.
    NIH should be applauded for their successes. However, I also 
believe we need to continue our oversight of NIH programs, not to 
direct the science--for that is best left to scientists--but to ensure 
that scientific opportunity drives funding decisions within the agency.
    Similar to the efforts of the Department of Education and the 
Department of Health and Human Services, programs at the Department of 
Labor play a vital role in society. A number of communities continue to 
experience plant closings and other layoffs, an ongoing reminder of 
global competition. We need to support dislocated worker training 
programs that assist workers return to gainful employment. In my 
district, the local One-Stop in Canton is extremely effective. Over 90 
percent of the participants complete their training, and more than 90 
percent of the trainees secure jobs paying a similar or higher wage 
than their previous employment.
    Another example is the Job Corps program, which provides a 
comprehensive and intensive array of training, career development, job 
placement and support services to disadvantaged young people between 
the ages of 16 and 24. Many people who enroll in Job Corps Centers 
never completed their high school education and may have other barriers 
to maintaining a job. This program ensures that disadvantaged young 
people are afforded an opportunity to successfully participate in the 
Nation's workforce, and most of the participants secure gainful 
employment.
    I can point to many other examples of good programs in my bill. 
Whether it is a Centers for Disease Control and Prevention program in 
New Mexico to investigate emerging diseases, or a Substance Abuse and 
Mental Health Services Administration drug prevention and 
rehabilitation clinic in Maine, Corporation of National and Community 
Service funded efforts in Louisiana to rebuild communities ravaged by 
the hurricanes, a Department of Education grant in Iowa to develop and 
support a high-quality teaching force, every dollar in this bill is 
dramatically altering the lives of Americans.
    As you begin consideration of the FY2007 budget, I would like to 
point out that in the FY2006 Labor, Health and Human Services, and 
Education appropriations bill, we provided almost $900 million in 
administrative cost to the Centers for Medicare and Medicaid Services 
(CMS) and the Social Security Administration to implement a mandatory 
program-the Medicare Modernization Act. We provided for this increase 
in spending for a mandatory expense by eliminating and reducing several 
programs. The final FY2006 budget for the bill was $1.6 billion below 
FY2005 and contained no earmarks.
    Mr. Chairman, it is important for the Budget Committee to note that 
the trend of shifting costs of mandatory programs to discretionary 
accounts continues. In 2006 the Budget Deficit Reduction Act, again, 
included legislation to shift $600 million in administrative expenses 
for another mandatory program, this time Student Aid Administration 
(Pell Grants), to the discretionary side of the budget as one way of 
meeting its reductions in mandatory programs. OMB has recognized this 
shift by showing the $600 million in additional Budget authority in 
FY2006 and allocating the funds to the discretionary budget in the 
request for FY2007. It is critical that the Budget Committee also 
include the additional funds needed to fund administrative expenses for 
Student Aid in the discretionary allocation. If this is not done, we 
will be faced with the difficult task of eliminating or severely 
reducing programs that have significant support of the Members of the 
House such as Rural Health, Vocational Education State Grants, GEAR-UP, 
and TRIO, to name a few. Equally noteworthy, we will not be able to 
provide the necessary dollars for new programs to prepare our students 
for success in a competitive world.
    I would like to close with this: When I became Chairman of the 
Labor, Health and Human Services, and Education Appropriations 
Subcommittee, I told my colleagues that the Lord says there are two 
great commandments. The first is to love your Lord, and the second is 
like unto it, to love your neighbor. I told them that this is the Love 
Your Neighbor Committee.
    Last year, we made many difficult choices, cutting the bill by $1.6 
billion and eliminating 29 programs. The Administration's FY2007 budget 
proposes to further reduce the spending on the Labor, Health and Human 
Services, and Education by nearly $4 billion. As you consider the 
budget, I strongly urge you to be mindful of the considerable impact 
the programs in this bill have on Americans.
    Mr. Chairman, I thank you for allowing me the opportunity to 
testify, and at this time I would be happy to answer any questions you 
may have.

    Mr. Ryun. Mr. Regula, thank you very much for your 
testimony. You have certainly presented a lot of ideas, and it 
is a lot to put our arms around, and you can see the passion 
with which you carry a lot of this. And one of them I will just 
mention is the life expectancy, how that increases. It 
certainly does put us with difficult decisions for the future 
because of policies that we have here, but I am hoping as a 
Congress that we will put aside partisanship and genuinely look 
to what we need to do.
    Mr. Regula. Well, I think the only way out of it is a 
strong economy that will produce the revenues to meet Social 
Security and Medicare, and a strong economy is predicated on an 
educated population.
    Mr. Ryun. Are there any questions by any of the members 
that are present?
    Mr. Spratt. Let me assure the chairman that he will have 
our full support in fully funding particularly the education 
component of the Labor-H bill. Thank you very much for your 
time.
    Mr. Regula. Thank you.
    Mr. Ryun. Mr. Regula, thank you.
    At this point we will turn to Mr. Young from Alaska for his 
testimony.

STATEMENT OF HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF ALASKA

    Mr. Young. I thank you, Mr. Chairman, and members of the 
committee. I have done this so many times that it is always a 
pleasure to be before you.
    I appreciate the assistance this committee gave us last 
year. We worked together jointly to reach a budget solution. 
And of course the Transportation Committee, which I am chairman 
of, will meet later this week to approve its views and 
estimates for 2007, and my testimony reflects those views and 
it will be adopted.
    First and foremost, I am pleased that the President's 
budget almost completely is consistent with last year's Surface 
Transportation Reauthorization Act, known as SAFETEA-LU. The 
budget supports the fiscal year 2007 SAFETEA-LU funding levels 
with only one major exception: The 2007 funding level for the 
Federal Transit Administration is $100 million lower than what 
was authorized due to administrative failure to fully fund the 
Small Starts programs.
    Unfortunately, the budget does not make a similar 
commitment to meeting our Nation's aviation infrastructure and 
investment needs. Under the President's budget, aviation 
capital programs would receive $5\1/4\ billion, which is $1.6 
billion or 23 percent less than the level guaranteed by Vision 
100--Century of Aviation Reauthorization Act. This reduction is 
extremely shortsighted and will only serve to accelerate the 
impending crisis of congestion and delays in our Nation's 
aviation system.
    It wasn't long ago, Mr. Chairman, all we heard about was 
the Fliers Bill of Rights and the congestion and how airports 
weren't working, and now there is an attempt to cut it further 
back. The slowing economy and the terrorist attacks of 
September 11 temporarily reduced aviation congestion beginning 
in 2001. However, the number of air travelers has since 
rebounded in 2005 to pass the previous record high level 
experienced in 2000. Unless we make necessary investments in 
our airport and air traffic control infrastructure, delays will 
increase significantly as air travel continues to increase.
    The FAA forecasts the number of air travelers will grow 
from 739 million people in 2005 to more than 1 billion by 2015. 
This growth will place even greater demands on a system already 
plagued by delays. To ensure the aviation system remains safe, 
reliable, efficient and able to accommodate the increased 
number of passengers anticipated in the near future, the 
committee recommends that aviation capital programs be funded 
at least to the level of $6.8 billion guaranteed by Vision 100.
    I would also like to address several other proposals in the 
budget that are a concern to me. For example, the 
administration proposes to cut funding for Amtrak from $1.3 
billion in 2006 to $900 million in 2007. Over the years 
proposed cuts in Amtrak funding have been repeatedly rejected 
by Congress. Now, if the budget resolution assumes just $900 
million for Amtrak, but Amtrak funds are subsequentially 
restored during the appropriation process, other important 
programs will have to be cut in order to make up the 
difference.
    In addition, the President's budget proposes to cut funding 
for the clean water State revolving fund and Army Corps of 
Engineers. These proposals would produce shortfalls that are of 
significant concern to the Transportation and Infrastructure 
Committee. And may I explain why? Estimates of the clean water 
infrastructure needs over the next 20 years exceeds $400 
billion. Current spending by all levels of government addresses 
only one-half of this need, and that is a problem. Water is our 
next big crisis, this is a problem that requires investment at 
all levels of government. However, cutting the size of the 
Federal program will only make an already very bad situation 
much worse.
    Under the funding of the Corps of Engineers, there has been 
a chronic problem that has resulted in outdated and aged 
infrastructure. I think you see this down in Katrina where the 
levees were built that were not repaired and should have been 
repaired. The transportation benefits that could be achieved 
through greater investments in Corps navigation projects would 
help American products compete in the world market. Greater 
investments in flood control infrastructure today will reduce 
the risk that we will have to pay later larger sums of disaster 
relief at some later date.
    Finally, I would like to discuss an area in which we could 
be using our scarce resources more wisely. Since the creation 
of the Department of Homeland Security in 2003, the Department 
and Congress have tended to throw money at problems before 
having the proper mechanisms or programs in place to ensure 
that money is well spent. And I think you have seen some recent 
disclosures of how money has been misspent, and we have to stop 
that and structure it in a much better way.
    Millions of dollars have been wasted due to a lack of 
authorization statutes and insufficient coordination between 
the authorizing and appropriations committees. I think we can 
and I know we must do a much better job in this arena.
    More comprehensive information on the committee 
recommendation will be provided in its views and estimates to 
be adopted by the committee later this week. These views and 
estimates will demonstrate that we are significantly 
underfunding many of our transportation infrastructure 
investments. This investment puts our economy and global 
competitiveness and quality of life at risk. While the cost of 
meeting our Nation's transportation and infrastructure 
investment seems to be high, the cost of not meeting them is 
clearly much higher.
    May I say, Mr. Chairman, I listened to Mr. Regula with 
great interest, and, yes, education is one of the keys, 
transportation is the second key. Without a good transportation 
infrastructure within our country, we cannot be competitive nor 
will our economy grow. I have argued this for 6 years. I am 
going to continue to argue, because we are lacking the courage 
to raise the money necessary to fulfill the obligation that I 
think is important to the future generations.
    I know you have a difficult job. I have said this every 
year. I expect you to do the best you can. I am not wedded 
totally to the numbers the President has brought down, as I 
mentioned. I think we have to look at the total package of the 
Congress. We are the ones that write the budget, it is not the 
President. He submits the budget under the Constitution; but it 
is our duty to write the budget. I think there are many areas 
that money can be shifted around for better purposes, than has 
been proposed by the President's budget. And I will answer any 
questions.
    [The prepared statement of Mr. Young follows:]

Prepared Statement of Hon. Don Young, a Representative in Congress From 
                          the State of Alaska

    Thank you Chairman Nussle and Ranking Member Spratt for this 
opportunity to testify before you on behalf of the Transportation and 
Infrastructure Committee.
    I appreciate your assistance during last year's surface 
transportation reauthorization, and look forward to continuing to work 
cooperatively with you as the budget process moves forward this year.
    The Transportation and Infrastructure Committee will meet later 
this week to approve its views and estimates for the 2007 budget. While 
my testimony today precedes the formal adoption of the committee's 
views, it is consistent with what I anticipate will be adopted.
    First and foremost, I am pleased that the president's budget is 
almost completely consistent with last year's surface transportation 
reauthorization act, known as SAFETEA LU.
    The budget supports the fiscal year 2007 SAFETEA LU funding levels 
with only one major exception. the 2007 funding level for the Federal 
transit administration is $100 million lower than what was authorized 
in due to the administration's failure to fully fund the ``small 
starts'' program.
    Unfortunately, the budget does not make a similar commitment to 
meeting our nation's aviation infrastructure investment needs.
    Under the president's budget, aviation capital programs would 
receive $5.25 billion, which is $1.6 billion or 23 percent less than 
the level guaranteed by the vision 100--century of aviation 
reauthorization act.
    This reduction is extremely shortsighted, and will only serve to 
accelerate the impending crisis of congestion and delays in our 
nation's aviation system.
    The slowing economy and the terrorist attacks of September 11, 
2001, temporarily reduced aviation congestion beginning in 2001. 
however, the number of air travelers has since rebounded, and in 2005 
surpassed the previous record-high level experienced in 2000.
    Unless we make the necessary investments in our airport and air 
traffic control infrastructure, delays will increase significantly as 
air travel continues to increase. the faa forecasts that the number of 
air travelers will grow from 739 million in 2005 to more than one 
billion in 2015. This growth will place even greater demands on a 
system that is already plagued by delays.
    To ensure that our aviation system remains safe, reliable, 
efficient, and able to accommodate the increased number of passengers 
anticipated in the near future, the committee recommends that aviation 
capital programs be funded at least at the $6.81 billion level 
guaranteed by vision 100.
    I would also like to address several other proposals in the budget 
that are of concern to me.
    For example, the administration proposes to cut funding for Amtrak 
from $1.3 billion in 2006 to $900 million in 2007. Over the years, 
proposed cuts in Amtrak funding have been repeatedly rejected by 
Congress.
    If the budget resolution assumes just $900 million for Amtrak, but 
Amtrak funds are subsequently restored during the appropriations 
process, other important programs will have to be cut in order to make 
up the difference.
    In addition, the president's budget proposes to cut funding for the 
clean water state revolving fund and the army corps of engineers. These 
proposals would produce funding shortfalls that are of significant 
concern to the Transportation and Infrastructure Committee.
    Estimates of the clean water infrastructure needs over the next 20 
years exceed $400 billion. Current spending by all levels of government 
addresses only one-half of this need.
    This is a problem that requires investments by all levels of 
government; however, cutting the size of the Federal program will only 
make what is already a very bad situation much worse.
    Under funding of the corps of engineers has been a chronic problem 
that has resulted in an outdated and aging infrastructure. The 
transportation benefits that could be achieved through greater 
investments in corps navigation projects would help american products 
compete on the world market. Greater investments in flood control 
infrastructure today will reduce the risk that we will have to pay 
larger sums in disaster relief at some later date.
    Finally, I would like to discuss an area in which we could be using 
our scarce resources much more wisely. Since the creation of the 
department of homeland security in 2003, the department and congress 
have tended to throw money at problems before having the proper 
mechanisms or programs in place to ensure the money is well spent.
    Billions of dollars have been wasted due to a lack of authorizing 
statutes, and insufficient coordination between the authorizing and 
appropriations committees. I think we can--and must--do much better in 
this area.
    More comprehensive information on the committee's recommendations 
will be provided in the views and estimates to be adopted by the 
committee later this week.
    These views and estimates will demonstrate that we are 
significantly under-funding many of our transportation and 
infrastructure investments. This underinvestment puts our economy, 
global competitiveness, and quality of life at risk.
    While the cost of meeting our nation's transportation and 
infrastructure investment needs may seem high, the cost of not meeting 
them is clearly higher.
    I urge your support for the transportation and infrastructure 
committee's recommendations as you develop the 2007 budget resolution.

    Mr. Ryun. Mr. Chairman, thank you very much for your 
comments. It does not take much for those of us that travel a 
lot either by air or on the ground to recognize the seriousness 
of the problem. And there does need to be a fix, and we will 
certainly take a close look at it on this committee.
    Are there any questions by any of the members? Yes, Mr. 
Diaz-Balart.
    Mr. Diaz-Balart. Thank you, Mr. Chairman. Just a quick 
comment. I want to thank Chairman Young for not only obviously 
his drive to make sure that our infrastructure around the 
country is as good as it can be, but one of the things that I 
think needs to be noted is that Chairman Young has personally 
been to, I think, just about every congressional district in 
the country and really knows----
    Mr. Young. Most of the Democrat and Republican.
    Mr. Diaz-Balart. Absolutely. And the thing that struck me 
is he knows the details of the infrastructure needs in every 
part of the country, in many cases even better than the Members 
that represent those areas. So I just want to thank him for not 
only his hard work, but really it takes a lot of effort and a 
lot of time to get on a plane or get in a car, particularly if 
you are from a country that is pretty far away, Mr. Chairman, 
and so I just want to thank him for his commitment and his 
willingness to spend an incredible amount of time and effort to 
try and make sure that he understands every single detail and 
all parts of the infrastructure of this great Nation of ours. 
It takes a lot of work, and here is a man that is willing to do 
that, and I think we all owe him a great deal.
    Thank you.
    Mr. Ryun. I would like to yield at this point to Mr. Moore.
    Mr. Moore. Thank you, Mr. Chairman. And, Mr. Chairman, I 
want to thank you for being here as well. I am from Kansas, and 
I agree with some of the witnesses who testified in a prior 
panel here. When they talked about an investment in education, 
it is not spending money, it is a wise investment in our 
future. And I feel the same way about our transportation 
infrastructure as well, and I commend you for bringing this 
proposal here and I thank you very much.
    Mr. Young. Thank you.
    Mr. Ryun. Mr. Chairman, thank you for your testimony. At 
this point we will turn to Mr. Hinojosa for his comments.

STATEMENT OF HON. RUBEN HINOJOSA, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Hinojosa. Thank you, Chairman Ryun. I am pleased that I 
got to see Ranking Member Spratt and other members of the 
committee, Congressman Dennis Moore and Congressman Diaz-
Balart. Thank you for this opportunity to testify before you on 
the fiscal year 2007 budget. I ask that my written statement be 
included in the record.
    Mr. Ryun. Without objection.
    Mr. Hinojosa. I agree wholeheartedly with the previous 
speakers, particularly with Chairman Regula's plea to get 
budget increases in his budget, some areas very important to my 
constituents and that I will be addressing at least some areas 
during my comment period.
    The Federal budget is our most direct and telling statement 
of the Nation's values and priorities. Unfortunately, when the 
people of my Texas 15th Congressional District, hard-working 
people, many who live in rural areas, most of whom are 
Hispanic, look at this Federal budget, they do not see their 
community's well-being and prosperity treated as a national 
priority.
    I am here today to share with you some areas where the 
Federal budget could better reflect the values and priorities 
of my congressional district and similar communities across the 
Nation from West to East Coast. I will focus my remarks on 
three critical areas: Education, health, and community 
development.
    Nothing demonstrates our misplaced national priorities more 
than our failure to invest in education, particularly our 
failure to invest in the key programs that are making a 
difference in the Hispanic community throughout the country. 
Hispanics are now the largest minority group in the country. By 
2010, Hispanics will be the largest minority group in our 
Nation's workforce. Yet Hispanic children are the least likely 
to attend preschool, the most likely to drop out of school 
before earning a high school diploma, and the least likely to 
earn a college degree.
    We know what we need to do and we have an investment plan. 
The Congressional Hispanic Caucus focuses on a group of Federal 
educational programs that are critical to the Hispanic 
community. They are Title I and Title III of the Elementary and 
Secondary Education Act, the migrant education programs, the 
dropout prevention program, HEP and CAMP as well as TRIO and 
GEAR-UP, as well as Hispanic Serving-Institutions, Even Start, 
Adult English As a Second Language, and Civics Education. We 
call these programs the Hispanic Education Action Plan.
    The fiscal year 2006 education budget cut every single 
program in this plan. Unfortunately, the President's 2007 
budget calls for an even greater assault on Hispanic education 
programs with the proposed cuts of $855 million to the HEAP and 
$2.1 billion to the education overall. These cuts include the 
elimination of key programs such as the dropout prevention as 
well as the GEAR-UP and the TRIO programs of Upward Bound and 
Talent Search.
    We must turn this around and significantly increase the 
investment in all of these programs. The stakes could not be 
higher. I urge you to reject the administration's proposed cuts 
and restore funding that has been cut over the past several 
years, and I urge you to put us on a path of increased 
investment in our children starting with fiscal year 2007. 
Without these investments, our Nation will no longer be 
economically competitive in the future.
    In addition to creating an educated workforce, we also need 
a healthy workforce to remain competitive. Unfortunately, many 
people in my district do not have access to quality health 
care, particularly those in rural communities. Rural 
communities cannot compete against urban wages and benefits in 
this time when we are facing a national shortage of nurses and 
allied health professionals. Yet the President's budget 
eliminates health profession training grants and slashes 
funding by 83 percent for rural health activities. Diabetes is 
afflicting my constituents at an ever younger age and in near 
epidemic numbers, yet this budget for 2007 cuts critical 
diabetes programs at the Centers for Disease Control that 
bridge the gap between the theoretical research at the National 
Institutes of Health and real community-based treatment.
    Provider cuts in Medicare will make it more difficult for 
my senior citizens to find a physician to treat them, and 
higher co-pays will make even Medicaid unavailable for 
thousands of my constituents. My returning veterans from Iraq 
will have difficulty accessing services because VA funding is 
$10.1 billion below what is needed just to maintain its 2006 
purchasing power.
    I urge this committee to reconsider these policies that 
will undermine the health of millions of Americans. Rural 
America truly is the heartland of this great country. It is up 
to all of us here in Congress to ensure its continued vitality.
    The President's fiscal year 2007 budget seems geared to do 
just the opposite. The $2.77 trillion budget that the President 
sent to us last week cuts $1.5 billion from the Department of 
Housing and Urban Development, which we call HUD. The President 
is proposing these cuts despite HUD's recently reporting that 
$5.18 million very low income families have critical housing 
problems. The President's fiscal year 2007 budget imposes 
severe cuts to Sections 202 and 811 programs that provide 
housing to the lowest income seniors and people with 
disabilities at a time when the baby boom generation is 
beginning to retire.
    One of the programs that is fundamental to the success of 
rural cities is the Community Development Block Grant Program 
(CDBG). The President's budget proposes cutting the CDBG 
program by another 20 percent from $3.7 to $2.9 billion. And 
this cut and HUD's intention to revamp the program to award 
grants to undefined areas of greatest needs will devastate 
rural America. State and local authorities rely on those grants 
for community revitalization. Now is not the time to abandon 
our commitment to these communities in the guise of reform.
    Mr. Chairman, recently HUD awarded Texas only $74,523,000 
in CDBG funds despite its request for approximately $1 billion 
in assistance to provide relief to the hurricane evacuees. 
Texas will not have enough funds to provide for the hurricane 
evacuees much less its own population if Congress cuts CDBG 
program funding.
    The pending supplemental makes it clear: We need to 
actually increase funding for this CDBG program. The Rural 
Housing and Economic Development Program, the Housing 
Assistance Council, and the National Community Development 
Initiative are all key programs for our rural America. The 
President's budget has either zero funded or eliminated all of 
them.
    Furthermore, Mr. Chairman, the President's budget has 
proposed no funding for the construction of low income housing 
and calls for the elimination of all funding for the 
construction or preservation of affordable housing units in 
rural areas.
    One ray of hope lies in the fact that the proposed budget 
maintains the Community Development Financial Institutions 
Program. However, it reduces this important program 85 percent 
from its current funding of $46 million to a mere $8 million 
for this fiscal year 2007.
    In conclusion, let me say last year I fought to keep the 
Resource Conservation and Development Program intact and 
prevent closure of Farm Service Agencies, and yet again the 
President is recommending consolidating funding for the 
programs that are vital to a rural America. At a time when we 
are trying to rebuild the gulf coast, it is a mystery to me 
that programs people rely upon to get back on their feet face 
such drastic cuts.
    Thank you for allowing me to testify here before you. I 
encourage you to maintain an increased funding for programs 
that are essential to the education, health, economic 
development of our country. And if you have any questions, I 
will be glad to address them.
    [The prepared statement of Mr. Hinojosa follows:]

Prepared Statement of Hon. Ruben Hinojosa, a Representative in Congress 
                        From the State of Texas

    Chairman Nussle, Ranking Member Spratt and Members of the 
Committee, thank you for this opportunity to testify before you on the 
fiscal year 2007 budget. I ask that my written statement be included in 
the record.. The Federal budget is our most direct and telling 
statement of the nation's values and priorities. Unfortunately, when 
the people of my congressional district--hard working people--many who 
live in rural areas--most of whom are Hispanic--look at the Federal 
budget, they do not see their values reflected in the budget; and they 
do not see their community's well-being and prosperity treated as a 
national priority.
    I am here today to share with you some areas where the Federal 
budget could better reflect the values and priorities of my 
congressional district and similar communities across the nation. I 
will focus my remarks on three critical areas: education, health, and 
rural development.

                               EDUCATION

    Nothing demonstrates our misplaced national priorities more than 
our failure to invest in education--particularly our failure to invest 
in the key programs that are making a difference in the Hispanic 
community.
    Our census figures tell the story. Hispanics are now the largest 
minority group in the country. Hispanic children are now second to only 
non-Hispanic whites in our nation's schools. By 2010, Hispanics will be 
the largest minority group in our nation's workforce. Yet Hispanic 
children are the least likely to attend preschool, the most likely to 
dropout of school before earning a high school diploma, and the least 
likely to earn a college degree.
    Strengthening educational opportunities for Hispanic Americans from 
pre-school through graduate school must become a national priority. 
Literally, our future depends on it. Unfortunately, the opposite has 
been true.
    We know what we need to do. We have an investment plan. The 
Congressional Hispanic Caucus focuses on a group of Federal education 
programs that are critical to the Hispanic community--Titles I and III 
of the Elementary and Secondary Education Act, migrant education 
programs, dropout prevention, HEP and CAMP, TRIO, GEAR UP, Hispanic-
Serving Institutions, Even Start Adult English as a Second Language and 
Civics Education. We call these programs the Hispanic Education Action 
Plan.
    The fiscal year 2006 education budget cut every single program in 
this plan. For the first time in 10 years, the Federal support for 
Hispanic-Serving Institutions (HSIs) has been reduced, in spite of the 
fact that half of all Hispanic college students attend HSIs. For the 
first time in 10 years, funding for Title I, the cornerstone of the No 
Child Left Behind Act has been cut. TRIO programs have been put on the 
chopping block. Even Start, which provides literacy services to low-
income families, over half of whom are Hispanic, has been slashed by 
more than 50 percent. Programs for English language learners and 
migrant students have been cut for the third year in a row. These cuts 
are coming at a time when the Department of Education estimates that 
there are 5.4 million English language learners in our schools and 
projects that the number will double by 2025.
    Unfortunately, the President's budget calls for an even greater 
assault on Hispanic education programs with cuts of $2.1 billion to 
education overall--a reduction of 3.8 percent from last year. These 
cuts include the elimination of key programs such as dropout 
prevention, GEARUP, and the TRIO programs of Upward Bound and Talent 
Search. In total, the President's budgets cuts the Hispanic Education 
Action Plan by more than $855 million.
    We must turn this around and significantly increase the investments 
in all of these programs. The stakes could not be higher. I urge you to 
reject the Administration's proposed cuts. I urge you to restore 
funding that has been cut over the past several years. And I urge you 
to put us on a path of increased investment starting with fiscal year 
2007. Without these investments, our nation will no longer be 
economically competitive in the future.

                                 HEALTH

    In addition to creating an educated workforce, we also need a 
healthy workforce if we are to remain competitive. Unfortunately, many 
people in my district do not have access to quality healthcare, 
particularly those in rural communities. Rural communities suffer from 
a lack of trained medical personnel because they cannot compete against 
urban wages and benefits in this time when we are facing a national 
shortage of nurses and allied health professionals. Yet the President's 
budget eliminates health profession training grants and slashes funding 
by 83 percent for rural health activities.
    My district is plagued by the ever increasing scourge of diabetes 
which is afflicting my constituents at an ever younger age and in near 
epidemic numbers. Yet the 2007 budget cuts critical diabetes programs 
at the Center for Disease Control which bridge the gap between 
theoretical research at the National Institutes of Health and real 
community based treatment.
    The Centers for Disease Control will also lose $290 million in 
programs for programs like the Preventative Health and Social Services 
Block Grant, Emergency Medical Services for children and the Universal 
Newborn Screening even while we all know that early prevention can save 
billions in future health costs.
    Provider cuts in Medicare will make it more difficult for my 
seniors to find a physician to treat them and higher copays will make 
even Medicaid unavailable to thousands of my constituents. My returning 
veterans from Iraq will have difficulty accessing services because VA 
funding is $10.1 billion below what is needed to maintain its 2006 
purchasing power. This will severely impact the VA's ability to treat 
new veterans.
    I urge the committee to reconsider these policies that will 
undermine the health of millions of Americans.

                           RURAL DEVELOPMENT

    Finally, I strongly urge this committee to provide the funds 
necessary to operate key programs that help bolster economic 
development in Rural America. Rural America truly is the heartland of 
this great country. It is up to all of us here in Congress to ensure 
its continued vitality. The President's fiscal year 2007 budget seems 
geared to do just the opposite.
    The $2.77 trillion budget that the President sent to us last week 
cuts $600 million from the Department of Housing and Urban Development 
(HUD), a 1.8-percent decrease from the FY06 appropriations. The 
President is proposing these cuts despite HUD recently reporting that 
5.18 million very low-income families have critical housing problems. 
It seems illogical at best for the Administration to be recommending a 
reduction of $1.15 billion in funding for housing programs when the 
agency responsible for those programs is aware of the need to do just 
the opposite--to increase funding for critical housing needs.
    At this juncture in our history, and in light of the nation's 
demographics, we need to begin increasing funding for lowest income 
seniors and people with disabilities. Contrary to this logic, the 
President's Fiscal Year 2007 budget imposes severe cuts to Sections 202 
and 811 programs that provide housing to the lowest income seniors and 
people with disabilities. This budget adds insult to injury by 
targeting seniors and people with disabilities twice for reduced 
assistance: first by reducing funding for health care and again by 
substantially reducing not only the funding for housing programs but 
the availability of key programs to those most in need. This budget is 
far from being compassionate.
    President Bush recently noted that he and former President Clinton 
will turn 60 this year, as will a considerable number of other members 
of the Baby Boom generation. He and his Administration should realize 
that the Sections 202 and 811 programs should be expanded considerably 
to prepare for the future housing needs of these people and for the 
housing needs of the Baby Boomers in general. The Baby Boom generation 
is going to place a huge drain on our economy, and we need to prepare 
for that now by providing the funds necessary to maintain programs that 
are going to be vital to the continued success of our country.
    One of the programs that is fundamental to the success of rural 
cities is the Community Development Block Grant Program. The 
President's budget proposes cutting the CDBG program by 20 percent--
from $3.7 billion to $2.975 billion. This cut, and HUD's intention to 
revamp the program to award grants to the ``areas of greatest needs''--
terminology which has yet to be defined--will devastate Rural America. 
State and local authorities rely on those grants for a variety of 
purposes. The reduction in funding is bad enough, but HUD has made 
statements that the CDBG program will be reformed but has not expounded 
on its proposal.
    In the aftermath of Hurricanes Rita and Katrina, Texas needs a 
considerable amount of CDBG funding. Following Hurricane Katrina, 
Texans were more than happy to open our hearts, our homes, our 
communities and our resources to the evacuees of Hurricane Katrina, and 
we remain committed to helping them in any way we can. However, we need 
the Federal Government, particularly HUD, to provide us with greater 
assistance.
    Recently, HUD Secretary Alphonso Jackson announced the allocation 
of $11.5 billion in disaster funding to be divided among the five Gulf 
Coast states impacted by Hurricanes Katrina, Rita and Wilma. He, HUD 
and the Administration decided to provide ``relief'' through the CDBG 
Program to Louisiana, Mississippi, Florida, Alabama and Texas. 
Unfortunately, Texas received only $74,523,000 from HUD despite its 
request for approximately $1 billion in assistance. In response, the 
Texas Delegation sent a letter to HUD Secretary Jackson requesting a 
detailed explanation of the Department's allocation of CDBG funds. The 
Secretary himself has yet to respond. I hope that this committee will 
take HUD's treatment of Texas into consideration when it decides 
whether or not to increase funding for CDBG. It is obviously a key 
ingredient to addressing housing needs of communities in need as 
demonstrated by HUD's use of the funds for Hurricane relief.
    The Rural Housing and Economic Development (RHED) Program, the 
Housing Assistance Council (HAC), and the National Community 
Development Initiative (NCDI) are all key programs for Rural America. 
The President's budget has either zero-funded or eliminated all of 
them. Furthermore, the President's budget has proposed no funding for 
the construction of low-income housing, and the budget calls for the 
elimination of all funding for the construction or preservation of 
affordable housing units in rural areas. This is at best irresponsible.
    One ray of hope lies in the fact that the proposed budget maintains 
the Community Development Financial Institutions (CDFI) Program. 
However, it reduces this important program 85 percent, from its current 
funding of $46 million to a mere $8 million for Fiscal year 2007.
    Last year I fought to keep the Resource Conservation and 
Development Program (RC&D) intact, and prevent closure of Farm Service 
Agencies, and yet again the President is recommending consolidating 
funding for the programs. Farmers and ranchers are the backbone of our 
economy, and we need to do all we can to support them, not continue 
slashing programs that assist them.
    All of these programs directly help low-income and rural 
communities across the country. At a time when we need to maintain 
funding for CDBG, RHED, CDFI, HAC, and other low-income and rural 
housing programs, especially in the aftermath of Hurricanes Katrina and 
Rita, it's a mystery to me that programs people rely upon to get back 
on their feet face such drastic cuts.
    I urge the committee to stand up for rural America and oppose these 
cuts.

    Mr. Ryun. Mr. Hinojosa, thank you very much for your 
testimony. Are there any members that have questions at this 
point? Hearing none--Mr. Moore.
    Mr. Moore. May I comment very briefly? Thank you, Mr. 
Hinojosa, for being here and for your presentation. I just want 
to comment on two, very quickly, areas that you covered. One is 
you talked about a budget being a values document. I think you 
are exactly right. I have learned in the 7 years I have been 
here in Congress that our job is about setting priorities for 
how we are going to spend our money. And people can talk all 
they want about values, but what it comes down to, a real 
demonstration of values is how we choose to the spend the money 
for the people in this country, and you mentioned in particular 
two areas I want to comment on very quickly.
    One is education. I think it is a drastic mistake to be 
cutting back on college student loans. I don't know that you 
mentioned that, but you mentioned several other work and 
education programs. And the second, you did mention health. You 
talked about cutbacks in diabetes programs and cutbacks in 
provider cuts for Medicare beneficiaries--and for providers, 
excuse me. And I think, again, those are places we should not 
choose to make cuts. I believe in a balanced budget, I believe 
in fiscal responsibility, but we have got to make hard 
decisions here, and we can't sacrifice the least among us.
    Thank you.
    Mr. Hinojosa. Congressman Moore, if I may, I would like to 
respond by saying that one thing I have learned here in 
Congress these 10 years, and that is that issues divide us. 
Values, as I addressed in the opening of my remarks, is what 
unites us. And that is why I am making such a plea for 
increases in funding in these areas. And, Mr. Chairman, if I 
may, I would like to ask unanimous consent that to my remarks, 
that we also add two documents that I have which are a history 
from 1995 to 2006 of the funding that we have received in the 
HEAP programs, which is our Hispanic Education Action Plan, so 
that you can see that we were on a good route, a good track to 
be able to increase funding which is very necessary to address 
the programs that are helping our community be able to graduate 
and go on to college.
    Mr. Ryun. Without objection, those will be put into the 
record.
    [The information referred to follows:]

                                                           CONGRESSIONAL HISPANIC CAUCUS HISPANIC EDUCATION ACTION PLAN (HEAP) FUNDING
                                                                                      [Amounts in millions]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                1995     1996     1997     1998     1999     2000     2001     2002        2003          2004            2005           2006
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Hispanic Serving Institutions...............................      $12    $10.8    $10.8      $12      $28      $43      $69       $86         $92.4           $94            $95.1         $94.9
Bilingual Education.........................................   $156.7     $128   $156.7     $199     $224     $248     $296  \1\ $665        $683.7          $681             $676          $669
Migrant Education HEP/CAMP..................................   $10.29    $9.47    $9.47    $9.72      $13      $22      $30       $38           $39         $34.5              $34         $33.9
Migrant Education (Title I of ESEA).........................   $305.5   $305.5   $305.5   $305.5   $354.7     $355     $380      $396        $395.5        $393.6           $390.4        $386.5
Adult Education\2\ (State Grant)............................      N/A      N/A      N/A      N/A      N/A      $25      $70       $70   $70 (571.3)   $70 (574.4)    $68.5 (569.7)   $67.8 (564)
TRIO--Total.................................................     $463     $463     $500   $529.7     $600     $645     $730      $803        $827.1        $832.6           $836.5        $828.2
GEAR-UP.....................................................      N/A      N/A      N/A      N/A     $120     $200     $295      $285        $293.1        $298.2           $306.5        $303.4
Title I (LEAs)..............................................   $6,698   $6,730   $7,295   $7,375   $7,676   $7,940   $8,336   $10,350       $11,684     $12,342.3        $12,738.6      12.713.1
Dropout Prevention (Title I, Part H)........................      N/A      N/A      N/A      N/A      N/A      N/A      N/A        $7           $11            $5             $4.9         $4.85
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ The No Child Left Behind Act consolidated bilingual and immigrant education programs into a state formula grant program under Title III. Immigrant education had been funded at $150 million
  in previous fiscal years.
\2\ Adult English as a Second Language and Civics setaside from the Adult Education State Grant Program.


                                            FY 2006 BUDGET PRIORITIES--HISPANIC EDUCATION ACTION PLAN (HEAP)
                                                                  [Amounts in millions]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                            Admin
                                                                   2004         2005       Request        CHC         House        Senate       Final
--------------------------------------------------------------------------------------------------------------------------------------------------------
Hispanic-Serving Institutions (Title V of HEA)...............          $94        $95.1        $95.9         $125        $95.9       $100.8        $94.9
English Language Acquisition (Title III, ESEA) \1\...........         $681         $676         $676         $900         $676       $683.4         $669
Migrant Education HEP/CAMP...................................        $34.5        $34.3        $34.3          $50        $34.3        $37.1        $33.9
High School Equivalency Program (HEP)........................      ($18.9)      ($18.7)      ($18.7)        ($27)      ($18.7)      ($21.6)       (18.5)
College Assistance Migrant Program (CAMP)....................      ($15.7)      ($15.5)       (15.6)        ($23)      ($15.6)      ($15.5)       (15.4)
Migrant Education Programs (Title I of ESEA).................       $393.6       $390.4       $390.4         $455       $390.4       $395.2       $386.5
Adult ESL/Civics \2\.........................................          $70        $68.5        $68.5         $100        $68.5          $72        $67.8
(Adult Education State Grant)................................     ($574.4)     ($569.7)       ($200)     ($604.4)     ($569.7)     ($572.9)        (564)
TRIO.........................................................       $832.6       $836.5       $369.4         $900       $836.5       $841.5       $828.2
GEAR-UP......................................................       $298.2       $306.5           $0         $350       $306.5       $306.5       $303.4
ESEA Title I (LEAs)..........................................    $12,342.3    $12,738.6    $13,342.3         Full    $12,839.6    $12,839.6    $12,713.1
Dropout Prevention (new program).............................           $5         $4.9           $0          $11           $0         $4.9        $4.85
Local Family Information Centers.............................           $0           $0           $0           $5           $0           $0           $0
(Parent Information Resource Centers \3\)....................        ($42)        ($42)         ($0)        ($60)         ($0)      ($48.5)      ($39.6)
Even Start...................................................         $247         $225           $0         $230         $200           $0          $99
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Previously bilingual and immigrant education, these programs were consolidated by NCLB.
\2\ Under the Adult Education State Grants: earmark for English Literacy and Civics for immigrant and LEP populations.
\3\ Local Family Information Centers cannot be funded until Parent Information and Resource Centers reach $50 million.

    Mr. Hinojosa. Thank you. I appreciate that.
    Mr. Ryun. At this point I would like to turn to the 
gentleman from Kansas, a colleague of mine, Mr. Tiahrt, for his 
proposal.

  STATEMENT OF HON. TODD TIAHRT, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF KANSAS

    Mr. Tiahrt. Thank you, Mr. Chairman. It is nice being here 
with half the Kansas delegation. And Mario, we will just go 
ahead and adopt you, and that way all four of us will be here.
    I want to talk to you about saving some money. Instead of 
about spending more money, I want to talk to you about how we 
can save some money. And I appreciate the gentleman from 
Kansas, Mr. Moore's, comments and also Mr. Hinojosa's comments 
about this being a values document. It is--our values are 
embedded in this budget document, and one of the things I think 
that we all want in those values that should be included in 
here is accountability and integrity and fiscal responsibility.
    This is an option that I am going to present that will help 
us get to a balanced budget. I have a formal testimony that I 
would like to submit for the record.
    Mr. Ryun. Without objection.
    Mr. Tiahrt. And then I am going to give you some brief 
comments and take your questions. The bill I am presenting that 
I would like to be part of the budget document is called the 
Commission on Accountability and Reform of Federal Agencies, or 
CARFA for short. Basically, it sets up an agency to help us do 
oversight.
    Now, it is no secret that the Federal budget has got a lot 
of examples of duplicative, inefficient, failed Federal 
agencies and programs, and it is a serious problem facing our 
Nation today. The House Budget Committee put out a 421-page 
report outlining as much as $100 billion in waste, fraud, and 
abuse throughout the Federal Government. But there is other 
examples. The Office of Management and Budget said there is 
about $90 billion of waste and abuse out there in the Federal 
Government. The Congressional Budget Office said it could be as 
high as $140 billion in spending waste. There is also reports 
from Government Affairs Committee, from the General Accounting 
Office, and the Senate Government Affairs Committee has also 
put out a document.
    So what do we do with that information? Well, one of the 
biggest frustrations I have as a Member of the House and an 
appropriator is dealing with the size and scope of the Federal 
Government. It has gotten so big that our attention is focused 
on the crisis of the day rather than stepping back and looking 
at the effectiveness of what we are trying to do. Oversight is 
the term or the word that sort of sums up that process.
    Now, if we were to do some oversight, just taking an 
average legislative day, we ought to be looking at $30 billion 
worth of spending on any given legislative day. I think we have 
to ask ourselves: How much oversight did we provide today? Was 
it $30 billion worth of oversight? Did we find any waste, 
fraud, or abuse today? One of the examples that is very--since 
we have most of the, or a majority of the Kansas delegation 
here, I have found out that, according to the Congressional 
Research Service, that one out of four payments that Kansas 
makes in Medicaid is wrong. One out of four payments. Can you 
imagine FedEx running a commercial saying, if you will give us 
four boxes to ship, we will get three of them there and then we 
will go find the other one. And you have got three out of four 
chances of getting that one sent to the right place. But if we 
lose it again, we will find it again and we will finally get it 
there. The fact that we make one out of four of our payments 
inefficiently means that we need some oversight. They need some 
reforms and they need some help.
    CARFA is about helping with that process. Even the 
Appropriations subcommittees which do a fabulous job of 
oversight don't have the time to deal with all of the--with the 
size and the scope of the number of agencies and the amount of 
spending that is out there.
    There is also--I am not talking about any earmarks here at 
all. What I am talking about is agencies that are out there, 
both of them doing good work. Say there is two agencies, both 
of them doing training activities, both of them doing good 
work, not aware that they are competing for the same clientele, 
not aware that they have duplicative overhead, and that we are 
wasting money by having a structure that has two redundant 
programs. Well, there are over 100 training programs in the 
Federal Government. And where is the coordination of all that 
activity? We don't have it. We just need to have somebody step 
back and take a look at it.
    CARFA basically would be a commission of 12 people. They 
would be volunteers. There would be a 2-year term limit. This 
whole thing is really for 2 years and 3 months with the final 
report at the end. But basically they would have access to 
staff, they would have their expenses covered, their travel 
expenses, given a per diem. Their staff would have sufficient 
space to work and also expenses. They would have the right to 
bring information before their committee. And at the end of 2 
years they would submit to Congress in a BRAC-like fashion 
programs that they have found to be duplicative, inefficient, 
or wasteful, and we would bring it to the floor for an up or 
down vote in the same fashion that we do as in BRAC. So this is 
a BRAC-like commission to help us do the oversight 
responsibility that we have here in Congress but we don't spend 
enough time doing. And, as I said, any given legislative day we 
ought to be doing about $30 billion worth of oversight, and I 
think we are far behind that goal to try to achieve that on any 
given day even at the end of the session.
    So CARFA is the bill and I would like to have that concept 
in the budget resolution. I think that it would be a very 
effective way to reduce the waste, fraud, and abuse that is in 
our Federal Government, and it would save us money.
    If we could save $140 billion, that would be a tremendous 
step to reducing the budget deficit. If we could save $100 
billion, still a significant step. If we could save $1 billion, 
that is a lot of money. Any of us could retire on that amount 
of money. So CARFA I think is a good concept, it is a good 
idea, and ought to be included in the budget document.
    I stand for your questions.
    [The prepared statement of Mr. Tiahrt follows:]

 Prepared Statement of Hon. Todd Tiahrt, a Representative in Congress 
                        From the State of Kansas

    Mr. Chairman, thank you for the opportunity to testify before the 
committee today.
    As I think you would agree, the President's tax cuts are to be 
commended for getting our economy moving in a positive direction again. 
However, the other half of the formula for economic success is to cut 
wasteful and unnecessary spending. It is certainly no secret that the 
Federal budget is filled with examples of duplicative, inefficient, and 
failed Federal agencies and programs. I am here today to discuss 
legislation that I have introduced that I believe would eliminate much 
of the fraud and abuse that persists in our Federal Government in a 
politically viable manner.
    When Republicans gained control of Congress in 1994, we proposed to 
eliminate wasteful and deficit spending. In fact, in the Contract with 
America, which several of us in this room signed, we pledged to (and I 
quote) ``restor(e) fiscal responsibility to an out-of-control Congress, 
[by] requiring them to live under the same budget constraints as 
families and businesses.'' For several years, we held to that promise 
by modestly curtailing spending growth and balancing the budget in 1998 
for the first time since the 1960's. Since that time, however, Federal 
spending has jumped drastically and we have returned to a time of 
massive budget deficits.
    Some of this increased spending is understandable--especially in 
the defense budget, considering the one-two punch of being under-funded 
by the previous administration and the exigencies of 9/11. But these 
events do not justify the fact that non-defense discretionary outlays 
have increased by over 30 percent over the past 3 years. These 
tremendous spending increases have been a significant cause of the 
deficits that we now face.
    This problem can also be traced to the billions of taxpayer dollars 
that go every year to Federal programs and agencies that are redundant, 
wasteful, and altogether irrelevant. I certainly support a 1-percent 
cut in non-defense, non- homeland security discretionary spending as 
well as a cap of 1 percent on the rate of growth of mandatory spending. 
These are measures that we must take given our current fiscal climate. 
But I also think there are other meaningful ways that we can confront 
the deficit, including by rooting out fraud and abuse in our 
government.
    Some say that a growing national debt will force us to curtail 
government growth. So far we have seen none of that. It is also 
commonly believed that economic growth will reverse the effects of 
running up the national credit card. Although the economy is perking 
up, we cannot become complacent. As a matter of fact, former Federal 
Reserve Chairman Alan Greenspan warned us that ``impressive gains'' in 
our economy would not outshine the negatives of our growing budget 
deficits. Mr. Greenspan promised that the Fed will hold short-term 
interest rates; now at a 45-year low of 1 percent, then he warned that 
these rates ''will not be compatible indefinitely'' with the Fed's 
fight against inflation.
    If interest rates go up, what will happen to the stock market, the 
housing market and personal credit card debt? A rise in interest rates 
could stall economic growth by damaging fledgling business projects and 
cause other complications.
    We now have just about $380 billion left to spend before we have to 
start borrowing again! We are spending a few billion dollars a day, so 
it won't be long. As you know, deficits REQUIRE the Treasury to borrow 
money to raise cash needed to keep the Government operating. Yes, our 
economy is rebounding, but we are simply not keeping pace with our rate 
of spending--therefore the deficit is growing like a gelatinous monster 
from a ``B-grade'' movie.
    Concerned grassroots conservative organizations including The Club 
for Growth, The Free Congress Foundation, Citizens Against Government 
Waste, The Heritage Foundation, The American Conservative Union, 
Citizens for a Sound Economy have been vocal in their criticism of the 
rate of growth of the deficit and the large spending increases that we 
have witnessed over the past few years. We can no longer ignore the 
fact that all this spending is endangering our economic vitality. The 
government cannot spend or give anything until they have collected the 
money to do so. Magic does not happen. Taxes and borrowing happen.
    It has become increasingly clear that Congress' normal procedures 
cannot address the spending and waste problems that persist within our 
Federal Government. Time and again, we see congressionally-authorized 
programs become institutionalized, ultimately becoming a permanent 
fixture at the expense of taxpayers. This ties up precious Federal 
resources that could be used toward paying down the national debt or 
higher Congressional priorities. By cutting out unnecessary Federal 
programs and agencies, we will send a strong message that we are 
serious about exercising fiscal responsibility and controlling 
government spending. With this in mind, I have introduced a bipartisan 
piece of legislation that will accomplish this very purpose.
    A first step toward a stable financial future for this country 
currently can be found in H.R. 2470, which is also known as the 
Commission on the Accountability and Review of Federal Agencies Act 
(CARFA). CARFA is based on a process with an established record of 
successful program-elimination and prioritization of spending--the Base 
Realignment and Closure Commission (BRAC). H.R. 2470 will ``establish a 
commission to conduct a comprehensive review of Federal agencies and 
programs and to recommend the elimination or realignment of 
duplicative, wasteful, or outdated functions...'' CARFA provides for a 
disciplined spending review process for non-defense, non-entitlement 
programs. Congress will have to simply vote up-or-down on the 
commission's recommendations in their entirety. The congressional log-
rolling that normally bogs down the process will be short-circuited. In 
this way, real reform can emerge, and the deficit and debt problems can 
be brought under control. H.R.2470 offers Congress and the 
Administration a unique opportunity: rather than simply re-fund and 
increase funding for every Federal program, CARFA will eliminate 
unproductive, duplicative and outdated programs.
    Here's how CARFA would work. The Commission would consist of 12 
members, appointed by the President, no later than 90 days after the 
enactment of this Act. Members would be appointed for the life of the 
Commission, and would be required to meet no later than 30 days after 
the date on which all members of the Commission have been appointed. 
CARFA's duties would then include conducting a top to bottom review of 
all Federal programs and agencies--excepting the Department of Defense 
and any agency that solely administers entitlement programs. CARFA 
would seek to identify those programs or agencies that could be 
considered duplicative in mission, grossly wasteful or inefficient, 
outdated, irrelevant, or failed. The assessment of these programs would 
be based primarily upon the achievement of common performance measures, 
financial management, and other factors determined by the President. No 
later than 2 years after the enactment of this Act, the Commission 
would be required to submit to the President and Congress a plan with 
recommendations of the agencies and programs that should be realigned 
or eliminated and propose legislation to implement this plan. CARFA 
would require congressional consideration of the review's findings 
under expedited legislative rules. In short, Congress would be voting 
``up or down'' to continue or stop wasteful spending.
    CARFA's main focus would be to make our government smarter and more 
efficient, and also to ensure that taxpayer dollars are not used to 
support programs such as the ``Federal Tea-taster,'' who until 1995 
headed the ``Board of Tea Experts'' which was created by the Imported 
Tea Act of 1897. Until this program's elimination just 10 short years 
ago, the Federal Government was spending $120,000 in salary and 
operating expenses per year to taste tea. Obviously this is only one 
example of the type of programs that CARFA would target, but I am 
convinced that our Federal Government is replete with programs such as 
this that make a mockery out of the hard-earned tax dollars that 
Congress provides. Other examples of government waste that CARFA would 
target include surplus lands owned by the Department of Energy, which 
if sold would save taxpayers $12 million over 5 years. In addition, 
eliminating four duplicative bilingual education programs at the 
Department of Education would save taxpayers over $800 million over a 5 
year period. We could save $1 million dollars every year by simply 
eliminating overlapping responsibilities and reducing administrative 
positions at the Consumer Product Safety Commission. The examples of 
inefficient and wasteful government practices that CARFA could target 
are far too numerous to cite in this short amount of time. However, it 
is clear to me that the need for CARFA is very real.
    The strict time limits governing the Commission, which would expire 
shortly after submitting its findings, would ensure that its costs are 
kept to a minimum. I believe that the savings that would occur as a 
result of the Commission's findings will more than justify the minimal 
expenses that the study might incur. In addition, it is worth noting 
that CARFA requires that ALL funds saved by the implementation of this 
plan can ONLY be used for supporting other domestic programs or paying 
down the national debt.
    H.R.2470 offers Congress and the Administration a test: Can we 
address a real and present problem by adopting a method that has been 
successful in the past? The answer will tell us much about the 
prospects for our country in the 21st century. CARFA offers an idea 
other than hiding our heads in the sand and ignoring this problem. 
CARFA is a realistic plan that will make genuine reform possible. It 
takes LEADERSHIP to point out hard truths and LEADERSHIP to find and 
implement a workable answer. We welcome support to this politically 
viable solution to government spending gone awry. If the CARFA 
commission comes to fruition, it will give Congress arms-length 
distance to do the right thing and vote down ridiculous, redundant and 
outdated programs. Over forty-five of my colleagues in the House have 
agreed to co-sponsor this legislation and our numbers are growing 
stronger. We hope to see the CARFA commission hard at work cutting 
wasteful spending by this time next year, if not sooner.
    Thank you for your time.

    Mr. Ryun. I would like to begin just with a brief comment 
actually from your testimony here. You have a statement from 
Federal Reserve Chairman Alan Greenspan warning that impressive 
gains in our economy would not outshine the negatives of a 
growing budget deficit.
    Now, I know in your proposal with the oversight you would 
look for perhaps ways to save money. If you look back at the 
Katrina situation where you have all the mobile homes that are 
sitting down on the runways in Arkansas that are not being 
used, that is a waste of money. You threw out a number of 
numbers. Do you have any estimate, and perhaps it is in your 
testimony or I didn't hear it, with regard to how much 
potentially can be saved through this process?
    Mr. Tiahrt. Well, I think that would be difficult to 
estimate right now, but I think it could be as much as $100 
billion. This is like an experiment. If this works, I am sure 
we would want to repeat, like we have had several BRACs. But 
what I think is important now is that they would have the 
opportunity, this commission would have the opportunity to go 
out and look for these examples. There is plenty of examples 
out there, and they can set a list of priorities. I don't think 
they could work through the complete list in only 2 years 
because our Federal Government is so large. I mean, it is $2.7 
trillion. That is a lot of money. But I think that they could 
save money for us, but, more importantly, put mechanisms or 
give us the ideas to put mechanisms in place so that we don't 
have decisions made that buys $400 million worth of trailer 
houses that sit on a runway in northwest Arkansas.
    Mr. Ryun. I appreciate the gentleman's proposal. Are there 
any other questions by members? Mr. Moore.
    Mr. Moore. Thank you very much, Congressman Tiahrt, for 
being here. I really appreciate the concept here and I do have 
a couple of questions, but first I have just a couple of 
comments as well. But I really do appreciate the concept here.
    We have in this country an $8.2 trillion national debt. In 
the past 4 years, since 2003 at least, in 2003 we had a $378 
billion deficit; 2004, a $412 billion deficit; 2005, a $318 
billion deficit; 2006, the projected deficit is $423 billion. 
Since June of 2002, the first debt limit increase was $450 
billion; May of 2003, a $984 billion debt limit increase; 
November of 2004, an $800 billion debt increase; and a pending 
increase has been requested I understand of $781 billion. So I 
very much like the concept of your proposal here, and I would 
like to see more specifics.
    My questions about your proposal--and I just got this 
statement, but it says on page 7, here is how CARFA would work. 
The commission would consist of 12 members appointed by the 
President. Is that a bipartisan appointment, or does the 
President appoint 12 members of his party, or how does that 
work, sir?
    Mr. Tiahrt. Well, it would be up to--of course the 
President would make that selection. He would, I would hope, do 
it after consultation with both minority and majority Members 
of the House and Senate. I think it would be more effective as 
a bipartisan commission.
    Mr. Moore. Well, I certainly agree with that. What we don't 
need is more partisanship here in Washington, D.C.
    The second question is this. It says on the same page: 
Commission having been appointed, CARFA's duties would then 
include top to bottom review of all Federal programs and 
agencies, excepting the Department of Defense and any agency 
that solely administers entitlement programs.
    Are you suggesting there is no waste or abuse or fraud in 
the Department of Defense or entitlement programs?
    Mr. Tiahrt. Absolutely not. And this would be subject to 
the amendment process as it moves forward. And I think, for 
example, in the Department of Defense, the procurement where 
they have over 75,000 people just buying stuff is a system that 
is archaic and behind the times and needs to be reformed. What, 
this was designed on BRAC, it sort of bases the fundamental 
concept. BRAC is focused on the Department of Defense, so I 
said why don't we look at the rest of the Government. That is 
why it was segregated. It was more an artificial separation. I 
do think there needs to be reform, and I would be open to an 
amendment like that.
    Mr. Moore. I would appreciate if you would send a copy of 
your proposal, if it is in writing right now, over to my 
office.
    Mr. Tiahrt. Absolutely. And one other thing I wanted to 
mention to you, we are going to increase the Federal debt later 
on this year sometime. I hope that we can get some reforms in 
exchange for doing that so that we can save money in the 
future. But this January was very encouraging. I believe that 
the President's tax policies are paying off in that we ran over 
$20 billion in surplus in the first month of this calendar 
year. Hopefully, it will be able to--we will have less than a 
$412 billion deficit. And I believe that if January is an 
indication, we may have some hope of hitting that.
    Mr. Moore. I hope as well your comments about the tax 
policy are correct, but I fear they may be misguided because it 
seems like for the last 4 years we have had nothing but more 
and more deficits. Thank you.
    Mr. Ryun. I would like to thank the gentleman from Kansas 
for his initiative and his testimony. And we will now turn to 
the gentleman from New York, Mr. Fossella.

 STATEMENT OF HON. VITO FOSSELLA, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEW YORK

    Mr. Fossella. Thank you, Mr. Ryun and colleagues. I thank 
the committee for the opportunity to testify. And as we know, 
the President's budget provides Congress with a blueprint that 
we will refer to as we move forward with the budget for 2007. I 
think Congress' responsibility is to build on the strengths in 
that blueprint and also work to develop alternatives to ensure 
that the final product best serves the interests of the 
American people.
    As our troops lead the world in the war on terrorism, it is 
essential that we continue to provide them with the resources 
and tools they need to keep themselves and our Nation safe from 
future attacks. The President's budget calls for a 7-percent 
increase in defense spending next year, representing an 
aggregate increase of 48 percent since 2001. At the same time, 
with our military so bravely battling terrorism abroad, we must 
continue to strengthen and protect our homeland from the 
continuing threat of a terrorist attack.
    The President's budget would provide an 8-percent increase 
in nondefense homeland security funding. In addition, the 
budget includes a number of proposals geared toward increasing 
the Nation's preparedness against a variety of threats, from 
bioterrorism attacks to natural disasters to an influenza 
pandemic. As a priority, we need to ensure that the homeland 
security programs are adequately funded and that this funding 
is directed to the cities that face the greatest threat.
    Indeed, I introduced legislation this Congress to reform 
the current system for allocating anti-terror funding, making 
risk the only criteria for distributing the nearly $2.5 billion 
in Federal homeland security aid. While we have made progress 
on this issue in recent years, the only rule that should apply 
is this: Congress should send resources to fight terrorism 
where they are needed most, not based on arbitrary formulas. I 
look forward to working with all parties to achieve this 
important goal.
    Tragically, Hurricane Katrina provided evidence that our 
current system for disaster response and recovery is inadequate 
for catastrophic events like those that devastated the Gulf 
States last year. The President's budget also includes $1.94 
billion for the Disaster Relief Fund and $3.1 billion for FEMA 
activities to continue and strengthen recovery and relief 
efforts. In addition, the President requested continued funding 
to the Inspector General within the Department of Homeland 
Security to oversee the allocation of relief funds and ensure 
the dollars are flowing to those who truly need them.
    There is no greater priority of the Federal Government than 
protecting the people of our Nation. It is the most essential 
function of government, and I look forward to working with you 
to build on these strong points. At the same time, we also have 
a responsibility to care for America's seniors by protecting, 
preserving, and strengthening Social Security and Medicare and 
helping those less fortunate by enhancing Medicaid. Therefore, 
I would like to take this opportunity to raise concerns over 
several budget proposals that I believe need to be considered.
    With Medicare expected to grow 17 percent this year alone 
from $330 billion to almost $390 billion, and an average of 8.5 
percent a year through 2016, the program will increase from 3.3 
percent of GDP in 2005 to 4.2 percent of GDP in just 10 years. 
Therefore, it is important that we explore ways to create 
efficiencies so our Nation's seniors continue to have access to 
the high quality care they need. However, several proposals to 
increase out-of-pocket expenses for beneficiaries and reduce 
anticipated payments to hospitals and health systems could make 
it more difficult for beneficiaries to access that care. I also 
have concerns about the proposals aimed at the specific 
specialties commonly needed by the Medicare population, such as 
reduced payments for hip and knee replacements and the 
inclusion of inpatient rehabilitation facilities and skilled 
nursing facilities and the elimination of market-basket 
updates.
    I believe Congress should focus on principles that can 
produce savings over the long term. The President proposes 
initiating and expanding to health savings accounts for 
Medicare beneficiaries and increasing cost efficiencies through 
the use of competitive bidding for durable medical equipment, 
outpatient drugs, initiating competitive bidding for Medicare 
laboratory services as examples.
    Additionally, on top of the $1.1 billion provided for the 
health care fraud and abuse control, the President requested 
$118 million for the targeted efforts to protect the new 
prescription drug benefit and Medicare Advantage programs from 
waste, fraud, and abuse. We need to protect and enhance the 
Medicare program to ensure its sustainability for future 
generations. To meet that challenge, we should focus on cost 
effectiveness and quality assurance measures that will not harm 
our senior citizens. I look forward to working with you toward 
that end.
    Medicaid outlays in 2005 will reach $182 billion and more 
than $300 billion when State expenditures are included. 
Spending on Medicaid will increase by 5.2 percent in 2006, and 
an average of 8 percent over the next 10 years. As a share of 
gross domestic product, Medicaid spending will rise from 1.5 
percent in 2006 to 2 percent in 2016. The Deficit Reduction Act 
included significant reforms authored by the bipartisan 
National Governors' Association aimed at improving the overall 
fiscal health of Medicaid. Without congressional action, 
Medicaid would have begun bankrupting States or, as some 
Governors have revealed, forced them to drop beneficiaries from 
coverage altogether.
    As we work to fix Medicaid's problems, we should also be 
wary of initiatives included that would reduce access to care 
for those who need it and truly cannot afford it.
    On Social Security reform, I believe we can find a 
bipartisan solution to strengthening Social Security if 
politics is cast aside and the best interests of the American 
people take priority. As I have said in the past, I stand ready 
to work with Democrats and Republicans to find common ground 
that will allow our generation to renew the sacred covenant. 
Indeed, I believe we have a responsibility to ensure that 
Social Security is strong and solvent for today's seniors, baby 
boomers, our children, grandchildren, and future generations of 
Americans. Partisanship and unwillingness to compromise has 
stalled efforts to improve Social Security. Therefore, I 
believe the best course of action at this time is to appoint a 
bipartisan commission that would be charged with developing a 
plan to strengthen Social Security for all Americans.
    By all accounts, it seems the American people do not 
support the personal accounts of progressive indexing as a way 
to secure Social Security. Therefore, we should really and 
truly explore other proposals to strengthen this program.
    Mr. Ryun, as we begin the budget process, America is faced 
with great challenges and even greater opportunities. I look 
forward to working with Chairman Nussle, Ranking Member Spratt, 
the Budget Committee, and all my colleagues in the House to 
develop a budget that best reflects the priorities and best 
interests of the American people. Thank you for the 
opportunity.
    [The prepared statement of Mr. Fossella follows:]

Prepared Statement of Hon. Vito Fossella, a Representative in Congress 
                       From the State of New York

    Thank you Chairman Nussle and Ranking Member Spratt for the 
opportunity to testify before your committee this afternoon. As you 
know, the President's budget provides Congress with a blueprint that we 
will refer to as we move forward with a budget for 2007. Congress' 
responsibility is to build on the strengths of that blueprint and also 
work to develop alternatives to ensure that the final product best 
serves the interests of the American people.
    As our troops lead the world in the War on Terrorism, it is 
essential that we continue to provide them with the resources and tools 
they need to keep themselves and our nation safe from future attacks. 
The President's budget calls for a 7-percent increase in defense 
spending next year, representing an aggregate increase of 48 percent 
since 2001. At the same time, with our military so bravely battling 
terrorism abroad, we must continue to strengthen and protect our 
homeland from the continuing threat of a terrorist attack. The 
President's budget would provide an 8-percent increase in non-defense 
homeland security funding. In addition, the budget includes a number of 
proposals geared toward increasing the nation's preparedness against a 
variety of threats, from bioterrorism attacks to natural disasters to 
an influenza pandemic.
    As a priority, we need to ensure that homeland security programs 
are adequately funded--and that this funding is directed to the cities 
that face the greatest threat. Indeed, I introduced legislation this 
Congress to reform the current system for allocating anti-terror 
funding, making risk the only criteria for distributing the nearly $2.5 
billion in Federal homeland security aid. While we have made progress 
on this issue in recent years, the only rule that should apply to 
homeland security funding is this: Congress should send resources to 
fight terrorism where they are needed most, not based on arbitrary 
formulas. I look forward to working with all parties to achieve this 
important goal.
    Tragically, Hurricane Katrina provided evidence that our current 
system for disaster response and recovery is inadequate for 
catastrophic events like those that devastated the Gulf states last 
year. The President's Budget includes $1.94 billion for the Disaster 
Relief Fund and $3.1 billion for FEMA activities to continue and 
strengthen recovery and relief efforts. In addition, the President 
requested continued funding to the Inspector General within the 
Department of Homeland Security to oversee the allocation of relief 
funds and ensure the dollars are flowing to those who truly need them.
    There is no greater priority of the Federal Government than 
protecting the people of our nation. It is the most essential function 
of government, and I look forward to working with you to build on these 
strong points.
    At the same time, we also have a responsibility to care for 
America's seniors by protecting, preserving and strengthening Social 
Security and Medicare and helping those less fortunate by enhancing 
Medicaid. Therefore, I would like to take this opportunity to raise 
concerns over several budget proposals that I believe need to be 
reconsidered.
    With Medicare expected to grow 17 percent this year alone (from 
$330 billion to $390 billion) and an average of 8.5 percent a year 
through 2016, the program will increase from 3.0 percent of GDP in 2005 
to 4.2 percent in just 10 years. Therefore, it is important that we 
explore ways to create efficiencies so that our nation's seniors 
continue to have access to the high-quality care they need.
    However, several proposals to increase out-of-pocket expenses for 
beneficiaries and reduce anticipated payments to hospitals and health 
systems could make it more difficult for beneficiaries to access that 
care. I also have concerns about proposals aimed at specific 
specialties commonly needed by the Medicare population, such as reduced 
payments for hip and knee replacements and the inclusion of inpatient 
rehabilitation facilities and skilled nursing facilities in the 
elimination of market-basket updates.
    I believe Congress should focus on principles that can produce 
savings over the long term. The President proposes initiating and 
expanding access to Health Savings Accounts for Medicare beneficiaries, 
and increasing cost efficiency through the use of competitive bidding 
for durable medical equipment, outpatient drugs, and initiating 
competitive bidding for Medicare laboratory services. Additionally, on 
top of the $1.1 billion provided for Health Care Fraud and Abuse 
Control, the President requested $118 million for targeted efforts to 
protect the new prescription drug benefit and Medicare Advantage 
programs from waste, fraud and abuse.
    We need to protect and enhance the Medicare program to ensure its 
sustainability for future generations. To meet that challenge, we 
should focus on cost effectiveness and quality assurance measures that 
will not harm America's senior citizens. I look forward to working 
toward that end.
    Medicaid outlays in 2005 will reach $182 billion and more than $300 
billion when state expenditures are included. Spending on Medicaid will 
increase by 5.2 percent in 2006 and an average of 8.0 percent over the 
next 10 years. As a share of GDP, Medicaid spending will rise from 1.5 
percent in 2006 to 2.0 percent in 2016.
    The Deficit Reduction Act included significant reforms--authored by 
the bipartisan National Governors Association--aimed at improving the 
overall fiscal health of Medicaid. Without Congressional action, 
Medicaid would have begun bankrupting states or, as some Governors have 
revealed, forced them to drop beneficiaries from coverage altogether. 
As we work to fix Medicaid's problems, we also should be wary of 
initiatives included in the Budget that would reduce access to care for 
those who need it and truly cannot afford it.
    On Social Security reform, I believe we can find a bipartisan 
solution to strengthening Social Security if politics is cast aside and 
the best interests of the American people take priority. As I have said 
in the past, I stand ready to work with Democrats and Republicans to 
find common ground that will allow our generation to renew this sacred 
covenant. Indeed, I believe we have a responsibility to ensure Social 
Security is strong and solvent for today's seniors, baby boomers, our 
children, grandchildren and all future generations of Americans.
    Partisanship and an unwillingness to compromise has stalled efforts 
to improve Social Security. Therefore, I believe the best course of 
action at this time is to appoint a bipartisan commission that would be 
charged with developing a plan to strengthen Social Security for all 
Americans. By all accounts, the American people do not support personal 
accounts and progressive indexing as a way to fix Social Security. 
Therefore, we should explore other proposals to strengthen the program.
    Lastly, I believe we must work to restore funding to public 
broadcasting, which would be hit with budget cuts in excess of $150 
million over the next 2 years. Last year, I voted for an amendment that 
restored $100 million in cuts to the Center for Public Broadcasting. 
While tight fiscal times require us to make difficult choices, I 
believe there is more to lose than gain by slashing funding to this 
important educational resource. Indeed, such a cut would negatively 
affect PBS programming in my district of Staten Island and Brooklyn and 
potentially leave our children without access to some of the most 
effective educational shows on television today.
    As we begin the budget process, America is faced with great 
challenges and even greater opportunities. I look forward to working 
with Chairman Nussle, Ranking Member Spratt, the Budget Committee and 
my colleagues in the House to develop a budget that reflects the 
priorities and best interests of the American people. Thank you for 
this opportunity today.

    Mr. Ryun. I thank the gentleman for his testimony and 
proposals. And you have touched on a number of very important 
things trying to figure out what we can do in a bipartisan way, 
finding common ground for the future. And that is my hope as we 
push forward with this committee.
    Any questions from other members? Mr. Moore.
    Mr. Moore. Thank you, Congressman, for being here today, 
and I really appreciate what I consider to be a very thoughtful 
proposal and statement here. I would like to send over to your 
office a couple of proposals I have. One addresses the Social 
Security situation, and what it would do is take Social 
Security funds out of the unified budget so that when we report 
to the American people, and Congress knows what we have in the 
way of a deficit or surplus right now, a lot of that money that 
keeps the deficit from being so large is in fact Social 
Security tax revenues coming in.
    I practiced law for 28 years before I came to Congress, and 
lawyers in Kansas and most other States are required to have a 
trust fund to segregate their own funds from client funds, and 
I think that would probably be good here in this case. And I 
approached one of my colleagues on the other side of the aisle 
and I said, I know you are a fiscal conservative, I know you 
believe what you say about that. You should be on this bill. 
And he said, well, there is a problem, Dennis. And I said, what 
is that? He said, it would make our deficits look even larger. 
And I said, that is called telling the truth to the American 
people. And I think we need to start doing that as a Congress. 
And I really applaud your recommendation that there be a 
bipartisan commission. I would like to see that, and I probably 
would join with you on that.
    No. 2, with regard to the Medicare, I have a bill that--I 
got a call from Secretary Tommy Thompson back at the time of 
the night of the Medicare vote that happened at 3 or 4 in the 
morning. It was about 5:00, and Secretary Thompson said, 
Congressman, can you be with us on this vote? And I said I 
have--it is a $500 billion bill; there is good news and bad 
news. And he says, what is your concern about this bill? I 
said, Mr. Secretary, I wish you had the authority to negotiate 
with pharmaceutical companies to get a group discount for 
Medicare beneficiaries, 43 million in this country, just like 
the Secretary of Veteran Affairs has had for veterans since 
1992. And he says, I do, too. But as you know, this bill 
specifically prohibits that.
    I filed a bill that would in fact give the Secretary of 
Health and Human services that authority. When Secretary 
Thompson, the day he left office, was asked do you have any 
regrets about your tenure, he says, I regret I didn't have the 
opportunity to negotiate.
    I think we should give that to Secretary Leavitt now, and I 
would like to send a copy of that bill over to you. Please take 
a look at it. This should not, as you say, be about Democrats 
and Republicans. In fact, 80 percent of what we do in Congress 
shouldn't be about Democrats and Republicans; it ought to be 
about taking care of our people and our country. And I hope we 
can put aside all this partisan stuff on both sides and come 
together and start working for our country. Thank you.
    Mr. Ryun. Does the gentleman have a question?
    Mr. Moore. Yes. Would you like us to send those bills over?
    Mr. Fossella. Yes.
    Mr. Moore. Thank you.
    Mr. Ryun. Thank you very much for your testimony. At this 
point, Mrs. Capito, we look forward to your testimony.

  STATEMENT OF HON. SHELLY MOORE CAPITO, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF WEST VIRGINIA

    Mrs. Capito. Thank you, Mr. Chairman, and members of the 
Budget Committee. I appreciate the opportunity to appear before 
the Budget Committee. As you know better than I, the annual 
budget resolution charts the course for our Federal spending, 
and I am pleased to testify regarding programs that are of 
great importance to West Virginia that I represent.
    During the last budget cycle, we took a step forward toward 
greater fiscal responsibility by controlling the growth of both 
discretionary and entitlement spending. I continue to support 
these efforts to cut waste, fraud, and abuse from our budget, 
and provide the most efficient government for our taxpayers.
    Because the tax relief passed in 2001 and 2003 has grown 
our economy and helped American families, I fully support the 
extension of the increased child tax credit and the permanent 
repeal of the marriage penalty and death tax that are assumed 
in this budget. Congress should work within its means to ensure 
that these taxes do not return to increase the burden on the 
American people.
    The President's budget provides funding increases both in 
homeland security and defense that are crucial to continuing 
the war on terror, and I fully support that. Given the presence 
of the chemical industry in the Kanawha Valley in West 
Virginia, I am especially pleased that the budget would fund a 
new Chemical Security Office to work with the industry and 
other interested parties to keep these plants safe from attack.
    West Virginians have a long and distinguished record of 
service to our Nation. We have a responsibility to meet the 
medical needs of our veterans who have sacrificed for our 
Nation. This budget proposes an increase of over $2.5 billion 
for VA and medical programs. We need to make sure that we 
provide this increase to meet the health care needs of our 
veterans.
    Mine safety is a critical issue for the people I represent. 
So far just this year, 16 miners have been killed in coal 
mining accidents in West Virginia. In response, West Virginia's 
congressional delegation has introduced legislation to enhance 
mine safety requirements. All the legislative and regulatory 
efforts in the world will not improve safety if the Mine Safety 
and Health Administration does not have adequate resources to 
carry out its enforcement mission. The President's budget 
requests an increase of 3.6 percent for MSHA to $290 million. A 
more significant increase is necessary if we are to improve 
inspections and also evaluate new technologies that can improve 
safety for our miners. I firmly believe that we need more 
inspectors in our mines and more engineers examining the next 
generation in safety equipment at MSHA. And I hope my 
colleagues will join with me in working to further increase 
this funding level through the appropriations cycle.
    Coal is an essential part of our energy supply, providing 
over half of the Nation's electricity. I was pleased that the 
President mentioned the need to provide more funding for clean 
zero emissions coal programs in his State of the Union. This 
budget provides $268 million for research and development on 
new clean coal technologies that will allow coal to continue to 
provide low cost electricity while also working to protect the 
environment.
    It is also important that we provide the proposed increase 
to the Department of Energy's Office of Science so that we can 
examine new ways to use coal, wind power, solar energy, 
biomass, and other innovative methods that will help us end our 
dependency on oil. Only through investment now will we ever be 
able to solve the problem of high gasoline prices that all of 
our constituents face at the pump.
    I want to commend the administration for proposing the 
American Competitiveness Initiative. We all agree that 
attracting more of our students to engineering technology--I 
would like to say I was a zoology major--and other science 
fields is important to growing our economy and ensuring that 
America will continue to be the worldwide leader in innovation.
    Despite this initiative, I am troubled by several parts of 
the President's education budget. The budget would end funding 
for GEAR-UP and TRIO, Upward Bound, and Talent Search programs. 
These successful education programs help us aid in the 
transition from high school to college for those first 
generation college students. West Virginia's education system 
is making significant progress and sending more students to 
college than ever before. As a result, many of today's students 
are the first in their families to attend college. TRIO and 
GEAR-UP programs found at both public and private institutions 
in my State are of great benefit in preparing these students 
for college. Last year, Congress was able to restore funding 
for these two programs during the appropriations process, and I 
hope we will do the same this year.
    Also like last year's budget, the President's budget 
eliminates funding for the Vocational Education Program. 
Vocational education funds provide money for job training for 
high school students and at community and technical colleges. 
For some students who will not attend college, vocational 
education provides those skills necessary to find a good-paying 
job. For other students, the hands-on learning will bring 
motivation and encouragement needed for the student to move on 
to higher ed. The House reauthorized the vocational education 
programs by a vote of 416 to 9 last year, demonstrating, I 
believe, our overwhelming bipartisan support.
    Finally, I want to address the proposal to achieve further 
reconciliation savings through Medicare and Medicaid. I voted 
for the Deficit Reduction Act because I believe we must get a 
handle on spending in mandatory programs and I believe most of 
the savings achieved targeted waste in those programs. As we 
consider further savings, we must make sure--I emphasize, we 
must make sure that medical care for those in need and in 
particular our seniors and children are not jeopardized. I have 
serious questions with the proposal to reduce Medicare payments 
to providers because I believe that such an action would limit 
the access to medical care and especially access to specialists 
for those served by the programs.
    If the budget resolution is to ask the full House to 
achieve more savings, we must be careful that we do not inhibit 
access to care and quality care. The rising cost of health care 
affects every American on several fronts. They have less money 
in their personal budgets for expenditures on other goods and 
services. On a Federal level, it could lead to a greater tax 
burden for future generations if nothing is done to make health 
care more affordable and accessible.
    I am pleased the President's budget provides provisions for 
tax credits for individuals who make contributions to health 
savings accounts. This, coupled with efforts to make health 
savings accounts more portable, will allow consumers to have 
greater control of their health care and less concern when they 
move from one job to another.
    Our small business owners should be allowed to pull 
together through associations so they can provide similar 
benefits to their employees that large corporations currently 
are offering. Health savings accounts and association health 
plans will allow American employers to offer more affordable 
coverage and give the employee an enhanced role in the 
decision-making process.
    I do believe we have a long ways to go before we meet our 
goals of full accessibility to health care and affordability of 
health insurance.
    Your committee faces a challenging task over the next weeks 
as you work to craft a budget that provides for our security 
and grows our economy. I thank you for considering the impact 
the programs I have discussed have on the people of West 
Virginia, and I again thank you for the opportunity to testify.
    [The prepared statement of Ms. Capito follows:]

 Prepared Statement of Hon. Shelley Moore Capito, a Representative in 
                Congress From the State of West Virginia

    Mr. Chairman and Members of the Budget Committee, I appreciate the 
opportunity to appear before the Budget Committee. The annual budget 
resolution charts the course for our Federal spending, so I am pleased 
to testify regarding programs that are of great importance to West 
Virginia.
    During the last budget cycle, we took a step toward greater fiscal 
responsibility by controlling the growth of both discretionary and 
entitlement spending. I continue to support efforts to cut waste, 
fraud, and abuse from our budget and provide the most efficient 
government possible for American taxpayers.
    Because the tax relief provided in 2001 and 2003 has grown our 
economy and helped American families, I fully support the extension of 
the increased Child Tax Credit and the permanent repeal of the Marriage 
Penalty and Death Tax that are assumed in this budget. Congress should 
work within its means to ensure these taxes do not return to increase 
the burden on the American people.
    The President's budget provides for funding increases both in 
Defense and Homeland Security that are crucial to continuing the war on 
terror. Given the presence of the chemical industry in the Kanawha 
Valley, I am especially pleased that the budget would fund a new 
Chemical Security Office to work with the industry and other interested 
parties to keep these plants safe from attacks.
    West Virginians have a long and distinguished record of service to 
our nation. We have a responsibility to meet the medical needs of our 
Veterans who have sacrificed for our nation. This budget proposes a 
increase of over $2.5 billion for VA Medical programs. We should 
provide this increase to meet the health care needs of our veterans.
    Mine safety is a critical issue for the people I represent. Sixteen 
miners have been killed in coal mining accidents in West Virginia so 
far this year. In response West Virginia's congressional delegation has 
introduced legislation to enhance mine safety requirements.
    All the legislative and regulatory efforts in the world will not 
improve safety if the Mine Safety and Health Administration does not 
have adequate resources to carry out its enforcement mission. The 
President's budget requests an increase of 3.6 percent for MSHA to $290 
million. A more significant increase is necessary if we are to improve 
inspections and also evaluate new technologies that can improve safety 
for our miners. I firmly believe that we need more inspectors in our 
mines and more engineers examining the next generation in safety 
equipment at MSHA, and I hope my colleagues will join me in working to 
further increase this funding level through the appropriations cycle.
    Coal is an essential part of our energy supply, providing over half 
of the nation's electricity. I was pleased that the President mentioned 
the need to provide more funding for clean, zero emissions coal 
programs in his State of the Union. This budget provides $268 million 
for Research and Development on new clean coal technologies that will 
allow coal to continue to provide low cost electricity while also 
protecting our environment.
    It is also important that we provide the proposed increase to the 
Department of Energy's office of Science so that they can examine new 
ways to use coal, wind power, solar energy, biomass, and other 
innovative methods that will help us end our dependence on oil. Only 
through investment now will we ever be able to solve the problem of 
high gasoline prices that all of our constituents face at the pump.
    I want to commend the administration for proposing the American 
Competitiveness Initiative. We all agree that attracting more of our 
students to engineering, technology, and other science fields is 
important to growing our economy and ensuring that America will 
continue to be the worldwide leader in innovation.
    Despite this initiative, I am troubled by several parts of the 
President's Education budget. The budget would end funding for Gear-up 
and TRIO Upward Bound and Talent Search programs. These successful 
education programs help to aid in the transition from high school to 
college for first generation college students. West Virginia's 
education system is making significant progress and sending more 
students to college than ever before. As a result, many of today's 
students are the first in their families to attend college. TRIO and 
Gear-Up programs found at both public and private colleges in my state 
are of great benefit in preparing these students for college. Last 
year, Congress was able to restore funding for these two programs 
during the appropriations process, and I hope we will do the same this 
year.
    Also like last year the President's budget eliminates funding for 
the vocational education program. Vocational education funds provide 
money for job training both for high school students and at community 
and technical colleges. For some students who will not attend college, 
vocational education will provide the skills necessary to find a good 
paying job. For other students, the hands on learning will bring the 
motivation and encouragement needed for the student to move on to 
higher education. The House reauthorized vocational education programs 
by a vote of 416 to 9 last year, demonstrating overwhelming bipartisan 
support. We should fund this important program.
    Finally, I want to address the proposal to achieve further 
reconciliation savings through Medicare and Medicaid. I voted for the 
Deficit Reduction Act because I believe we must get a handle on 
spending in mandatory programs and I believe most of the savings 
achieved targeted waste in the programs. As we consider any future 
savings, we must make sure that medical care for those in need, and in 
particular our seniors and children, is not jeopardized. I have serious 
questions with the proposal to reduce Medicare payments to providers 
because I believe such an action would limit the access to medical 
care, and especially access to specialists, for those served by the 
program.
    If the Budget resolution is to ask the full House to achieve more 
savings from health programs, we must take special care to target waste 
and abuse, rather than access to care.
    Your committee faces a challenging task over the coming weeks as 
you work to craft a budget that provides for our security and grows our 
economy. I thank you for considering the impact the programs I have 
discussed have on the people of West Virginia, and I again thank you 
for the opportunity to testify.

    Mr. Ryun. I want to thank the gentlelady for her testimony 
and her proposals and her initiatives. There are many of these 
that I can agree with. I will just highlight, the 
reauthorization of vocational education, I know I have been a 
beneficiary of that and as have many others and how important 
it is.
    I would like to turn to members if they have any questions 
at this point? Hearing none, thank you for your time.
    Mr. McGovern, your opportunity to give us your initiatives.

   STATEMENT OF HON. JAMES P. McGOVERN, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MASSACHUSETTS

    Mr. McGovern. Thank you, Mr. Chairman, and other members of 
the committee. I want to thank you for the opportunity to 
testify before you today on the direction I believe the Budget 
Committee should take as it begins work on the fiscal year 2007 
budget resolution.
    Mr. Chairman, over the past few years I have had 
differences--I have had several opportunities to talk about the 
direction and priorities of the Federal budget, and I do not 
intend to take up the committee's time by repeating that 
discussion here. As you well know, there are many issues that I 
believe require more funding than what the President has 
proposed in his fiscal year 2007 budget or what Congress has 
provided in past budgets. My concerns range from fully funding 
our veterans, education and conservation programs, to reducing 
our historic Federal deficit. I have dealt with these and many 
other matters in my written testimony, and would like to ask 
permission of the chairman to insert my full testimony in the 
record at this time.
    Mr. Ryun. Without objection.
    Mr. McGovern. But this afternoon, Mr. Chairman, I would 
like to focus on just one issue; namely, the need to 
substantially increase funding for programs that reduce hunger 
in the United States and around the world.
    Recent reports by the U.S. Department of Agriculture and 
the Census Bureau find food insecurity and hunger are rapidly 
rising in America and now affect nearly 20 percent of all our 
children. The number of food insecure households grew by nearly 
2 million in 2004, and in 2005 an additional million people in 
America fell into poverty. Mr. Chairman, now is not the time to 
reduce our commitment to feed the hungry.
    I firmly believe the budget resolution can be a road map 
that could dramatically contribute to the fight to end hunger 
here at home and to reduce it by half around the world. The 
committee and Congress should focus on these worthy goals in 
the fiscal year 2007 budget resolution and increase funding for 
our domestic and international food, nutrition, and food aid 
programs, both for those administered by USDA Function 350--
which for the fourth year in a row has suffered a severe blow 
in the President's budget proposal, and for those international 
food aid programs that are under the jurisdiction of the U.S. 
Agency for International Development, International Affairs 
Function 150.
    Domestically, we have an obligation to make sure that our 
Nation's children do not go hungry. This is why the school 
breakfast and school lunch programs were developed, along with 
programs that help provide nutritional meals for pregnant women 
and nursing mothers, infants and children under the age of 5. 
Unfortunately, the school breakfast and lunch programs are not 
universal and they are not year round. This means that some of 
the poorest families receive a free school meal during the 
school year while others only qualify for a reduced price meal. 
To Congress' credit, the Child Nutrition Reauthorization Act 
phased this inequity out, but it is subject to appropriations, 
and appropriations is subject to budget caps, and so the 
inequities remain.
    Under the President's budget, approximately 40,000 low 
income children will no longer receive a free school lunch. It 
is past time we fully fund this program so that we could 
finally eliminate the reduced price meal at our Nation's 
schools. Additionally, millions of our children who receive 
meals during the school year lose access to this food when 
school is out of session.
    The Summer Food Service Program was designed to combat this 
problem, but its funding is also woefully inadequate. Fifteen 
million poor and low income children qualify to receive food 
during the school year, but only 2.9 million children receive 
food during the summer. That is an 81-percent decrease, Mr. 
Chairman. We simply must do better than that.
    The President's budget request eliminated funding for 
commodity supplemental food program. Currently, this modest 
food program provides vital food assistance to over 420,000 
elderly poor and to 50,000 low income pregnant women and 
children. Eliminating this $108 million program guarantees that 
these vulnerable people will no longer obtain their monthly 
supply of groceries.
    Now, I recognize that the administration believes we can 
simply enroll the women and children in Women, Infants, and 
Children program (WIC) and the seniors in the Food Stamp 
Program, but this program was created precisely to fill the 
eligibility gap WIC and food stamps fails to cover. In short, 
Mr. Chairman, most of the low income recipients of these food 
packages will not be eligible for these other programs, but 
they will end up hungry and be faced with choosing between 
food, medicines, rent, child care, heat, electricity, and other 
basic needs.
    On the international level, emergency and other food aid 
programs provided under Public Law 480, Title II, receive only 
$1.2 billion in funding under the President's fiscal year 2007 
budget proposal. Now, this may sound like a lot of money, Mr. 
Chairman, but unfortunately by the end of the year, just as has 
been the case in the past 3 years, the United States will most 
likely expend between $1.7 billion and $2.2 billion for 
international emergency and other food aid programs. Since we 
know this is the likely reality based on past experience, then 
we should include that level of funding for Title II up front 
and not off budget in emergency appropriations or through a 
reprogramming request that robs Peter to pay Paul, taking the 
funds from other urgent development, emergency disaster and 
food aid programs.
    Another successful program, the George McGovern-Robert Dole 
International Food For Education Program, is also flat funded 
at $99 million for fiscal year 2007, a level that actually 
reflects the fiscal year 2006 1-percent across-the-board cut to 
all programs.
    Mr. Chairman, you might not be aware that when USDA puts 
out the call each year for proposal submissions for McGovern-
Dole projects, it receives proposals that would total over $1 
billion if all were funded. Now, I am not asking for that level 
of funding, but such a response clearly demonstrates that the 
need is great, well identified, and well documented. Yet we are 
freezing this program just as it begins to make a modest 
recovery from the devastating cuts of fiscal year 2002 when it 
was reduced from $300 million to $50 million.
    Now, last year Secretary Johanns described some of 
McGovern-Dole's positive results as including, and I quote, 
increased school enrollment especially among girls, declines in 
absenteeism, improved concentration, energy, and attitudes 
toward learning, and infrastructure improvements, including 
classrooms, kitchen, storage facilities, water supplies, and 
latrines. The McGovern-Dole country programs have been made so 
successful that some have begun to graduate and become self-
sustaining, such as in Lebanon, Moldova, and Vietnam. 
Additionally, the success of McGovern-Dole has resulted in 
other donors becoming involved in school feeding programs, 
including the European Union, Germany, Japan, Canada, and the 
World Health Organization.
    Mr. Chairman, all of us support national security and the 
global war on terrorism as priorities, but ensuring national 
security is not just the result of soldiers, guns, and bombs. 
Our Nation's security is strengthened and safeguarded by 
thousands of individuals and organizations who serve on the 
front lines of the battle against hunger and poverty. Their 
work daily combats the hate, fear, despair, and hopelessness 
that contribute to acts of desperation, terror, and war.
    The 9/11 Commission report acknowledged this important 
reality in its final recommendations, and Senator Roberts, 
chairman of the Senate Intelligence Committee, has stated on 
more than one occasion that initiatives like the McGovern-Dole 
program are critical to winning the war against global 
terrorism. And, quite frankly, Mr. Chairman, you know far 
better than I since you represent one of the finest farm States 
in our country how much our farmers appreciate and take pride 
in the fact that part of their hard work and their crops go to 
help the neediest Americans and the most vulnerable people 
around the world.
    Mr. Chairman, I would like to ask permission to enter into 
the record and to provide the committee with a copy of a letter 
sent to President Bush on December 20th from 108 bipartisan 
Members of this House asking that the President restore the 
funding for the McGovern-Dole program to its original $300 
million level.
    Mr. Ryun. Without objection.
    [The information referred to follows:]
                                     U.S. Congress,
                                            Washington, DC,
                                                 December 20, 2005.
Hon. George W. Bush, President
The White House,
Washington, DC.
    Dear Mr. President: We are writing to thank you for your support of 
the George McGovern-Robert Dole International Food for Education 
Program, which is administered by the U.S. Department of Agriculture. 
As Secretary of Agriculture Mike Johanns has attested, this program has 
made a critical difference in the lives of thousands of children and 
their communities around the world. We believe it is urgent to sustain 
and expand this program and to restore funding for the McGovern-Dole 
program to levels similar to those of the original pilot program. For 
these reasons, we strongly urge you to provide $300 million for the 
McGovern-Dole International Food for Education Program in your Fiscal 
Year 2007 Budget Proposal.
    We recognize the difficult financial constraints that will govern 
your decisions as you determine priorities for the Fiscal Year 2007 
budget. We believe increased funding to sustain and expand the 
McGovern-Dole program contributes to achieving U.S. priorities to 
increase food security and access to education among many of the 
world's most vulnerable children. It also plays a role in combating 
terrorism and building and consolidating democracy in the Middle East, 
southern Asia, the Near East and other regions critical to our national 
security.
    As you well know, one of the recommendations of the 9/11 Commission 
Report stated that ``a comprehensive strategy to counter terrorism must 
include economic policies that encourage development, more open 
societies, and opportunities for people to improve the lives of their 
families and to enhance prospects for their children's future,'' a 
priority you echoed in your remarks before the United Nations General 
Assembly in September. Both the initial pilot program and the current 
McGovern-Dole program have a proven track record at reducing the 
incidence of hunger among school-age children and improving literacy 
and primary education enrollment, especially among girls, in areas 
devastated by war, hunger, poverty, HIV/AIDS, and the mistreatment and 
marginalization of girls. School meals, teacher training, and related 
support have helped boost school enrollment and academic performance. 
McGovern-Dole nutrition and school feeding programs improve the health 
and learning capacity of children both before they enter school and 
during the years of primary and elementary school.
    With over 300 million children suffering from chronic hunger and 
over 100 million of them not attending school, reaching those who could 
benefit from the McGovern-Dole program requires a firm commitment to 
continued support and significant resources. At the same time, U.S. 
leadership and the success of the McGovern-Dole program have played an 
important role in encouraging other donor nations to provide new 
resources for school feeding programs, as well as promoting ``best 
practices'' among those organizations that carry out these programs in 
the field. And after just four short years, we are already witnessing 
how the success of the McGovern-Dole program has resulted in an 
increased commitment by local communities to school feeding and 
universal education, setting the stage for some country projects to 
``graduate'' from the program and assume local administration of their 
school feeding programs.
    For just a few cents a day, the McGovern-Dole program has made a 
critical difference in the lives of children and communities, promoted 
American values in the most positive terms, and helped achieve U.S. 
foreign policy and national security goals. The program's flexibility 
and ability to be tailored to local needs ensure that American 
products, commodities, and financial and technical support are directly 
associated with hunger alleviation, educational opportunity, and 
sustainable development. Few programs deliver so much for such a 
minimal investment.
    Once again, we thank you for your commitment to the McGovern-Dole 
International Food for Education and Child Nutrition Program, and we 
strongly urge that you restore the capacity of this critically 
important program by providing $300 million for Fiscal Year 2007.
            Sincerely,

James P.           Jo Ann Emerson,    Tom Lantos,       Todd Tiahrt,
 McGovern,
Ike Skelton,       Sam Graves,        Earl Pomeroy,     Thaddeus G.
                                                         McCotter,
Bob Etheridge,     John Shimkus,      Jim Marshall,     Jim Leach,
Vic Snyder,        Christopher        Sanford Bishop,   Phil English,
                    Smith,             Jr.,
Nancy Pelosi,      Doc Hastings,      Donald Payne,     James Walsh,
Mike Doyle,        Jose Serrano,      Bill Delahunt,    Gary Ackerman,
Raul Grijalva,     Dale Kildee,       Emanuel Cleaver,  Betty McCollum,
                                       II,
Hilda L. Solis,    Dennis Kucinich,   Elijah Cummings,  Stephanie
                                                         Herseth,
Bernard Sanders,   Marcy Kaptur,      Maxine Waters,    Rush Holt,
George Miller,     Tammy Baldwin,     Chris Van         Steve Rothman,
                                       Hollen,
James Oberstar,    Mark Udall,        Joseph Crowley,   Carolyn Maloney,
Jan Schakowsky,    Sherrod Brown,     Corrine Brown,    John Olver,
Stephen Lynch,     Carolyn McCarthy,  Gregory Meeks,    Juanita
                                                         Millender-
                                                         McDonald,
Bobby Rush,        Pete Stark,        Rosa DeLauro,     Anthony Weiner,
Neil Abercrombie,  Jim Moran,         Michael R.        Martin O. Sabo,
                                       McNulty,
Jim McDermott,     Lynn Woolsey,      Charles A.        Marion Berry,
                                       Gonzalez,
Richard Neal,      Adam Schiff,       Jim Costa,        Barney Frank,
Howard Berman,     Patrick Kennedy,   Doris Matsui,     Martin Meehan,
Robert A. Brady,   Alcee Hastings,    Ed Markey,        Julia Carson,
Henry Waxman,      Lois Capps,        Barbara Lee,      Tim Holden,
Lloyd Doggett,     Debbie Wasserman   John Tierney,     Allyson
                    Schultz,                             Schwartz,
Mike Capuano,      Dianna DeGette,    Louise            Danny K. Davis,
                                       Slaughter,
Chaka Fattah,      Sam Farr,          Joe Baca,         Sheila Jackson
                                                         Lee,
Sander Levin,      Bobby Scott,       Ellen Tauscher,   Major R. Owens,
Frank Pallone,     Jerry Moran,       Robert Wexler,    Bob Filner,
Dan Lipinski,      Donna M.           John Lewis,       Stephanie Tubbs
                    Christensen,                         Jones,
Eddie Bernice      Adam Smith,        Tom Allen,        Henry Cuellar,
 Johnson,


                                               Members of Congress.

    Mr. McGovern. Mr. Chairman, since this did not occur in the 
President's budget, I urge the committee to increase the 
overall agriculture account to make room for such an increase.
    Mr. Chairman, I appreciate the opportunity to testify today 
on the priorities that I believe face this Nation and have made 
other recommendations in my written testimony. However, I want 
to conclude with this one final point.
    We have an opportunity and we have a responsibility to 
prioritize programs that will benefit the people who need help 
the most, whether that is a victim of Hurricane Katrina or a 
poor working family trying to make ends meet or a hungry child 
in Africa, Asia, or Latin America. Investing today in programs 
that help these individuals and families will pay off in the 
future.
    The fiscal year 2007 budget resolution that this committee 
will draft could provide the necessary increase in funding for 
domestic and international food and nutrition programs, and you 
can indeed create a road map that charts a new course for the 
United States.
    Once again, I appreciate your granting me this time and I 
certainly welcome any questions or comments any Member may 
have.
    [The prepared statement of Mr. McGovern follows:]

   Prepared Statement of Hon. James P. McGovern, a Representative in 
                Congress From the State of Massachusetts

    Mr. Chairman, Ranking Member Spratt and Members of the Budget 
Committee,
    I want to thank you for the opportunity to testify before you today 
on the direction I believe the Budget Committee should take as it 
begins work on the Fiscal Year 2007 Budget Resolution.
    Mr. Chairman, over the past few years, you and I have had several 
opportunities to talk about the direction and priorities of the Federal 
budget, and I do not intend to take up the Committee's time by 
repeating that discussion here. As you well know, there are many issues 
that concern me and which I believe require more funding than what the 
president has proposed in his Fiscal Year 2007 budget, or what Congress 
has been providing in past budgets. My concerns range from:
    <bullet> providing the necessary funding for our veterans' 
programs;
    <bullet> to the urgent need of reducing the historic Federal 
deficit;
    <bullet> to the urgent need of fully funding our K-through-12 
education programs and our higher education student financial aid;
    <bullet> to honoring our promise and legal responsibility to fully 
fund the Federal share of IDEA;
    <bullet> to preserving our parks, forests, wildlife refuges, and 
local recreation areas and open spaces, most especially by fully 
funding the Land and Water Conservation Fund, including the state-side 
program, from its allocated trust fund revenues; and
    <bullet> to significantly increasing funding for programs that 
combat hunger and poverty, both here at home and around the world.
    First, let me begin this discussion by urging the Committee to make 
sure that the FY 2007 Budget Resolution fully funds our Veterans 
Affairs (VA) system. Contrary to recent claims about adequate funding 
for veteran's needs, the facts are that the VA has been perennially 
underfunded. For each year that passes by, the VA estimates that a 
minimum budget increase of 13-14 percent is required just to stay 
afloat, when inflation is taken into account. The President's request 
for FY06 was less than a 1-percent increase, well short of the funding 
necessary for the VA to operate at its current level. This pattern of 
inadequate funding for the VA has resulted in a decrease in veterans' 
access to health care and has forced a series of emergency supplemental 
budgets to keep the system up and going.
    Mr. Chairman, I believe our veterans should not have to rely on 
emergency funding. They should be the very first on our list of 
priorities. The health care that they earned through their service to 
country, and which was promised to them, should be assured through 
sufficient budget requests, allocations and appropriations. Instead of 
proposals imposing a $250 enrollment fee, the doubling of veteran 
prescription co-payments, and denying health care access to 260,000 
veterans, the FY 2007 budget for the VA needs to provide adequate 
funding for every veteran. A budget request that truly reflects the 
needs of every veteran, from those of the Greatest Generation to those 
newest veterans returning from Iraq and Afghanistan, is what's deserved 
and required--and it is truly one of the best ways we can genuinely 
honor out troops.
    Second, I believe that education at all levels of schooling--from 
early childhood education and development through college--is 
significantly under-funded in the president's budget proposal. While we 
often hear how the FY 2007 budget is focused on our national security, 
I cannot imagine how our national security and our economic security 
can succeed if we short-change the education of our children and 
citizens.
    Just like last year, the president cynically eliminates programs 
that Congress will need to find a way to fund later in the year, such 
as Vocational Education, Safe and Drug Free Schools, Even Start, 
Technology State Grants, TRIO Programs, GEAR-UP, Tech-Prep State 
Grants, and a host of others. In order to ensure that we can restore 
these programs' funding and provide the appropriate level of funding to 
those programs whose funding was reduced or frozen--such as IDEA or 
after-school programs--Congress needs to increase the Education Account 
(Function 500) to accommodate at least another $14 billion for the No 
Child Left Behind Act, including the necessary increase for the IDEA 
that is absent from the president's proposed budget; and we need to 
increase higher education funding by at least another $2 billion to 
secure adequate Federal funds for an increased number of Pell Grant and 
SEOG beneficiaries and an increase in the size of the average grant.
    Third, I am disappointed and frustrated that once again the 
president's budget fails to fund the Federal and state-side programs of 
the Land and Water Conservation Fund (LWCF), the funding for which is 
designated by law from royalty receipts from drilling done in the outer 
continental shelf.
    As you well know, Mr. Chairman, the LWCF is based upon a simple 
concept: It takes revenues from offshore oil and gas drilling and 
invests them in our country's public land, letting States take the 
lead, and for 40 years this program has had a proven track record and 
benefited from strong bipartisan support.
    When Congress decided to open the Outer Continental Shelf to oil 
drilling, we pledged to use some of its revenues for the public good. 
And with the goal of meeting the nation's growing need for recreation 
sites, Congress established the LWCF trust fund and agreed to reinvest 
an annual portion of OCS revenue into Federal land acquisition and 
State assistance development programs. Even though LWCF takes in $900 
million annually from oil and gas receipts, in recent years just a 
fraction of this funding has been used for its rightful purpose. For FY 
2007, the president provides for only $85 million for LWCF programs, 
and all of these are in the federal-side (not the state-side) part of 
the program.
    The state-side portion of the Land and Water Conservation Fund has 
helped our states and local communities preserve open space, slow urban 
sprawl, and give our children safe places to play. This program is a 
true partnership, with Federal grants requiring a full match from 
states and local communities. It's a program that has worked, and 
worked well. In all, the State-side program has helped communities by 
funding 40,000 recreation projects nationally--success stories that can 
be found in every state and in 98 percent of U.S. counties.
    The elimination of funding for the LWCF state-side grants is 
particularly harmful to our nation's under-served areas. In fact, in 
many low-income urban communities, the state-side grant program is 
responsible for virtually all of their parks and open spaces. At a 
minimum, the FY 2007 Budget Resolution needs to provide full funding 
for the LWCF, Federal and state-side, and ensure that the revenues 
designated by statute for funding the LWCF are used first and foremost 
for the LWCF.
    Fourth, while the International Affairs 150 Account is one of the 
few accounts in the president's budget to receive a modest increase, I 
am deeply concerned that Development Assistance overall and other 
critical international health, education, agriculture, food security, 
clean water, and other core development programs are either reduced or 
receive modest if any increases. Scarcely one-third of international 
affairs funding is devoted to these critical development programs. Once 
again, development assistance for Latin America is short-changed, at a 
time when U.S. relations with our closest neighbors are at their lowest 
point in history. I would like to see the Millennium Challenge Account 
receive the $3 billion in funding requested by the president--a 
doubling of its current funding levels. But this Congress was promised 
by the president when he first announced the creation of the MCC that 
its funding would be in addition to existing foreign aid priorities--
and not rob funding from other critical accounts. Therefore, I believe 
the Budget Committee must increase the International Affairs by at 
least $1.5 billion, and that the Committee should direct this increase 
at core development assistance programs aimed at increasing access to 
health care, nutrition and education and at reducing hunger and 
poverty, as stated in the first Millennium Development Goal.
    The 9/11 Commission Report said it best when it described how our 
national security requires a strong commitment to economic and 
development assistance if we are to triumph over terrorism, 
fundamentalism and fanaticism.
    And finally, Mr. Chairman, I would like to comment on the 
importance of addressing hunger and poverty, both here in the United 
States and around the world. Once again, the Agriculture Account took 
one of the hardest hits in the president's budget, just as it has for 
the past 4 years in this Committee's reported budget resolutions. I 
would like to read a few sentences from the U.S. Catholic Conference of 
Bishops regarding ``Moral Responsibilities for Public Life,'' from 
their statement on ``A Catholic Call to Political Responsibility":
    The first priority for agriculture policy should be food security 
for all. Food is necessary for life itself. Our support for Food 
Stamps, the Special Nutrition Program for Women, Infants, and Children 
(WIC), and other programs that directly benefit poor and low-income 
people is based on our belief that no one should face hunger in a land 
of plenty. Those who grow our food should be able to make a decent 
living and maintain their way of life. Farmers who depend on the land 
for their livelihood deserve a decent return for their labor. Rural 
communities deserve help so that they can continue to be sources of 
strength and support for a way of life that enriches our nation.
    I cite this passage to underscore the recent reports by the U.S. 
Department of Agriculture and the Census Bureau that find food 
insecurity and hunger are rising rapidly in America and now affect 
nearly 20 percent of all our children. The number of food insecure 
households grew by nearly two million in 2004; in 2005, an additional 
million fell into poverty. Mr. Chairman, now is not the time to reduce 
our commitment to feed the hungry.
    I firmly believe the budget resolution can be a road map that, if 
followed by the Appropriations Committee, could dramatically contribute 
to the fight to end hunger here at home, and to reduce it by half 
around the world. We should focus on these worthy goals in the FY 2007 
budget resolution and provide the necessary funding for the domestic 
and international food and nutrition programs funded and administered 
by the U.S. Department of Agriculture (Function 350), which for the 
fourth year in a row has suffered a severe blow in the president's 
budget proposal; and for those international food aid programs that are 
funded under the jurisdiction of the U.S. Agency for International 
Development (Function 150 International Affairs).
    Domestically, we have an obligation to make sure that our nation's 
children don't go hungry. This is why the school breakfast and school 
lunch programs were developed, along with programs that help provide 
nutritional meals for pregnant women and nursing mothers, infants, and 
children under the age of five.
    Unfortunately, the school breakfast and lunch programs aren't 
universal and they aren't year round. This means that some of the 
poorest families receive a free school meal during the school year, 
while others only qualify for a reduced price meal. To Congress's 
credit, the Child Nutrition Reauthorization Act phased this inequity 
out, but it's subject to appropriations--and appropriations is subject 
to budget caps--and so the inequities remain. Under the president's 
budget, approximately 40,000 low-income children will no longer receive 
a free school lunch. It's past time we fully fund this program so that 
we can finally eliminate the reduced price meal at our nation's 
schools.
    Additionally, millions of our children who receive meals during the 
school year lose access to this food when school is out of session. The 
Summer Food Service Program was designed to combat this problem, but 
its funding is also woefully inadequate. Fifteen million poor and low-
income children qualify to receive food during the school year, but 
only 2.9 million children receive food during the summer. That's an 81-
percent decrease, Mr. Chairman. We simply must do better than that.
    The President's budget request eliminated funding for the Commodity 
Supplemental Food Program. Currently, this modest program provides 
vital food assistance to over 420,000 elderly poor, and to 50,000 low-
income pregnant women and children. Eliminating this $108 million 
program guarantees that these vulnerable people will no longer obtain 
their monthly supply of groceries. I recognize that the Administration 
believes we can simply enroll the women and children in WIC and the 
seniors in the Food Stamp Program, but this program was created 
precisely to fill the eligibility gap WIC and Food Stamps fails to 
cover. In short, Mr. Chairman, most of the recipients of these food 
packages will not be eligible for these other programs, but they will 
end up hungry--and faced with choosing between food, medicines, rent, 
childcare, heat, electricity, and other basic needs.
    On the international level, emergency and other international food 
aid programs provided under PL 480 Title II will receive only $1.2 
billion in funding under the president's FY07 budget proposal. This may 
sound like a lot of money, Mr. Chairman. Unfortunately, by the end of 
the year, just as has been the case in the past 3 years, the U.S. will 
most likely expend between $1.5 billion and $2.2 billion for 
international emergency and other food aid programs. Since we know this 
is the likely reality based on past experience, then we should include 
that level of funding for Title II up front--and not off-budget in 
emergency appropriations or through reprogramming requests that rob 
Peter to pay Paul, taking the funds from other urgent development, 
emergency disaster, and food aid programs.
    Another successful program, the George McGovern-Robert Dole 
International Food for Education Program, is also flat-funded at $99 
million for FY 2007, a level that actually reflects the FY 2006 1-
percent across-the-board cut to all programs. Mr. Chairman, you might 
not be aware that when USDA puts out the call each year for proposal 
submissions for McGovern-Dole project funding, it receives proposals 
that would total over one billion dollars if all were funded. I'm not 
asking for that level of funding, but such a response clearly 
demonstrates that the need is great, well-identified, and well-
documented. Yet we are freezing this program just as it begins to make 
a modest recovery from the devastating cuts of FY 2002, when it was 
reduced from a $300 million program to $50 million.
    Last year, Secretary Johanns described some of McGovern-Dole's 
positive results as including ``increased school enrollment, especially 
among girls; declines in absenteeism; improved concentration, energy, 
and attitudes toward learning; and infrastructure improvements, 
includi9ng classrooms, kitchens, storage facilities, water systems, and 
latrines.'' The programs have been so successful that some have begun 
to ``graduate'' and become self-sustaining, such as in Lebanon, Moldova 
and Vietnam. Additionally, the success of McGovern-Dole has resulted in 
other donors becoming involved in school feeding programs, including 
the European Union, Germany, Japan, Canada and the World Health 
Organization.
    Mr. Chairman, all of us support national security and the global 
war on terrorism as priorities, but national security is not just the 
result of soldiers, guns and bombs. Our national security is 
strengthened and safeguarded by thousands of individuals and 
organizations who serve on the front lines of the battle to reduce and 
eliminate hunger and poverty. Their work daily combats the hate, fear, 
despair and hopelessness that contribute to acts of desperation, terror 
and war. The 9/11 Commission Report acknowledged this important reality 
in its final recommendations--and Senator Roberts, Chairman of the 
Senate Intelligence Committee, has stated on more than one occasion 
that initiatives like the McGovern-Dole program are a critical to 
winning the war against global terrorism.
    And quite frankly, Mr. Chairman, you know far better than I, since 
you represent one of our finest farm states, how much our farmers 
appreciate and take pride in the fact that their hard work and their 
crops go to help the neediest Americans and the neediest people around 
the world.
    Mr. Chairman, I would like to enter into the Record and provide the 
Committee with a copy of a letter sent to President Bush on December 
20th from 108 bipartisan Members of this House asking the president to 
restore the funding for the McGovern-Dole program to its original $300 
million level. Since this did not occur in the president's budget, I 
urge the Committee to increase the overall funding for the U.S. 
Department of Agriculture in order to make room for such an increase.
    Given these critical needs, these harsh realities, we need a 
pragmatic approach to addressing them, one that doesn't make believe 
that these needs will simply go away if we do nothing or cut funding 
for the very programs that tackle these difficult problems head on. I 
therefore believe this Committee must restore at least $2.5 billion to 
the Agriculture Account of the budget.
    Mr. Chairman, I know you must be scratching your head and saying to 
yourself, how do I suggest paying for such substantial increases in our 
overall budget?
    I could say that we should reduce the defense spending account--but 
quite frankly, that's something the Pentagon should have done when it 
issued its new Quadrennial Report. Instead, rather than transforming 
their budget the way they describe transforming our armed forces to 
meet the challenges of today and the future, they simply added more 
billions of dollars to the nearly half trillion dollar budget they 
received in FY 2006. And the FY 2007 budget doesn't even reflect the 
so-called emergency supplemental appropriations the president will soon 
send to Congress to fund the wars in Iraq and Afghanistan, once again, 
off-budget.
    The Budget Committee is the only Committee capable of reporting out 
a resolution that makes these subtle shifts of priorities. This 
Committee is capable of shifting $20 billion or so out of defense and 
into education, the LWCF Federal and state-side programs, international 
development assistance, and domestic and international food aid and 
agriculture programs.
    This Committee can also call on Ways and Means to increase revenues 
by that same amount, so as to cover these increased budget allocations.
    These needs won't disappear; they will only get worse the longer we 
neglect them.
    I urge the Committee to rise to this challenge, and to find the 
courage and leadership to increase these accounts and others, so that 
our genuine national security is reflected by our support for strong 
communities, modern infrastructure, a well-educated citizenry, and the 
compassion and fortitude to tackle the challenges of hunger and poverty 
locally and globally.
    Mr. Chairman, I appreciate the opportunity to testify today on the 
priorities that I believe face this nation. However, I want to conclude 
with this one, final point. We have an opportunity and the 
responsibility to prioritize programs that will benefit the populations 
that need the most help today. To me, that means focusing on the 
neediest Americans--whether that's a victim of Hurricane Katrina or a 
poor working family trying to make ends meet or a hungry child in 
Africa, Asia or Latin America. Investing today in programs that help 
support these individuals and families will pay off in the future. The 
FY 2007 Budget Resolution that this Committee will draft can indeed 
provide the necessary funding for domestic and international food and 
nutrition programs, as well as the other needs I have described this 
afternoon, and help provide a road map for a new course for the United 
States.
    Once again, I appreciate you granting me this time, and I welcome 
any questions you might have.

    Mr. Ryun. I don't have any questions, but I certainly 
appreciate your initiative and I know they will be passionately 
debated on this committee as well as before the full Congress.
    Are there members that have questions? Mr. Moore.
    Mr. Moore. Mr. Chairman, I don't have questions either, I 
just want to commend Congressman McGovern for his very 
comprehensive and caring statement, and I agree with almost all 
of the proposals, or at least the thoughts he set forth here. I 
look forward to the debate on these as well. Thank you very 
much.
    Mr. Ryun. I recognize Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you, Mr. Chairman. When I was 
listening to you eloquently talking about issues important to 
you and you were asking for more funding, I was actually 
literally scratching my head and asking myself, How do you 
suggest paying for them? And then I noticed, by the way, in 
your statement, that on page 7 you actually mentioned that. You 
say, ``Mr. Chairman, I know you must be scratching your head 
and saying to yourself, How do I suggest paying for such 
substantial increases in the overall budget?''
    I want to make sure I read this right. You then go on to 
say, This committee is capable of shifting $20 billion or so 
out of defense into education, et cetera. This committee can 
also call on Ways and Means to increase revenues by that same 
amount.
    In other words, are you suggesting that we take, if I read 
this correctly--in order to do the initiatives you so 
eloquently spoke of, cut defense--and that this committee, 
according to what it says here, shifting $20 billion or so out 
of defense and also call on the Ways and Means Committee to 
increase revenues?
    In other words, taxes; you are asking to cut defense and 
raise taxes in order to fund the issues that you talked about 
today?
    Mr. McGovern. First of all, it is up to this committee to 
decide how they would want to spend the money. But one of the 
things that I believe is that the Defense Department's budget 
does not reflect the new priorities outlined in the new 
Quadrennial Review. It simply piles on more spending.
    I think the Pentagon can weather a $3 billion shift of 
funds to these food and nutrition programs fairly easily, quite 
frankly. All you need to do is read The New York Times or The 
Washington Post or the Washington Times, if that is what you 
read, over the last several months to look at how so much of 
our defense budget has been squandered and wasted, whether it 
is through graft or corruption or on programs that quite 
frankly don't work.
    The other thing is that I think we have to ask ourselves 
what is more important at this particular point, making tax 
cuts permanent, whether it is a total repeal of the estate tax 
or capital gains tax cut or whatever; or is it to make sure we 
don't have anybody in this country that starves, that is food 
insecure, that is going hungry.
    I don't know about you, Mr. Diaz-Balart, but since we had a 
long winter break here, I spent a lot of time going around to 
hospitals in my district. And one of the things that shocked me 
was going to emergency rooms and finding out there is an 
alarming increase in the number of senior citizens showing up 
in emergency rooms who are taking their medications on an empty 
stomach because they can't afford to pay for their medications 
and food. So they end up in the emergency room because 
literally the medicine has eroded away at their stomachs and 
they have holes in their stomachs as a result of having to make 
these choices.
    So I guess if we are creative enough, we can find ways to 
do this. And I guess the reason why I focused solely on these 
hunger and nutrition programs is because I can't think of 
anything more important, quite frankly, for us to do as a 
Congress than to make sure we don't have people in this country 
who fall through the cracks, children who don't have food in 
the summertime, and senior citizens who can't afford food.
    And internationally I think we can do more to combat 
terrorism. And I quote Senator Roberts, who is a pretty 
conservative Member of the other body, when he says some of 
these international school feeding programs do more to increase 
goodwill and combat terrorism and dry up, the places where 
people like Osama bin Laden go to try to find recruits than 
almost anything else we can do.
    I made some suggestions here, and you can agree or disagree 
with them, but there are ways I think we can cut back and we 
can transfer some of the funding on some of the programs that 
we are now spending and that would be better spent on this.
    Mr. Diaz-Balart. Briefly, Mr. Chairman, if I may. I want to 
commend you, Mr. McGovern. You are one of the few people who 
have actually come up with a list of priorities--again, as you 
say, we can agree or disagree with it--and also ways to fund 
them. And you are saying raise taxes and cut defense?
    I happen to disagree with you, but I think it is important 
that you actually have put in writing here what you believe is 
one of the ways we should look at it. And I think it is 
important for argument's sake and debate to put these things on 
the table. So whether we agree or disagree, I commend you for 
putting this out there
    Mr. McGovern. I appreciate that comment, I think. But let 
me just again end on this note. This is something we can't 
ignore, and it is a problem that is getting worse, and it is 
getting worse each and every year. The documentation coming out 
of this administration's agencies is telling us that. I think 
it would be a shame if we were to come up with a budget that 
didn't address the fact that hunger is becoming a bigger 
problem in America today than it was last year and the year 
before and the year before that. We are going in the wrong 
direction. We have to do something and we have to do it now--we 
cannot put it off.
    Mr. Ryun. I appreciate the gentleman's comments and I 
appreciate his passion for this issue, and of course I invite 
everyone to come back on the evening--and actually the long day 
we have when we have a budget markup, when these issues will be 
very hotly and passionately debated. They are very critical for 
the future of our country, and I welcome the other side to 
present a budget as we look forward to that markup. And I thank 
the gentleman for his time.
    Mr. McGovern. Thank you very much.
    Mr. Ryun. We are going to go into a brief recess as we wait 
for other Members. It will be subject to the call of the Chair 
and we will resume when other Members appear.
    [Recess.]
    Mr. Ryun. We are going to resume the hearing on Member 
initiatives, and we will begin with Ms. Carson.

 STATEMENT OF HON. JULIA CARSON, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF INDIANA

    Ms. Carson. Thank you very much, Mr. Chairman, I appreciate 
your courtesy and your willingness to let me put my little 2 
cents in on this budget.
    I appreciate the opportunity to testify before the 
committee on the budget resolution. I believe that the 
President's budget proposal leads us perhaps in the wrong 
direction, by depriving our most vulnerable seniors of vital 
resources.
    The budget proposal eliminates funding for the Commodity 
Supplemental Food Program (CSFP). Each month the CSFP provides 
over 475,000 low-income individuals with nutritious food 
packages, including fruits, vegetables, cereals and other 
items. This program provides a balanced dietary supplement for 
recipients, 85 percent of whom are seniors, all with income 
levels below a meager $12,400 a year.
    In Indiana, 4,979 seniors are currently enrolled in this 
program. This year, over 600 of them could go hungry because 
USDA reduced the CSFP caseload for 2006. Next year, the rest 
could go hungry if this program is eliminated. Is this really 
the message we want to send the world about how we care for and 
treat our seniors?
    The budget proposal enables participants in the Commodity 
program to enroll in a transitional food stamp program once the 
Commodity program is eliminated. The food stamp program, while 
extremely important, does not offer the same benefit, 
flexibility, and convenience that the Commodity program does, 
nor does it provide a long-term solution to these cuts. The 
food packages that seniors currently receive from the Commodity 
have a retail value of approximately $30-$40 in Marion County 
in Indiana. Under the budget proposal, seniors would receive 
just $20 per month in food stamps.
    In Indiana, where I come from, the average income for a 
senior enrolled in the Commodity program is between $700 and 
$800 each month. These limited resources must provide help with 
housing, utilities, medical costs, and food. Any reduction in 
benefits would further impoverish seniors.
    In addition to decreasing seniors' monthly benefits, the 
food stamp programs would offer reduced access for seniors. In 
Indianapolis, we have what you call the Gleaners Food Bank that 
administers the Commodity program. Volunteers from Gleaners 
deliver and distribute food boxes in various locations, 
including senior housing sites. These boxes are delivered to 
seniors who are immobilized by ill health, physical infirmities 
or lack of transportation. This personalized service ensures 
that our seniors have access to food and are treated with the 
dignity and respect that they deserve.
    They deliver boxes to homeless veterans who call the space 
under bridges in my district their homes. We have a volunteer 
corps that also gives out blankets to homeless people in the 
freezing cold weather. We travel under those bridges to give 
them some method of warmth and comfort.
    Congress must carefully consider the impact of eliminating 
a program that feeds our seniors and replacing it with one that 
may not. I have heard many stories about how the CSFP has 
changed lives. Pudding is a luxury a woman on the Commodity 
program told us she had not been able to afford until she 
received her first CSFP box. Let us not forget that as we craft 
a budget resolution, something as simple as a pudding cup is a 
great luxury for some of our Americans.
    I would impose upon you, beg you, please, do something 
about this major cutback on these, the very least of these, as 
we move forward to creating the budget resolution for fiscal 
year 2007.
    I appreciate your patience, your indulgence, and I would 
certainly appreciate your consideration for restoring this 
amount to our very most vulnerable citizens in our country.
    Thank you very much, and I yield back.
    Mr. Ryun. Ms. Carson, thank you very much for your 
testimony. I don't have any other questions at this point, so I 
appreciate your coming today before the Budget Committee.
    [The prepared statement of Ms. Carson follows:]

 Prepared Statement of Hon. Julia Carson, a Representative in Congress 
                       From the State of Indiana

    Thank you, Mr. Chairman. I appreciate the opportunity to testify 
before the committee on this year's Budget Resolution. I believe the 
President's budget proposal leads us in the wrong direction by 
depriving our most vulnerable seniors of vital resources.
    The President's budget proposal eliminates funding for the 
Commodity Supplemental Food Program. Each month the CSFP provides over 
475,000 low-income individuals with nutritious food packages including 
fruits, vegetables, cereals and other items. This program provides a 
balanced dietary supplement for recipients, 85 percent of whom are 
seniors, all with income levels below a meager $12,450 per year.
    In Indiana, 4,979 seniors are currently enrolled in this program. 
This year, over 600 of them could go hungry because the USDA reduced 
the CSFP caseload for 2006. Next year, the rest could go hungry if this 
program is eliminated. Is this really the message we want to send the 
world about how we treat our elders?
    The budget proposal enables participants in the CSFP to enroll in a 
transitional food stamp program once the CSFP is eliminated. The food 
stamp program, while extremely important, does not offer the same 
benefit, flexibility and convenience that the CSFP does, nor does it 
provide a long-term solution to these cuts.
    The food packages that seniors currently receive from the CSFP have 
a retail value of approximately $50. Under the budget proposal, seniors 
would receive just $20 per month in food stamps. In my home state of 
Indiana, the average income for a senior enrolled in the CSFP is 
between $700 and $800 each month. These limited resources must provide 
housing, utilities, medical costs and food. Thus, any reduction in 
benefits would further impoverish seniors. When $30 could be the 
difference between purchasing medication or food or paying your heating 
bill, how do you decide which to eliminate?
    In addition to decreasing seniors' monthly benefit, the food stamp 
program would offer reduced access to seniors. In Indianapolis, 
Gleaners Food Bank administers the CSFP. Volunteers from Gleaners 
deliver and distribute food boxes in various locations, including 
senior housing sites. CSFP boxes are delivered to seniors who are 
immobilized by ill health, physical infirmities or lack of 
transportation. This personalized service ensures that our seniors have 
access to food and are treated with the dignity and respect they 
deserve. They deliver boxes to homeless veterans who call the space 
under bridges their homes.
    Some seniors are also hesitant to participate in the food stamp 
program because they perceive it as a welfare program. Yet these same 
seniors participate in the CSFP in Indiana because the CSFP does not 
carry the same stigma. Congress must carefully consider the impact of 
eliminating a program that feeds our seniors and replacing it with one 
that may not.
    The Commodity Supplemental Food Program provides a wonderful 
service that touches the lives of many people. I was touched by the 
story of a senior who received her first CSFP box from Gleaners. She 
cried after discovering 12 pudding cups in her box. Her case manager 
explained, ``Pudding is a luxury she has not been able to afford in a 
very long time.'' Let's not forget that as we craft a budget 
resolution, something as simple as pudding cups are a great luxury for 
some Americans.
    The budget proposal not only jeopardizes seniors' food assistance, 
but it also cuts their housing opportunities. In the proposed budget 
for the Department of Housing and Urban Development, the President has 
made across the board cuts totaling $1.5 billion. One of the programs 
receiving a major cut is HUD's Section 202 program, which provides 
grant money to non-profits and faith-based organizations that construct 
or rehabilitate affordable housing for seniors with supportive 
services. Some of these services include transportation, cleaning and 
cooking. The $190 million proposed to be cut from this program would 
have been used to develop new housing facilities or rehabilitate closed 
or dilapidated facilities. These cuts are not how our government should 
react to budget shortfalls. We should not further deprive those who are 
``the least of these''.
    The proportion of elderly in the population is steadily increasing 
as the affordable housing units are decreasing. Housing units are being 
filled almost immediately, and waiting lists can be as long as 3 years. 
In my hometown of Indianapolis, the demand for senior services and 
senior housing will sharply increase within the next 15 years, 
including the need for LIHEAP funds. It is important that we plan ahead 
and start developing more affordable housing units for seniors before 
it is too late.
    And finally, the President's budget will cut Medicare by $36 
billion over 5 years and $105 billion over the next 10 years. These 
cuts will partially be achieved by shifting costs, a strategy that is 
unpardonable for a group of people who are already living on a fixed 
budget. Medical costs are continuing to rise, with an America that is 
living longer. How can we expect seniors to deal with these rising 
costs as we cut the program that helps ensure they receive affordable 
healthcare? Mr. Chairman, I am afraid that if Congress does not act, we 
are going to find out.
    Our budget is a reflection of our values and priorities. Yet it 
cuts food, housing and medical care for the elderly. In the words of 
Tim Robertson, President of the National Commodity Supplemental Food 
Program, this budget proposal contains ``the unkindest cut for our 
greatest generation.'' Our seniors deserve the very best from us, and 
it is incumbent upon us to keep them in mind when determining our 
budget allocations. I'd like to thank the Committee for giving me the 
opportunity to address these pressing needs.

    Mr Ryun of Kansas. At this point we will turn to Mr. Bishop 
for his testimony.

   STATEMENT OF HON. TIMOTHY H. BISHOP, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Bishop of New York. Thank you, Mr. Chairman. Let me 
start by asking unanimous consent to enter into the record my 
full statement.
    Mr. Ryun. Without objection.
    Mr. Bishop of New York. Thank you, sir.
    Mr. Chairman, I thank you for this opportunity to discuss 
with the Budget Committee why the Federal higher education 
programs, as outlined in the President's budget request to the 
Congress, should be a higher priority. I worked on a college 
campus for nearly three decades before I came to the Congress, 
and during that time I came to fully understand how difficult 
it is for students and their families to afford a higher 
education. There was not a day that went by during my time on 
the campus that I didn't work with a student to help them 
figure out how they were going to pay for their education.
    I appear today before this committee as a concerned member 
of the Education and the Workforce Committee, and I appreciated 
hearing the President discuss the future of education during 
the State of the Union message. But I am hopeful, but also 
skeptical, that the reality will rise to the level of his 
rhetoric in terms of what we support financially.
    I share disappointment with the President's budget, as I 
think everyone does who places a high value on a college 
degree. The greatest disservice that we can do to middle- class 
families in America is to convince them of the necessity of a 
college education but then place in their way barriers that 
prevent them from accessing higher education.
    Estimates show that financial barriers will prevent 4.4 
million high school graduates from attending a 4-year public 
college over the next decade--that is, a public college--and 
prevent another 2 million high school graduates from attending 
any college at all. As families face these harsh realities, 
they are right to question why the President and the Congress 
continue to ignore steps that we can take to make college more 
affordable.
    For example, the President's budget freezes the maximum 
Pell grant award at $4,050 for the fourth year in a row, 
despite the fact that the maximum Pell grant being authorized 
in the House version of the reauthorization of the Higher Ed 
Act is $6,000.
    The President's budget also freezes funding for both SEOG 
and the Federal Work Study Program, two programs that provide 
the neediest students additional money for college.
    And in what might be the most disturbing portion of the 
budget, the President proposes recalling the Federal portion of 
the revolving fund for the Perkins loan program. As a result, 
this year more than 460,000 low- and middle-income students 
will be denied low-cost loans to help pay for their college 
education.
    Now, the President made the same request to Congress last 
year and the Congress did not accede to that request, and I 
remain hopeful that our colleagues in the Congress will once 
again validate the importance of the Perkins loan program.
    The President's budget is particularly devastating when one 
views it within the context of the $12 billion cut to student 
loans recently authorized under the Deficit Reduction Act. The 
combination of the President's budget and these cuts will 
present an enormous hardship for students.
    The President has much to say recently about 
competitiveness, and I think all of us agree with that, but I 
think the commitment to increasing the quality of K through 12 
education is best seen as meaningless if we don't offer access 
to higher education. If the American Competitiveness Initiative 
is to have any real meaning, we must ensure access and 
affordability to higher education. And in order to do that, we 
must fully fund Pell Grants, Perkins loans, and other student 
aid programs in the budget resolution.
    Thank you, Mr. Chairman, for your time.
    Mr. Ryun. Mr. Bishop, thank you very much for your 
testimony. These will be issues that will be very passionately 
debated when we come to the budget markup, and I appreciate 
your coming before this committee today.
    Mr. Bishop of New York. Thank you for the opportunity.
    [The prepared statement of Mr. Bishop of New York follows:]

   Prepared Statement of Hon. Timothy H. Bishop, a Representative in 
                  Congress From the State of New York

    Mr. Chairman, ranking member Spratt, and distinguished members of 
the Budget Committee, thank you for this opportunity to discuss why 
Federal higher education loan programs should be higher priorities in 
the President's budget if we're really serious about helping students 
pursue the dream of a college education and keeping our workforce 
competitive.
    With every academic milestone, a high school diploma, vocational 
certification, an undergraduate degree or graduate degree, a person's 
lifetime earning potential grows. For many young Americans, higher 
education is the ticket to success. Some even consider it a basic human 
right. But each one of us can agree that every high school senior who 
qualifies academically deserves the chance to go to college.
    After working at Southampton College on Long Island for nearly 
three decades, I have come to fully understand how difficult it is for 
students and their families to afford a higher education. Every day, I 
worked with them--to scrape up the money, grants, scholarships, 
whatever we could find--to help them realize part of the American 
dream--the opportunity to go to college.
    Therefore, I appear before this committee, not on behalf of a 
special interest or a local project for New York's first congressional 
district, but as a concerned member of the Education and the Workforce 
Committee, who appreciated hearing the President say during the State 
of the Union that America's ``greatest advantage in the world has 
always been our educated, hardworking, ambitious people--and we're 
going to keep that edge.''
    Unfortunately, the budget shortfall for education--a decrease of 
$2.1 billion or 3.8 percent below last year's level--belies the 
President's pledge, and deflates the promise of the proposed American 
Competitiveness Initiative, which would fund 70,000 new high school 
advanced math and science teachers. The ongoing impasse over our 
failure to reauthorize the Higher Education Act is another setback 
making it harder to meet this pledge.
    Like many who have always voted to support student loans, and who 
place a higher value on the benefits of a college degree than the 
President's budget request provides, I share your disappointment. And 
those of you who are the proud parents of a college student are 
undoubtedly aware that college tuition at public universities increased 
14 percent last year, with jumps of 20 to 30 percent in several states.
    These rates are increasing faster than the financial assistance 
given to students, which makes attending college all that more 
difficult and limits the choices that graduates can make, discouraging 
many of them from seeking a college education at all. The greatest 
disservice that we have done to middle class families in America is to 
convince them of the necessity of a college education, but then place 
this education financially out of their reach.
    In fact, the Congressional Advisory Committee on Student Financial 
Assistance estimates that financial barriers will prevent 4.4 million 
high school graduates from attending a 4-year public college over the 
next decade, and prevent another 2 million high school graduates from 
attending any college at all. As a result, the United States is 
projected to face a shortage of up to 12 million college-educated 
workers by the year 2020, directly threatening America's economic 
strength and global competitiveness.
    As families face these harsh realities, they are right to question 
why the President and Congress continue to ignore steps they can take 
to make college more affordable and to make sure that this American 
dream does not slip out of reach. Still, we are not yet making the 
investments needed in higher education to support these costs.
    For example, the President's budget freezes the maximum Pell grant 
award at $4,050, for the fourth year in a row, despite rising tuition 
and stagnant Federal investment. In 1975, the Pell Grant covered 80 
percent of the cost of a 4-year public college education. Today, that 
number is closer to 40 percent. President Bush made a promise to 
students 6 years ago, that under his administration the maximum Pell 
Grant award would increase to $5,100, but thus far, that promise is an 
empty one.
    Furthermore, although investing $100 million into an unproven 
school voucher program, the President's budget freezes funding for SEOG 
and Federal work-study, two programs that provide the neediest students 
additional money for college.
    And in what might be the most disturbing portion of this budget, 
the President proposes recalling the Federal portion of the revolving 
fund for the Perkins Loan Program. The funds, which are made up of 
Federal ``capital contributions,'' institutional matches, and repaid 
Perkins loans, are used to make new loans to students from low-income 
and middle-income families. The budget calls for the government to 
recall the revolving funds used by institutions, requiring colleges and 
universities to pay back nearly $644 million. As a result, this year 
more than 460,000 low- and middle-income students will be denied low-
cost loans to help pay for their college education.
    This cut, when coupled with the $12 billion in cuts to student 
loans authorized under the Deficit Reduction Act, is particularly 
devastating and will present an enormous hardship for the student in 
the future.
    The ``Education'' President has had much to say recently about 
competitiveness. State of the Union rhetoric sounds inspiring but it 
doesn't keep tuition in check or sharpen our competitive edge. Only 
real actions can do that. Therefore, I suggest we back up our promises 
to America's students by fully funding Pell grants, Perkins loans, and 
other student aid programs in the budget resolution. I look forward to 
working with you toward that end and am happy to answer any questions 
you may have at this time.

    Mr. Ryun. We will now go into another brief recess as we 
wait for other Members, subject to the call of the Chair.
    [Recess.]
    Mr. Ryun. We will now resume the Members Day hearing on the 
Budget Committee, and at this point we will turn to Mr. Mica 
from Florida.
    Mr. Mica, first of all, we have not received your written 
testimony, but we will be happy to submit that for the record 
when it is submitted.

 STATEMENT OF HON. JOHN L. MICA, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Mr. Mica. Well, I thank you, Mr. Chairman, and I do have a 
copy and ask unanimous consent that it be included in the 
record.
    Mr. Ryun. Without objection.
    Mr. Mica. Thank you, Mr. Chairman and members of the Budget 
Committee. I come before you today, the chair of the House 
Aviation Subcommittee, and I will not read my testimony but I 
would just like to summarize some of my viewpoints, 
particularly for some of the staff that are here and you, Mr. 
Chairman.
    This is not the official dogma of the Transportation 
Committee or the subcommittee, but I want to just make very 
clear for the record the situation we find ourselves in with 
aviation security and, in particular, passenger screening. The 
administration has proposed an increase in the passenger 
screening fee. The way it is currently proposed, I have told 
Josh Bolten and others that I do have problems with the way it 
is currently proposed.
    As you may know, we now spend some $5.6 billion on aviation 
security. When we set up aviation security fees in the 
beginning, under the original TSA legislation which I helped 
draft, we had proposed having the user pay, which is a very 
fair system. The screening would be a government service, and 
the passenger would pay for it. It was supposed to be a $2.50 
per flight segment, $5 maximum per one-way trip fee, and that 
covered your screening costs.
    The airlines who had previously had the responsibility in 
cost testified before our committee when we were developing 
this formula that their cost was about $1 billion, and they 
agreed to reimburse the Government approximately $1 billion a 
year for giving up that responsibility. They were willing to 
pay just to exempt themselves from the liability of screening. 
So we were to fund the system initially with the $2.50/$5 fee 
and contributions from the airlines.
    Of course initially, the TSA number of screeners was a much 
smaller estimate. I think at one time it went to 19,000 and 
then to 26,000. Finally, Congress capped it somewhere in the 
45,000 range, and we probably have more than that in TSA. We 
have a $2 billion shortfall, which is now contributing to the 
national deficit because we have no money to pay that. It is 
out of the general Treasury and we have no money to pay that, 
so we should be increasing the fee.
    But if we just increase the fee and continue the same 
process, we have a problem because the current process is 
broken. The 9/11 Commission and their predecessor have reviewed 
the performance of passenger screening and given it an F score, 
but not me. In addition, I get audited reports, and I have one 
here I would like to be submitted for the record, OIG-05-16, 
this is a secret classified report. I am only going to give you 
the cover and a summary of what I can deal in public with, but 
I can tell you that the system is a failure.
    Passenger screening is not much better than it was just 
after 9/11, and those are the words of the Inspector General 
who tested the system. This report is on baggage screening, and 
there the failure is even greater. Nearly half of the 45,000 
TSA personnel are behind the scenes in the airport going 
through people's baggage with trace detection equipment or just 
searching, and the more people we have involved, actually the 
greater the failure rate.
    So we are paying $5.6 billion for a system that gets an F 
score and doesn't work well, according to, again, these 
classified reports. What is interesting is, I ordered a report 
by the Government Accountability Office (GAO) to review a 
system for employing high-tech processing and screening of 
checked baggage. They conducted that report, and this is GAO 
report 05-365, and that said you could replace 78 percent of 
the personnel by automating the system and replacing personnel 
with high-tech equipment. And if you did that, the payoff is 
anywhere from a 1 to 3 years to pay for the equipment; and then 
you have savings, perpetual savings in the system.
    So I don't favor the administration proposal of just 
increasing the fee and not putting in a high-tech system. If we 
did this, the failure rate in the few airports in which we have 
these highly automated high-tech passenger baggage screening 
equipment, the failure rate is minimal. So it is a very good 
working system as opposed to what we are paying for in a 
failing system.
    So I propose that we double the passenger screening fee for 
a period of 3 years. It would raise somewhere in the 
neighborhood of $6 billion. We can over that period of time, 
instead of just paying for personnel, put in high-tech 
equipment both for passenger screening and also for checked 
baggage screening. In checked baggage screening, we would 
eliminate 78 percent of the personnel, again, a dramatic 
savings.
    That is the proposal. The airlines have not been supportive 
of the administration proposal last year. They are cool, I can 
tell you, to my proposal because they say we are raising taxes. 
This is a user fee, it is not a tax. We are now $2 billion a 
year into the Federal Treasury, adding to the Federal deficit. 
The current rate at which we are paying for and deploying high-
tech equipment at our airports and the rate that we are putting 
money into equipment versus personnel, we will have this fully 
automated high-tech equipment complete in 18 years.
    So with $6 billion spent in my plan, you pay this off and 
you would save $30 billion. And the most important thing is the 
operation and performance of the system. You almost now have, 
and I can't quote the exact failure rate, but I can tell you it 
is almost a total failure rate for checked baggage, and very 
poor rate, not much better than after September 11, for 
passenger screening. You replace that system with a high-tech 
system, you sunset the increase in the fee after 3 years, and 
you have $30 billion worth of taxpayer savings and a safer 
system for the American people to fly.
    Incidentally and finally, explosives on an aircraft are our 
most serious threat at this point. More than likely, terrorists 
are not going to take over an aircraft the way they did on 9/
11. We have secure cockpit doors, we have air marshals, and 
have even more pilots trained now than air marshals that are 
armed and ready to go. And then the final and fourth line of 
defense is that we have an informed public which would never 
let an aircraft be taken over in the manner in which we saw in 
three out of the four instances on September 11.
    So that is my testimony. I have asked the administration 
also to consider sending Congress an amendment, talked to Josh 
Bolten about that, to include this provision as opposed to the 
provision that is in their budget.
    [The information referred to follows:]

 Prepared Statement of Hon. John L. Mica, a Representative in Congress 
                       From the State of Florida

    Thank you Chairman Nussle and Ranking Member Spratt for the 
opportunity to testify before you today.
    I am here to discuss and urge the Committee's support for an 
increase in the aviation security fee that is paid by airline 
passengers.
    The airline security passenger fee was established by Congress 
after the terrorist attacks of September 11, 2001. Together with a fee 
paid directly by air carriers, it was intended to cover the Federal 
Government's cost of taking over passenger and baggage screening 
functions from the airlines.
    In reality, these two fees have covered less than half of the 
Transportation Security Administration's aviation security costs. The 
General Fund has had to make up the difference--roughly $2.5-$3.5 
billion annually in recent years.
    This shortfall between fee collections and TSA's aviation security 
costs is paid by deficit spending and absorbed by people who may never 
fly.
    As Chairman of the House Aviation Subcommittee, it was never my 
intent for the General Fund to pick up any of these costs. Aviation 
security should be paid for by aviation travelers. No other mode of 
transportation has government-funded security, and aviation should be 
no different.
    General aviation, air cargo, cruise passenger and cargo shipping 
lines, trucking, passenger and freight rail, private energy and other 
security sensitive businesses all pay their own security screening 
costs. The U.S. taxpayer pays $0.
    Under current law, the aviation security fee is set at $2.50 per 
enplanement, up to $5 per one-way trip. The President's Budget proposes 
to change this to a flat fee of $5 per one-way trip, which would raise 
an additional $1.3 billion in FY 2007. The Administration proposes to 
use this $1.3 billion to offset the cost to the General Fund.
    I have a different proposal. I believe the increased fee revenues 
should first be used to meet certain critical aviation security needs, 
such as the deployment of technology to detect explosives hidden on 
passengers' bodies, and the installation of in-line explosives 
detection systems (EDS) at airports.
    Since TSA was created in 2002, we have spent over $25 billion on 
aviation security. Despite this massive spending, we are still relying 
on 1960's technology--metal detectors--as our primary method of 
screening passengers. We have yet to deploy more than a handful of 
explosives detection trace portals even though explosives hidden on 
passengers' bodies are a serious threat to aviation. It would take just 
one suicide bomber strapped with explosives to further devastate the 
U.S. airline industry.
    In addition to this urgent need to deploy better passenger 
screening technology, we also have critical unmet needs in the area of 
checked baggage screening.
    The Aviation and Transportation Security Act (ATSA) required TSA to 
deploy EDS at all commercial service airports by the end of 2002. The 
Homeland Security Act extended this deadline by 1 year. To meet this 
deadline, TSA placed hundreds of EDS machines in airport check-in areas 
across the country.
    Incorporating the EDS machines into in-line baggage systems is a 
critical next step, one which is estimated to ultimately cost $4-$5 
billion.
    Although this is a significant up-front investment, in-line 
installation of EDS would significantly reduce TSA operating costs and 
pay for itself in just a few years.
    According to a March 2005 GAO report, TSA analysis shows that 
installing in-line EDS at the nine airports that have received letters 
of intent would result in a savings to the Federal Government of $1.26 
billion over 7 years, with the initial investment in these systems 
recovered in just 1.07 years.
    According to TSA's analysis, in-line EDS would reduce by 78 percent 
the number of TSA baggage screeners and supervisors required to screen 
checked baggage at these nine airports.
    Despite the operational cost savings TSA could derive from in-line 
baggage systems, progress in installing such systems has been slow. To 
date, of more than 440 commercial service airports, only eighteen have 
fully converted to in-line EDS.
    At the current rate of spending, it will take at least 10 more 
years to convert fully to in-line EDS. In the meantime, we will 
continue to waste billions of dollars in TSA's operating budget paying 
large numbers of screeners to do what in-line EDS could do more 
efficiently, and more accurately.
    Rather than wasting billions of dollars on a huge and largely 
ineffective screening bureaucracy, we need to focus on deploying better 
technology as soon as possible.
    Under my proposal, the existing fee would be doubled, from $2.50 
per enplanement to $5 per enplanement. This would raise enough funds to 
install high-tech explosives detection systems at all commercial 
service airports within 3 years.
    I urge your support for an increase in the aviation security fee. I 
also urge you to invest the proceeds from the fee increase in urgently 
needed aviation security technology improvements, such as in-line EDS, 
and better explosive screening technologies at passenger checkpoints.
    Thank you for your consideration.

    Mr. Ryun. Thank you very much for your testimony. I just 
want to make a comment. You offered some reports to be 
submitted. Without objection, I'd like those inserted in the 
record.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Ryun. Just one brief comment, because I know I have 
other Members ready to testify, but would this speed up the 
process at the airport, the technology you are talking about?
    Mr. Mica. Absolutely. What is happening now is we actually 
have even more passengers going through. We are back to pre-
September 11. One of the problems is the system that uses 
nearly half of the 45,000 TSA personnel to hand-search your 
baggage is delaying baggage. So we have had baggage slowdowns 
and meltdowns across the country, people not matching baggage, 
and that is even more dangerous because you really don't know 
what is getting on a plane or left behind at times.
    So this is a very serious situation. It is not popular for 
me, as a conservative right wing Republican, to come and 
advocate increasing any fees, but this is a user fee. It was 
never intended to be the responsibility of the taxpayer from 
the general revenue or add $2 billion a year to our deficit. It 
was a PAYGO, a user fee, collected by the airlines and then 
passed on to the Government.
    Last year, they increased their fees. We monitored some of 
their charges for airline tickets and during not a full year's 
period, they increased their fees--because their costs went up 
or their ticket charges--eight times; yet they oppose the 
Government increasing the fees in our costs which have gone up, 
to put in a safer, securer system.
    And to answer your question, Mr. Chairman, to move the 
baggage through in a more expedited fashion that won't delay 
our flights around the country.
    Mr. Ryun. I thank the gentleman for his testimony and 
appearing before the Budget Committee.
    We will now move to the gentlewoman from the Empire State, 
Mrs. Kelly.

 STATEMENT OF HON. SUE W. KELLY, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEW YORK

    Mrs. Kelly. Thank you, Mr. Chairman. I want to just talk 
with you a little bit about small businesses and the needs of 
small business in the Nation.
    You and I both know they are the local engines that drive 
our national economy, so we have to keep their needs as a 
centerpiece in our budget priorities in Congress. I believe we 
need to continue working together to develop ways to provide 
our small businesses with the tax relief and regulatory 
fairness that they need in order to continue growing and 
creating new jobs across the country.
    We need a fiscally responsible Federal budget in order to 
accomplish essential objectives, but we also need to help our 
small businesses. So basically I have three budgetary points.
    Too many small business owners, including those in the 
Hudson Valley communities I represent in New York, have long 
been unfairly punished by the Federal Tax Code. It taxes them 
at a higher rate than individual rates and it limits them from 
taking the same deductions claimed by large companies.
    The Jobs and Growth Tax Relief Reconciliation Act that we 
passed in 2003 is addressing some of the problems that are 
faced by small businesses. It has helped provide critical tax 
relief to 25 million small businesses at an average of more 
than $3,235 in 2005. The lower marginal income tax rates have 
assisted more than 90 percent of small business owners who pay 
their taxes at the individual income tax rates.
    So as we analyze our future budget outlook, I want to work 
with you to extend and make permanent the small business tax 
relief provisions that are addressed in the fiscal year 2006 
budget and the tax reconciliation measures. Continuing the 
increased expensing rules for small businesses is of particular 
importance. It allows our small business owners to plan for the 
future and continue taking much-needed deductions on the 
hundreds of thousands of dollars that they need to spend every 
year on equipment and their other needs to operate and grow 
their businesses. The more we do to help small businesses grow, 
the more jobs they can create for our local residences.
    Another budgetary priority has to be to find a permanent 
solution to stop the growing number of middle-income families 
and small business owners from being victimized by the 
alternative minimum tax (AMT). The AMT has no place in the 
lives of middle-income taxpayers and small business owners, and 
it is counterproductive to our tax relief efforts on behalf of 
small businesses. These and other consensus small business tax 
reforms are contained in the Small Employer Tax Relief Act, 
which is H.R. 3841, that we are cosponsoring in the Small 
Business Committee.
    We are hoping to provide opportunities for growth, and 
those opportunities begin by eliminating the roadblocks that 
small business owners face. We know that duplicative and 
unnecessary Federal regulations do nothing but hamper small 
business growth and success. So we need to work together to 
stop encouraging the expansion of Federal regulations on our 
Nation's small businesses.
    One way of eliminating redundancy and overlap by our 
Federal regulatory agencies is to include language in the 
budget resolution reauthorizing the Truth in Regulating Act, or 
TRA, which we passed into law in 2000. I am sponsoring the Cut 
Unnecessary Regulatory Burden for Small Businesses Act, the 
CURB Act, to reauthorize TRA and to enable Congress to keep a 
more watchful eye on all Federal agencies.
    This would uphold our principles of smaller government, 
less Federal intrusion in the lives of local small business 
owners, and I want to work with you to prevent the 
implementation of unnecessary regulations. Federal agencies can 
issue these burdensome regulations totally outside of 
congressional control, regulations that have the force and 
effect on small businesses of law, and they have to spend 
extraneous time, money, and energy completing a lot of 
burdensome paperwork rather than hiring new workers and growing 
their businesses.
    The time has come to make it a budgetary priority to fund 
TRA and improve the congressional and GAO oversight of Federal 
regulatory decisions that are devastating our small businesses.
    Lastly, fiscal government restraint in our overall budget 
is critical to ensuring that we can continue to provide 
America's small businesses the tax relief and other tools they 
need to grow and survive. I believe we should support President 
Bush's budget request for $28 billion in government-backed 
small business loans for 2007. It is the highest-ever level for 
the SBA, but this will help create and it will help retain an 
estimated 1 million jobs.
    We have to continue to find ways to provide necessary 
government services to help small businesses grow and create 
the new jobs for local residents and their communities and we 
need to do that without growing the size of government. The 
Small Business Administration has shown encouraging promise in 
this area since 2001. It has cut its own agency staff by nearly 
25 percent while at the same time improving customer service 
and making record numbers of government-backed loans to small 
businesses.
    We can work together to hold all Federal agencies to such a 
standard: better service, more productivity, lower 
administrative costs, and a lot less bureaucracy. If we 
eliminate the waste, fraud, and abuse in the Federal budget and 
at our Federal agencies, and help them focus--and help us focus 
more of our resources directly on the needs of small business 
owners or any family across America, I believe we can do this 
and it needs to be done.
    This committee has many areas where it needs to focus on 
budgetary concerns, but I hope this committee will not forget 
the needs of America's small businesses. Expanding tax relief 
to small business owners, stopping unnecessary regulations, and 
eliminating waste and fraud at Federal agencies are all too 
critical to continued economic growth. We can work together to 
adhere to fiscally responsible budget policies in order to rein 
in Federal spending while effectively boosting small businesses 
across America.
    I thank you for allowing me to testify today. I look 
forward to working with you during the budget process to 
consistently support our small business owners and help them 
retain their employees. Let us reduce their taxes and encourage 
their investment and remove these obstacles for our small 
business growth.
    Thank you so much for letting me testify. I hope you will 
truly consider funding at an appropriate level the TRA agency. 
It is something that will help our small businesses.
    [The information referred to follows:]

 Prepared Statement of Hon. Sue W. Kelly, a Representative in Congress 
                       From the State of New York

    As a former small business owner myself, I try to keep the 
interests of small businesses as the centerpiece of my own policy 
agenda in Congress.
    Looking both to previous accomplishments in the small business 
field, and ahead to our future budget outlook, we have several 
opportunities to seek fiscal government restraint and to provide small 
businesses--the locomotive of our economy--with the tools to continue 
growing.
    Providing opportunities for growth begins by eliminating the 
roadblocks our small business owners face.
    Too many small business owners, including those in the Hudson 
Valley which I represent, are being unfairly punished by a Federal tax 
code that taxes them at higher individual rates and limits them from 
taking the same deductions claimed by large companies.
    The first place to provide relief is to extend and make permanent 
the provisions addressed on the FY06 budget and tax reconciliation 
measures. Many Americans don't realize a major portion of that tax 
relief bill is direct tax relief for small businesses. We have seen the 
results of this relief from the 2001 and 2003 tax bills--more jobs 
created, more opportunities to enter into high cost businesses, and 
higher revenues to the Treasury.
    Extending increased expensing rules for small businesses is of 
particular importance, allowing small business owners to plan for the 
future and continue taking needed deductions on the hundreds of 
thousands dollars in machinery and operating assets put into use each 
year.
    Another area I have stressed adamantly over the years and will 
continue to do so is the need for permanent relief from the Alternative 
Minimum Tax. This renegade penalty imposed each year on millions of 
small business owners continues to result in less capital and 
investment poured into our economy and less jobs created in towns 
across the country. It is a virtual lease on the growth of small 
business in America. I urge the committee to address the AMT laws and 
find a responsible solution to this now un-ignorable problem.
    Looking forward to the impending explosion of mandatory spending by 
the Federal Government, we must also look to our own side of the 
ledger.
    The Small Business Administration is a good example of an agency 
that is doing its part. Operating a $65 billion loan portfolio to 
millions of Americans helping to grow our economy, as well as owners 
recovering in the wake of Hurricane Katrina and other local disasters, 
the SBA has cut its agency staffing by close to 25 percent since 2001 
while seeing a rapid increase and improvement in its services.
    All Federal agencies should take a page from this play book: 
Greater service, optimal production, less bureaucracy. We must continue 
to find ways to provide needed services to help grow and support our 
citizens and our economy, without growing the size of our government.
    Finally, we need to stop encouraging complication and expansion of 
regulations on our nation's small businesses. Duplicative and 
unnecessary Federal regulations do nothing but hamper small business 
growth and success.
    One new way of eliminating redundancy and overlap by our Federal 
regulatory agencies can be done by including language in the budget 
resolution authorizing the Truth in Regulating Act, or TIRA, which I am 
sponsoring here in the House.
    TIRA would enable Congress to keep a more watchful eye on Federal 
agencies and prevent them from implementing any unnecessary regulations 
that force small business owners to spend extraneous time, money, and 
energy completing burdensome paperwork rather than hiring new workers 
and growing their business.
    Specifically, TIRA requires the GAO, at the request of a 
subcommittee or full committee chairman in Congress, to evaluate any 
promulgated rules and regulations that would have an annual effect on 
the economy of $100 million or more.
    Congress, through the GAO, would have knowledge of and the ability 
to fully evaluate unfair costs or impacts on small businesses before 
new rules are implemented.
    The Truth in Regulating Act is a qualified example of how to 
increase accountability in Congress. This is one method of assuring 
that not only are Federal administrative agencies doing their job, but 
also that Congress is keeping up with its obligation in providing the 
authority to the agencies. Agency personnel is not elected. Because 
Congress is, we must answer to our small business owners and they are 
asking for relief.
    We have many areas to improve. More financial relief to small 
business owners, less growth by Federal agencies, and fewer unnecessary 
regulations to adhere to are all responsible policies to reign in our 
Federal budget and effectively serve our small businesses across 
America.
    Thank you for allowing me to testify in front of the committee 
today and I look forward to the committee's support.

    Mr. Ryun. Mrs. Kelly, thank you very much for your 
testimony. As a Member coming from a small business background, 
I am certainly sensitive to the issues that you are offering. I 
know that small businesses are one of the engines of our 
economic recovery, and I also know that taxes and regulations 
put a chokehold on our small businesses' ability to function. 
So I am certainly warm to those ideas and will carry those 
forward, and I thank you for coming today.
    Mrs. Kelly. Thank you.
    Mr. Ryun. At this point, we will turn to Mr. Kucinich for 
his testimony, and you are welcome to begin at any time.

   STATEMENT OF HON. DENNIS J. KUCINICH, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Kucinich. Thank you very much, Mr. Ryun. I want to 
thank the committee for giving me this opportunity to testify. 
I represent part of Cleveland, Ohio and many of its suburbs, 
but I am not here today to advocate for local funds. I am here 
to offer a new approach to resolving a national problem. This 
issue affects Cleveland to be sure, but it also limits the 
economy in every congressional district.
    The concern and solution I bring to you today is the 
decline and disrepair of the United States' infrastructure 
system. I am talking about bridges, highways, schools, water, 
wastewater treatment plants, and drinking water systems. Like 
every Member of Congress, every member of the Budget Committee, 
I can think of at least one major infrastructure project in my 
district that laxlacks funding, I am sure every Member has the 
same concern, and today I am offering a solution.
    I am proposing a financing mechanism that taps the Federal 
Reserve as a financing bank to provide zero-interest loans, 
thus greatly reducing the cost of infrastructure improvement. 
We all see the current crisis in our infrastructure. It is 
something we see every day when we sit in traffic, bound by 
orange barrels that line our highways. It is something that 
school children experience at their desks, crowded together 
under leaky roofs, and beachgoers experience, at best the 
sidewalk, when municipal sewer systems overflow. These 
incidents happen every year and happen with increasing 
regularity as systems age. Infrastructure problems threaten our 
productivity, our economy, our environment, and our health.
    What will it take to fix these problems? Well, nationally, 
it will take more than $1.6 trillion to bring our country's 
roadways up to speed, according to a report released in 2005 by 
the American Society of Civil Engineers. It will take $127 
billion to repair and renovate our schools, according to the 
National Center for Education Statistics. That estimate was 7 
years ago, with more recent estimates at $268 billion. And in a 
study by the Water Infrastructure Network, it would take $1.3 
trillion over 20 years to build, operate, and maintain drinking 
water and wastewater facilities.
    If you add these staggering sums of money to the necessary 
funding to replace and repair our devastated infrastructure 
from the Katrina disaster, estimates from Risk Management 
Solutions, a private sector company that provides services for 
the management of insurance catastrophe risk, suggests that 
total losses, insured and uninsured, from both hurricanes 
approach $140 billion, the bulk of which is due to Hurricane 
Katrina.
    Now, the people of Katrina are returning to nothing, and 
the first task is to rebuild the basic infrastructure. The 
Center for Business and Economic Research at Marshall 
University estimated that Hurricane Katrina has generated 
commercial structure damage of $21 billion, commercial 
equipment damage at $36 billion, residential structure and 
content damages of almost $75 billion, electric utility damages 
of $231 million, highway damages of $3 billion, sewer system 
damages of $1.2 billion, and commercial revenue loss of $4.6 
billion.
    The American Waterworks Association estimates the damage 
from Katrina requires water supply infrastructure and repair 
and replacement costs at $2.25 billion. The Mississippi 
Department of Education estimates Katrina damage to 
Mississippi's schools at over $1 billion dollars, to replace 14 
destroyed schools, repair 246 damaged schools, and repair 159 
damaged school buses. Overall, Katrina damaged or destroyed 
over 400 school buildings in four affected States.
    The State of Louisiana's Department of Transportation 
testified to the Committee on Transportation and Infrastructure 
of our United States Congress that damage resulting from the 
hurricane, such as repairing or replacing damaged roads, 
bridges, public ports, airports, railroads, and the maritime 
and transit systems is estimated at $5.5 billion. And to ensure 
future hurricanes do not exact such massive damage to 
Louisiana, it will cost $22 billion for levee protection and 
pumping capacity.
    Now, with these extraordinary needs, it is no wonder 
municipalities have not been able to make up the differences as 
the Federal Government has gradually decreased infrastructure 
support. If you put aside all the partisan issues, the current 
deficit is real and everybody agrees it has to be reduced. That 
reality makes massive Federal investments unlikely. For 
example, the President's 2007 budget is only $18 billion to 
address the damage inflicted by Katrina.
    Now, Mr. Chairman, my solution would create a low-cost 
Federal financing mechanism to administer billions of dollars 
in zero-interest loans every year to localities for 
infrastructure projects. Financing costs for any project adds 
substantially to the cost of the project; therefore, zero-
interest loans make local dollars go significantly further. 
States would be totally responsible for choosing which projects 
to fund with the loans according to their specific needs.
    This bill that I am speaking of would create the Federal 
Bank for Infrastructure Modernization. The bank, as an 
extension of the Federal Financing Bank under the Treasury, 
would administer the loans. The loans would bear a small fee of 
one-fourth of 1 percent of the loan principal to cover the 
administrative cost of the Federal Bank for Infrastructure 
Modernization. In order to provide the money for the loans, the 
Federal Bank for Infrastructure Modernization would hold a 
portion of the Treasury securities that the Federal Reserve 
normally holds.
    By transferring billions of dollars annually to the Federal 
Bank for Infrastructure Modernization, it would still allow the 
Fed to operate as it does now to add liquidity to the system. 
The Fed, instead of buying securities, would buy the mortgage 
loans of the States. This way, the Federal Bank for 
Infrastructure Modernization's finances would be integrated by 
the Federal Open Market Committee, so as not to disrupt its 
ability to promote economic stability.
    The actual amount would be varied so these funds could be 
used as a tool to foster stable economic growth. During times 
of economic slowdown, the Federal Bank for Infrastructure 
Modernization could make more loans available to spur 
investment. During times of economic boom, the Federal Bank for 
Infrastructure Modernization could make fewer loans available.
    The needs are so great that our old ideas just won't work. 
If we talk about the hundreds of billions needed to make the 
infrastructure a workable, productive system, the sum 
overwhelms nearly every idea we had in the past.
    The President's nondefense discretionary budget is $375.8 
billion. The needs are much greater than that. Even for certain 
needs like school construction, we would have to spend one-
third of his budget. To repair structurally deficient bridges, 
we would have to spend one-fourth of the budget. It is 
unimaginable we would fully address even one of these issues.
    We have to be creative. We have to think of ways of solving 
problems outside of the box, and that is exactly what this 
proposal is and why it needs the support of the Budget 
Committee. The Committee's backing this bill will reflect an 
understanding that our Nation is asking for innovative 
bipartisan solutions.
    The Federal Bank for Infrastructure Modernization is a tool 
for leveraging the necessary funds. Citizen States would still 
be responsible for paying the net cost of the project, but by 
making available the loans interest free, it cuts the overall 
cost of the project in half. It is a workable solution and it 
goes a long way in addressing infrastructure needs.
    I come here today to seek the support of the Budget 
Committee, and with your leadership this bill could provide the 
ingenuity and the essential boost that projects need.
    Mr. Ryun. I thank the gentleman for his testimony.
    At this point in time I have no further questions. The 
committee will go into recess subject to the call of the Chair.
    Mr. Kucinich. Thank you.
    Mr. Ryun. Thank you.
    [Recess.]
    [The prepared statement of Mr. Kucinich follows:]

  Prepared Statement of Hon. Dennis J. Kucinich, a Representative in 
                    Congress From the State of Ohio

    Thank you Chairman Nussle and Ranking Member Spratt for allowing me 
to testify. I represent part of Cleveland and many of its suburbs. But 
I am not here today to advocate for local funds. I am here to offer a 
new approach to resolving a national problem. This issue affects 
Cleveland to be sure, but it also drags down the economy in every other 
congressional district.
    The concern and solution I bring to you today is the decline and 
disrepair of the U.S. infrastructure system. I speak of bridges, 
highways, schools, wastewater treatment plants, drinking water systems, 
etc. Like every Member of Congress, ever Member of the Committee on 
Budget can think of at least one major infrastructure project in their 
district that lacks funding. And today, I offer us all a solution. I 
propose a financing mechanism that taps the Federal Reserve as a 
financing bank to provide zero interest loans, thus greatly reducing 
the costs of infrastructure improvement.
    We all see the current crisis in our infrastructure. It is 
something we see everyday when we sit in traffic bound by orange 
barrels that line our highways. It is something that schoolchildren 
experience at their desks, crowded together under leaking roofs. And 
beachgoers experience at best the sidewalk when the municipal sewer 
systems overflow. These incidents happen every year and happen with 
increasingly regularity as systems age. Infrastructure problems 
threaten our productivity, our economy, our environment and our health.
    What will it take to fix these problems? Nationally, it would take 
more than $1.6 trillion to bring our country's roadways up to speed 
according to a report released in 2005 by the American Society for 
Civil Engineers. It would take $127 billion to repair and renovate our 
schools according to the National Center for Education Statistics. That 
estimate was 7 years ago, with more recent estimates at $268 billion. 
And in a study by the Water Infrastructure Network, it would take $1.3 
trillion over 20 years to build, operate and maintain drinking water 
and wastewater facilities.
    Add to those staggering sums of money the necessary funding to 
replace and repair devastated infrastructure from the Katrina disaster. 
Estimates from Risk Management Solutions (RMS), a private-sector 
company that provides services for the management of insurance 
catastrophe risk, suggest that total losses--insured and uninsured--
from both hurricanes (Katrina and Rita) approach $140 billion, the bulk 
of which is due to Hurricane Katrina.
    The people of Katrina are returning to nothing and the first task 
is to rebuild the basic infrastructure. The Center for Business and 
Economic Research at Marshall University estimated that Hurricane 
Katrina has generated commercial structure damages of $21 billion, 
commercial equipment damages of $36 billion, residential structure and 
content damages of almost $75 billion, electric utility damages of $231 
million, highway damages of $3 billion, sewer system damages of $1.2 
billion and commercial revenue losses of $4.6 billion.
    The American Water Works Association estimates that damage from 
Katrina requires water supply infrastructure repair and replacement 
costs of $2.25 billion.
    The Mississippi Department of Education estimates Katrina damage to 
Mississippi schools at over $1 billion, to replace 14 destroyed 
schools, repair 246 damaged schools, and repair 159 damaged school 
buses. Overall Katrina damaged or destroyed 400 school buildings in the 
four affected states.
    The State of Louisiana Department of Transportation testified to 
the Committee on Transportation & Infrastructure, that damage resulting 
from the hurricanes, such as repairing or replacing damaged roads, 
bridges, public ports, airports, railroads, the maritime and transit 
systems is estimated at $5.5 billion. And to ensure future hurricanes 
do not exact such massive damage to Louisiana, it will cost $22 billion 
for levee protection and pumping capacity.
    With these extraordinary needs, it is no wonder that municipalities 
have not been able to make up the difference as the Federal Government 
has gradually decreased infrastructure support. Putting aside all 
partisan issues, the current deficit is real and everyone agrees it 
must be reduced. That reality makes massive Federal investments 
unlikely. For example, the President's 2007 budget has only $18 billion 
to address the damage inflicted by Katrina.
    My solution would create a low-cost Federal financing mechanism to 
administer billions of dollars in zero-interest loans every year to 
localities for infrastructure projects. Financing costs for any project 
add substantially to the cost of the project, therefore zero interest 
loans make local dollars go significantly further. States would be 
totally responsible for choosing which projects to fund with the loans 
according to their specific needs.
    This bill would create the Federal Bank for Infrastructure 
Modernization (FBIM). The bank, as an extension of the Federal 
Financing bank under the Treasury, would administer the loans. The 
loans would bear a small fee of one-quarter of 1 percent of the loan 
principle to cover the administrative costs of the FBIM.
    In order to provide the money for the loans, the FBIM would hold a 
portion of the Treasury securities that the Federal Reserve normally 
holds. By transferring billions of dollars annually to the FBIM, it 
would still allow the Fed to operate as it does now to add liquidity to 
the system. The Fed, instead of buying securities, would buy the 
mortgage loans of the states. This way, the FBIM's finances would be 
integrated by the Federal Open Market Committee so as not to disrupt 
its ability to promote economic stability.
    The actual amount could be varied so these funds could be used as a 
tool to foster stable economic growth. During times of economic 
slowdown, the FBIM could make more loans available to spur investment. 
During times of economic boom, the FBIM could make fewer loans 
available.
    The needs are so great that our old ideas just won't work. If we 
talk about the hundreds of billions of dollars needed to make 
infrastructure a workable, productive system, the sum overwhelms nearly 
every idea we've had in the past.
    The President's non-defense discretionary budget is $375.8 billion. 
The needs are much greater than that. Even for certain needs, like 
school construction, we would have to spend one-third of his budget. To 
repair structurally deficient bridges, we would have to spend one-
fourth of his budget. It is unimaginable that we will fully address 
even one of these areas.
    We must be creative. We must think of ways of solving problems that 
are outside-the-box. That is exactly what this proposal is and why it 
needs the support of the Budget Committee. The Committee's backing of 
this bill reflects an understanding that our nation is asking for 
innovative, bipartisan solutions.
    The Federal Bank for Infrastructure Modernization is a tool for 
leveraging the necessary funds. Cities and states would still be 
responsible for paying the net cost of the project, but by making the 
loans zero-interest, it cuts the overall cost of the project in half. 
This is a workable solution that goes a long way in addressing 
infrastructure needs.
    I come here today to seek the support of the Budget Committee. With 
your leadership, this bill could provide the ingenuity, the essential 
boost that projects need.

    Mr. Diaz-Balart [presiding]. We will start with Mr. Miller. 
Mr. Miller, you are recognized, sir. Thank you for being here 
today.

  STATEMENT OF HON. BRAD MILLER, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF NORTH CAROLINA

    Mr. Miller. Thank you, Mr. Chairman. And thank you for this 
opportunity to testify about our Nation's budget priorities. I 
actually have little quarrel with what the President said in 
his State of the Union about what we need to do to compete in 
an unforgiving world economy, but I am dumbfounded by what came 
just days later.
    Mr. Diaz-Balart. Mr. Miller, if you would press the 
microphone button and make sure we can get your statement on 
the record.
    Mr. Miller. Mr. Chairman, again, thank you for the 
opportunity to appear today and to testify about our Nation's 
budget priorities. Specifically on the point of 
competitiveness, I actually have little quarrel with what the 
President said in his State of the Union, but I was dumbfounded 
by what came just days later when the President submitted his 
proposed budget. I wondered, did any of the people who wrote 
the President's speech actually talk to any of the folks who 
prepared the budget? Did the folks who prepared the budget even 
watch the speech on television? Did they go to the refrigerator 
just when the President talked about American competitiveness?
    Unfortunately, it was not the first time that I have seen a 
jarring difference between what the President said in the State 
of the Union and what was in his budget. Mr. Chairman, I will 
spare you the hackneyed Yogi Berra quotation about deja vu, but 
there is another Yogi Berra quotation that fits here: You can 
observe a lot just by watching.
    Here is what I have observed about this administration from 
watching the President's State of the Union and from the 
proposed budget that comes a week or so later. The President's 
rhetoric about helping working Americans hits the mark. The 
budget completely misses.
    In 2004 and again last year, the President praised the 
important role of community colleges in job training. In 2004, 
the President proposed a new $250 million job-training program 
in community colleges. The funding for that new program was a 
little hard to find in the President's proposed budget, but 
Congress that year did fund, did appropriate $250 million for 
the program. Unfortunately, half of the appropriation came 
dollar for dollar from the Federal Dislocated Workers 
Assistance Program, a program that already did pretty much what 
the President said his new program would do. Last year, 
Congress provided no funds for the new community college 
initiative, but the Federal Dislocated Workers Assistance 
Program did not get the $125 million back. In fact, programs 
that train new and dislocated workers have been cut by about 
$120 million over the last three appropriation cycles. In this 
year's State of the Union, the President did not mention 
community colleges at all, to the great relief of all of us who 
really care about community colleges. But this year the 
President announced a new American Competitiveness Initiative.
    Mr. Chairman, I do care deeply about our need for science 
and math education, for research funding, for energy 
independence. I was pleased to hear the President lend his 
voice to those concerns. I should have known to worry instead.
    The President's proposed budget actually cuts science 
funding. The President would decrease the Federal science and 
technology budget by almost $600 million. Oceanographic and 
atmospheric research is cut almost 10 percent. Now, research 
into nuclear energy would increase by almost a third, but 
research into renewable energy and energy efficiency, including 
the new switchgrass initiative, is increased by only 4 percent. 
Other programs that are vital to our Nation's competitiveness, 
programs that have proven results in creating and saving 
American jobs, would either be eliminated or cut drastically.
    The proposed budget would cut the Manufacturing Extension 
Partnership by 56 percent. The National Institute of Standards 
and Technology (NIST) of the Department of Commerce, would 
suffer a 23-percent decrease in funding, including all funding 
for the Advanced Technology Program, one of the few sources of 
patient capital for commercialization of new technologies.
    Mr. Chairman, if we really want to match action on 
competitiveness to rhetoric, and I do, here is where we should 
start: Fully fund the President's community college job-
training program and restore the $125 million taken from the 
Federal Displaced Workers Assistance Program. In general, 
protect funding for career and technical programs in community 
colleges that provide help for the unemployed and for those 
trying to improve their job skills.
    Now, we also need to protect funding for microloans and 
business assistance programs that help low-income entrepreneurs 
who do not have access to traditional capital markets, and 
provide full funding for the Small Business Administration 
Small Business Loan Program that has accounted for 30 percent 
of all long-term business lending. And, Mr. Chairman, as you 
must know, the vast majority of new jobs is created by small 
businesses in this country.
    We need to increase funding for the Manufacturing Extension 
Partnership (MEP). The MEP program has helped North Carolina, 
my State, helped North Carolina businesses save $85.6 million 
in 2002 alone. We need to provide full funding for the Advanced 
Technology Program, the ATP, that amounts to $79 million, and 
find other ways to help new technology cross the valley of 
death from the laboratory to the marketplace.
    Mr. Chairman, we need to make a real commitment to science 
and math education, to research and innovation, not just give 
lip service to those needs.
    Mr. Chairman, after having now watched four States of the 
Union and four budgets as a Member of Congress, I can offer 
this observation: If we can't get the speech writers and the 
budget writers to speak to each other, to talk to each other, 
maybe we can get them to switch jobs. Let the speech writers 
write the budget, let the budget writers write the speech. Mr. 
Chairman, the speeches are a lot better than the budgets, and 
the budgets are what really matter. Thank you.
    [The prepared statement of Mr. Miller follows:]

 Prepared Statement of Hon. Brad Miller, a Representative in Congress 
                    From the State of North Carolina

    Mr. Chairman, thank you for the opportunity to testify today about 
our nation's budget priorities.
    I actually have little quarrel with what the President said in his 
State of the Union about what we need to do to compete in an 
unforgiving world economy. But I am dumbfounded by what came just days 
later when the President submitted his proposed budget.
    I wondered: Did any of the people who wrote the President's speech 
actually talk to any of the folks who prepared the proposed budget? Did 
the folks who prepared the budget even watch the speech on television? 
Did they go to the refrigerator just when the President talked about 
American competitiveness?
    Unfortunately, it was not the first time that I have seen a jarring 
difference between what the President said in the State of the Union 
and what was in his budget. I will spare you the hackneyed Yogi Berra 
quotation about deja vu.
    But there is another Yogi Berra quotation that fits here: you can 
observe a lot just by watching.
    Here is what I have observed about this administration from 
watching the president's State of the Union address and the proposed 
budget that comes a week or so later. The President's rhetoric about 
helping working Americans hits the mark. The budget completely misses.
    In 2004 and again last year, the President praised the important 
role of community colleges in job training. In 2004, the President 
proposed a new $250 million job training program in community colleges. 
The funding for the new program was a little hard to find in the 
proposed budget, but Congress that year did appropriate $250 million. 
Unfortunately, half the appropriation came dollar for dollar from the 
Federal Dislocated ``Worker Assistance Program, a program that already 
did pretty much what the President said his new program would do.
    Last year, Congress provided no funds for the new community college 
initiative, but the Federal Dislocated Worker Assistance Program did 
not get the $125 million back. In fact, programs that train new and 
dislocated workers have been cut by about $120 million over the last 
three appropriations cycles.
    In this year's State of the Union, the President did not mention 
community colleges at all, to the great relief of all of us who care 
about community colleges.
    This year the President announced a new American Competitiveness 
Initiative. Mr. Chairman, I care deeply about our need for science and 
math education, for research funding, and for energy independence. I 
was pleased to hear the President lend his voice to those concerns.
    I should have known to worry instead.
    The President's proposed budget actually cuts science funding. The 
President would decrease the Federal Science and Technology Budget by 
almost $600 million. Oceanographic and atmospheric research is cut by 
almost 10 percent. Research into nuclear energy would increase by more 
than a third, but research into renewable energy and energy efficiency, 
including the new switchgrass initiative, is increased by only 4 
percent.
    Other programs that are vital to our nation's competitiveness, 
programs that have proven results in creating and saving American jobs, 
would either be eliminated or cut drastically. The proposed budget 
would cut the Manufacturing Extension Partnership by 56 percent. The 
National Institute of Standards and Technology of the Department of 
Commerce (``NIST '') would suffer a 23-percent decrease in funding, 
including all funding for the Advanced Technology Program, one of the 
few sources of ``patient capital'' for the commercialization of new 
technologies.
    Mr. Chairman, if we want to match action on competitiveness to 
rhetoric, and I do, here's where we should start: fully fund the 
President's new community college job training program, and restore the 
$125 taken from the Federal Displaced Worker's Assistance Program. In 
general, protect funding for career and technical programs that provide 
help for the unemployed and for those trying to improve their job 
skills.
    We need to protect funding for microloans and Business Assistance 
Programs that help low-income entrepreneurs who do not have access to 
traditional capital markets, and provide full funding for the Small 
Business Administration's small business loan programs, that has 
accounted for 30 percent of all long-term small business lending.
    We need to increase funding for the Manufacturing Extension 
Partnership. MEP programs helped North Carolina businesses save $85.6 
million in 2002 alone.
    We need to provide full funding for the Advanced Technology 
Programs, $79 million, and find other ways to help new technologies 
cross the ``valley of death'' from the laboratory to the marketplace.
    And we need to make a real commitment to science and math 
education, to research and innovation.
    Mr. Chairman, after watching four States of the Union and four 
budgets as a Member of Congress, I offer this observation: If we can't 
get the speechwriters and the budget-writers to talk to each other, 
maybe they can switch jobs. Let the speechwriters write the budget, and 
let the budget-writers write the speech.
    Mr. Chairman, the speeches are a lot better than the budgets, and 
the budgets are what really matter.

    Mr. Diaz-Balart. Thank you very much, sir. We appreciate 
you coming down here and letting us know what your priorities 
are. Thank you very much, sir.
    Mr. Miller. Thank you.
    Mr. Diaz-Balart. And now we will listen to Mr. Robin Hayes, 
also from the great State of North Carolina. It is a privilege, 
sir, to have you here with us today. It always is.

  STATEMENT OF HON. ROBIN HAYES, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF NORTH CAROLINA

    Mr. Hayes. Mr. Chairman, I was thinking the same thing. I 
am pleased to appear before you and appreciate your time, 
effort, and patience on this important subject. Thank you for 
allowing me the opportunity to testify before the committee 
today. There are several topics I would like to highlight: 
funding for Community Development Block Grants, veterans health 
care, Impact Aid, and Department of Agriculture programs.
    Mr. Chairman, I would first like to address the proposed 
cuts in funding to the Community Block Grant Program. The 
program provides local municipalities the opportunity to 
provide services to the most vulnerable, create jobs, and 
expand businesses, provide safe and affordable housing, and 
leverage considerable private sector investment in communities.
    In my district, which has been particularly hard hit by the 
loss of textile and manufacturing businesses, CDBG program has 
provided critical assistance to help keep towns on their feet. 
The CDBG enables local governments the flexibility, provides 
them the flexibility to design programs that are most effective 
to meet their specific needs. I urge the committee to make 
every effort possible to keep this important program funded at 
or above fiscal year 2006 level.
    As you know, the 2007 budget proposal for Veterans Affairs 
totals $80.6 billion, including $42 billion in mandatory 
funding to support benefit programs for our Nation's veterans 
and $36 billion for medical care. Though this is a 12.2-percent 
health care funding increase from 2006, as the number of 
veterans grows and health care costs exponentially increase, it 
is important that we provide the maximum possible level of 
funding for your care. As you and your committee begin 
assembling the budget resolution for 2007, I ask you to do 
everything in your power to adequately fund programs for our 
Nation's veterans. Providing quality affordable and accessible 
health care services to our Nation's veterans is a top priority 
for me as a Member of Congress, and must remain a priority for 
us all.
    In my district of North Carolina, I have fought for a new 
community-based outpatient clinic known as CBOC so that local 
veterans would have improved health care access. I am very 
pleased the Department of Veterans Affairs has announced they 
will be establishing a CBOC, and looking forward to working 
with them and fellow Members on providing funding for VA health 
care facilities across the country. During the time we are 
calling on the military to do so much, fully funding VA health 
care sends a strong message that we will take care of those who 
serve.
    As you craft the resolution, there many difficult 
challenges to overcome, central priorities such as providing 
for our men and women in uniform, ensuring our national 
security through continuing operations in the global war on 
terrorism, reducing the deficit and taking care of our domestic 
needs. So when you focus on these important priorities, I ask 
that you consider reducing the funding for foreign operations. 
We have so many needs here at home, sending American taxpayer 
dollars to fund programs in other countries, international 
organizations such as the U.N., should not be a top priority. 
We must take care of our own first before sending aid overseas. 
Before allocating money for foreign programs, I urge you to 
increase funding for veterans programs and fully fund military 
requirements.
    Mr. Chairman, another issue important to our military 
families is Impact Aid. Funded in both defense and education, 
this critical program acts like Uncle Sam's tax payment on land 
owned by the Federal Government and is vital in sustaining 
local school districts that derive no property tax revenue from 
military bases. The overall issue and the importance of Impact 
Aid is illustrated by my district in North Carolina, which are 
typical of many places around the country, with military bases 
often the largest employer and land owner. The Eighth District 
in North Carolina is home to Fort Bragg and Pope Air Force 
Base. Cumberland and Hope Counties are enormously proud of 
their affiliation with the military installations. Impact Aid 
payments, essentially frozen, the numbers of students returning 
to our schools from overseas posts with the military 
increasing, the gap in payments is widening both at home and 
across the Nation.
    Mr. Chairman, we must do more this year to recognize this 
burden on our local school districts and increase funding for 
Impact Aid. As cochair of the 130-member House Impact Aid 
Coalition, I want to work with you to provide a modest increase 
in the Department of Education funding to cover the Federal 
Government's obligation to these school districts; also 
increasingly concerned about how BRAC and global rebasing is 
affecting our local schools. A potential increase of 35- to 
45,000 students, Congress must step up to meet the needs of 
these children in our schools. We cannot leave our school 
districts lacking the funding. Department of Defense funding 
for Impact Aid is essential, and we have to send a clear 
message to the military families we will take care of their 
children.
    As we seek to prepare students for the 21st century 
workforce, community colleges in my district are concerned 
about funding for Carl Perkins vocational and technical 
education. Funding is vital for retraining, and I fear 
eliminating the program may leave behind students in programs 
that provide hands-on workforce education in growing trades of 
our economy.
    Eighth District farmers continue to express to me their 
strong opposition to the President's budget regarding 
agricultural issues, thousands of producers in communities that 
depend on a strong agricultural economy and Federal programs. 
It is important to note, spending on agricultural programs is 
lower than expected when the farm bill was passed. Through 
2005, commodity program costs were $19 billion lower than CBO 
projected when the farm bill was passed, and the recent 
reconciliation bill also was aided by cuts in agricultural 
programs. Appropriation bills have increasingly reduced 
mandatory funding for conservation, rural development, 
research, and renewable energy; 2006 reduction is $1.7 billion. 
In addition, the recently enacted budget reconciliation bill is 
projected by CBO to reduce Agriculture Committee spending by 
$3.7 billion. A disproportionate burden of the reduction is 
placed on America's farmers.
    As you know, the farm bill is a 5-year bill, and the 5-year 
nature of the bill brings certainty to producers who make their 
business plans based upon agricultural programs. Changing 
provisions in the law brings a massive amount of uncertainty to 
farm assistance. The House Ag Committee is right in the process 
of having hearings throughout the Nation, first held in 
Fayetteville, North Carolina. I can assure you there is 
consensus of farmers who attended the field hearing to change 
farm programs during reauthorization for the next farm bill, 
not piecemeal during the annual budget process.
    I also would like to stress my support for funding our 
conservation initiative and other issues that farmers bring up 
during farm bill field hearings. Producers are very supportive 
of incentive-based conservation initiatives such as Equip and 
CRP. Important programs have been a major success in rehabbing 
wildlife and improving the environment. Hopefully, we will 
continue to support these programs that are important to our 
Eighth District farmers.
    Mr. Chairman, thank you very, very much for the 
opportunity, for your attention, and for the ability for me to 
testify before your committee on these programs. I appreciate 
your consideration and look forward to working with you on the 
2007 budget. Thank you very much.
    [The prepared statement of Mr. Hayes follows:]

 Prepared Statement of Hon. Robin Hayes, a Representative in Congress 
                    From the State of North Carolina

    Mr. Chairman, thank you for allowing me the opportunity to testify 
before the Committee today. There are several topics I would like to 
highlight: funding for Community Development Block Grants, Veteran's 
health care, Impact Aid, and Department of Agriculture programs.
    Mr. Chairman I would first like to address the proposed cuts in 
funding to the Community Development Block Grant Program (CDBG's). The 
CDBG program provides local municipalities the opportunity to provide 
services to the most vulnerable, create jobs and expand businesses, 
provide safe and affordable housing, and leverage considerable private 
sector investment in communities.
    In my District, which has been hit particularly hard by the loss of 
textile and manufacturing businesses, the CDBG program has provided 
critical assistance to help keep towns on their feet.
    CDBG's enable local governments the flexibility to design programs 
that are most effective to meet their specific needs. I urge that the 
Committee make every effort to keep this important Program funded at or 
above Fiscal Year 2006's level.
    Mr. Chairman, our country's veterans answered the call when America 
needed them, and their service ensures that all Americans can live in 
freedom. This is why it is so vitally important that we honor their 
service by making certain that they receive the quality health care 
they have more than earned. Caring for our older veterans and giving 
them the best access to quality health care is our duty as a nation and 
as we continue to sustain operations in support of the Global War on 
Terrorism, it is imperative we send a strong signal to these active 
duty forces that our nation will indeed care for them when they return 
home.
    As you know, the President's FY 2007 budget proposal for the 
Department of Veterans' Affairs totals $80.6 billion, including $42 
billion in mandatory funding to support benefits programs for our 
nation's veterans and $36 billion for Medical Care. Though this is a 
12.2-percent health care funding increase from 2006, as the number of 
veterans grows and health care costs exponentially increase, it is 
important that we provide the maximum possible of level of funding for 
their care. As you and your committee begin assembling the budget 
resolution for Fiscal Year 2007, I ask that you do everything in your 
power to adequately fund programs for our nation's veterans.
    Providing quality, affordable, and accessible health care services 
to our nations' veterans is a top priority for me as a Member of 
Congress, and must remain a priority for us all. In my District in 
North Carolina, I fought for a new Community Based Outpatient Clinic 
(CBOC) so that local veterans would have improved VA health care 
access. I am very pleased that the Department of Veterans' Affairs has 
recently announced that they will be establishing a CBOC in the 8th 
District of North Carolina and look forward to working with them, and 
my fellow Members of Congress, on providing the necessary funding for 
VA health care facilities across the country. During this time when we 
are calling on our military to do so much, fully funding VA health care 
sends a strong message that we will take care of those who serve.
    As you craft the budget resolution for Fiscal Year 2007, there are 
many difficult challenges to be overcome. We must focus on essential 
priorities such as providing for our men and women in uniform, ensuring 
our national security through continuing operations in the Global War 
on Terrorism, reducing the deficit, and taking care of our domestic 
needs. So that we may focus on these important priorities, I ask that 
you consider reducing the funding for foreign operations. When we have 
so many needs here at home, sending American tax payer dollars to fund 
programs in other countries and international organizations should not 
be a top priority. We must ``take care of our own first'' before 
sending aid overseas. Before allocating money for foreign programs, I 
urge you to increase funding for veterans programs and fully fund our 
military requirements.
    Mr. Chairman, another issue important to our military families is 
Impact Aid. Funded in both Defense and Education, this critical program 
acts like Uncle Sam's tax payment on land owned by the Federal 
Government and is vital to sustaining local school districts that 
derive no property tax revenue military bases. The overall issue of the 
importance of the Impact Aid program is illustrated by my own District 
in North Carolina, which are typical of many places across the country 
with military bases often the largest employers and land owners.
    The 8th District of North Carolina is home to Fort Bragg and Pope 
Air Force Base, and Cumberland and Hoke counties are enormously proud 
of their affiliation with these local military installations. But with 
Impact Aid payments essentially frozen and the number of students 
returning to our schools from overseas posts with the military 
increasing, the gap in payments is widening, both at home and across 
the nation. Mr. Chairman, we must do more this year to recognize this 
burden on our local school districts and increase funding for Impact 
Aid. As Co-Chair of the 165 member House Impact Aid Coalition, I want 
to work with you, Mr. Chairman, to provide a modest increase in 
Department of Education funding to cover the Federal Government's 
obligation to these school districts.
    I am also increasingly concerned about how BRAC and global rebasing 
is affecting our local schools. With a potential increase of 35,000 to 
45,000 students, Congress must step up to meet the needs of these 
children and our schools. We cannot leave our school districts lacking 
funding and facilities to support these children. With this in mind, I 
urge my colleagues to include 50 million dollars in Department of 
Defense funding for Impact Aid and to send a clear message to our 
military families---we are going to take care of their children whether 
they are educated at overseas posts or here stateside.
    As we seek to prepare our students for the 21st century workforce, 
Community Colleges in my District are concerned about funding for the 
Carl D. Perkins Vocational and Technical Education Act. This funding is 
vital to my District for retraining and I fear that by eliminating the 
Perkins program, we may leave behind students and programs that provide 
hands on workforce education in the growing trades of our economy.
    The 8th District farmers continue to express to me their strong 
opposition to the President's budget regarding agriculture issues. We 
have thousands of producers and communities that depend on a strong 
agricultural economy and Federal agriculture programs.
    It is important to note that spending on agriculture programs is 
lower than expected when the farm bill was passed. Through FY 05, 
commodity program costs were $19 billion lower than CBO projected when 
the farm bill was passed. Appropriations bills have increasingly 
reduced mandatory funding for conservation, rural development, research 
and renewable energy. For FY 06, the reduction was $1.7 billion. In 
addition, the recently enacted budget reconciliation bill is projected 
by CBO to reduce agriculture committee spending during the FY 06 to FY 
10 reconciliation period by $3.7 billion. This continues to bring a 
disproportionate burden of deficit reduction on America's farmers and 
rural communities.
    As you know, the 2002 Farm Bill is a 5 year bill. The 5-year nature 
of the bill brings certainty to producers who make their business plans 
based upon these agriculture programs. Changing provisions of the law 
brings a massive amount of uncertainty to farm assistance. The House 
Agriculture Committee is already in the process of having Farm Bill 
field hearings throughout the nation and we most recently had one in 
Fayetteville, North Carolina. I can assure you that the consensus from 
the farmers who attended the field hearing is to change the farm 
programs during reauthorization of the next farm bill, not piecemeal 
during the annual budget process.
    I would also like to stress my support for funding our conservation 
initiatives. This is another issue that farmers continue to bring up 
during Farm Bill field hearings. Producers are very supportive of 
incentive based conservation initiatives, such as EQIP and CRP. These 
important programs have been a major success in rehabilitating wildlife 
and improving the environment. I am hopeful that you will continue to 
support agriculture programs that are important to 8th District 
farmers.
    Mr. Chairman, thank you for the opportunity to testify before your 
Committee about these important programs. I appreciate your 
consideration and look forward to working with you on the Fiscal Year 
2007 budget.

    Mr. Diaz-Balart. Thank you very much, Mr. Hayes. Appreciate 
your leadership and you coming out here and speaking to us 
today, as well as Mr. Miller also from the great State of North 
Carolina. Thank you, both. Thank you, gentlemen.
    Now we will recognize Mr. Mark Kennedy. Thank you, sir. 
Thank you for being here. We appreciate you being here, and we 
look forward to your testimony.

STATEMENT OF HON. MARK R. KENNEDY, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF MINNESOTA

    Mr. Kennedy. Well, thank you, Chairman. We appreciate you 
taking the time to let us express the concerns we have. And I 
have concerns with a number of areas in the budget, but I am 
here today to have my voice joined with that of Representative 
Terry of Nebraska as we oppose again the misguided proposal to 
eliminate the Edward Byrne Justice Assistance Grant Program 
(JAG).
    Mr. Chairman, the Byrne JAG program is a critical source of 
funding for more than 800 antidrug task forces in practically 
every, if not every, State of the Union. Byrne JAG funding is 
essential to help State and local police officers identify and 
dismantle local, State, and regional drug-trafficking 
syndicates. Federal Government law enforcement agents rely on 
the information from Byrne JAG task force to identify and 
disrupt international drug-trafficking rings. If Byrne JAG 
funding is eliminated, as the President has proposed, the 
successful interagency law enforcement infrastructure that has 
led to the lowest U.S. violent crime rates in 30 years will 
disappear.
    Additionally, Byrne JAG has been a key weapon in the fight 
against illegal drugs like methamphetamine. Mr. Chairman, for a 
long time many thought meth was a problem for the Southwestern 
and Western States, or that it was a rural problem that 
wouldn't get into the suburbs or the cities. That thinking 
brought us a trail of destruction across the country from San 
Diego to the Shenandoah Valley. Since 2001, police officers 
have dismantled over 50,000 clandestine meth labs nationwide. 
However, according to Attorney General Gonzales, the number of 
meth cases filed nationwide quadrupled over the last decade. 
Without Byrne JAG, State and local law enforcement will not be 
able to fight this growing problem in the way they need to.
    Last year the Senate voted to fund at $900 million. 
However, the 2006 Science-State-Justice Appropriations Act 
conference report contained just over $400 million, a 
devastating cut from the previous year's level of $634 million, 
and a far cry from the authorized level of $1.1 billion 
approved just last year.
    The tangible results of last year's cuts have been seen in 
now at least three States that have been forced to respond. 
Texas was forced to eliminate its Byrne JAG Task Force. New 
Jersey is considering the same due to budget constraints. And 
my own State of Minnesota is struggling to fill the void we 
left last year with State money so that it can continue these 
effective law enforcement task forces. Who will be there to 
protect our children from those making and pushing poisons like 
meth if the House approves the elimination of the Byrne Justice 
Assistance Grant program?
    Mr. Chairman, we cannot allow the Byrne JAG grants to be 
eliminated. Maintaining our successful fight against the spread 
of meth and other drugs requires that we fund the Byrne JAG 
program to at least the $900 million figure passed by the 
Senate last year. The Byrne JAG program is an important tool in 
our fight against drugs and violent crime, and it is absolutely 
critical we continue to fund this program this year.
    Mr. Chairman, let us show the law enforcement officers who 
wake up every morning to protect our families that we stand 
with them in the fight against drugs and violent crime. Let us 
save the Byrne JAG program. With that plea, Mr. Chairman, I 
yield back the balance of my time.
    Mr. Diaz-Balart. Thank you, Congressman Kennedy. Thank you 
for that very passionate plea. I appreciate your being here, 
appreciate your passion on an issue that obviously is very 
important to you.
    Mr. Kennedy. Thank you so much, Chairman.
    Mr. Diaz-Balart. Thank you, sir.
    [The information referred to follows:]

    Prepared Statement of Hon. Mark R. Kennedy, a Representative in 
                  Congress From the State of Minnesota

    Mr. Chairman, I want to thank you for holding this hearing so that 
you can gain the input of fellow Members as you wrestle with the FY07 
budget request submitted by the president last Monday.
    I want to add my voice with my friend Rep. Terry of Nebraska, as we 
again oppose the misguided proposal to eliminate the Edward Byrne-
Justice Assistance Grant (JAG) program.
    Mr. Chairman, the Byrne-JAG program is a critical source of funding 
for more than 800 anti-drug task forces in practically every, if not 
every, state of the union.
    Byrne-JAG funding is essential to help state and local police 
officers identify and dismantle local, state and regional drug 
trafficking syndicates.
    Federal law enforcement agents rely on information from Byrne-JAG 
task forces to identify and disrupt international drug trafficking 
rings.
    If Byrne-JAG funding is eliminated, as the President has proposed, 
the successful interagency law enforcement infrastructure that led to 
the lowest U.S. violent crime rates in 30 years will disappear.
    Additionally, Byrne-JAG has been a key weapon in the fight against 
illegal drugs like methamphetamine.
    Mr. Chairman, for a long time many thought meth was a problem for 
the Southwestern and Western states, or that it was a rural problem 
that wouldn't get to the suburbs or the cities.
    That thinking brought us a trail of destruction across the country, 
from San Diego to the Shenandoah Valley.
    Since 2001, police officers have dismantled over 50,000 clandestine 
meth labs nationwide.
    However, according to Attorney General Gonzales, the number of meth 
cases filed nationwide quadrupled over the past decade.
    Without Byrne-JAG, state and local law enforcement will not be able 
to fight this growing problem.
    Last year, the Senate voted to fund Byrne-JAG at $900 million.
    However, the FY2006 Science, State, Justice Appropriations Act 
Conference Report contained just over $400 million--a devastating cut 
from the previous year's level of $634 million, and a far cry from the 
authorized level of $1.1 billion approved just last year.
    The tangible results of last year's cut have been seen in how three 
states were forced to respond: Texas was forced to eliminate its Byrne-
JAG task forces. New Jersey is considering the same due to budget 
constraints. My own state of Minnesota is struggling to fill the void 
we left last year with state money so it can continue these effective 
law enforcement task forces.
    Who will be there to protect our children from those making and 
pushing poisons like meth if the House approves the elimination of the 
Byrne-Justice Assistance grant program?
    Mr. Chairman, we cannot allow the Byrne-JAG grants to be 
eliminated.
    Maintaining our successful fight against the spread of meth and 
other drugs requires that we fund the Byrne-JAG program at at least the 
$900 million figure passed by the Senate last year.
    The Byrne-JAG program is an important tool in our fight against 
drugs and violent crime, and it is absolutely critical we continue to 
fund this program in FY07.
    Mr. Chairman, let's show the law enforcement officers who wake up 
every morning to protect our families that we stand with them in the 
fight against drugs and violent crime--let's save the Byrne-JAG 
program.
    With that plea, Mr. Chairman, I yield back the balance of my time.

    Mr. Diaz-Balart. Now we go to the great State of Florida, 
Congresswoman Brown-Waite. It is always good to see you again.

   STATEMENT OF HON. GINNY BROWN-WAITE, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Ms. Brown-Waite. Thank you very much, Mr. Chairman. I do 
miss being on the Budget Committee, and welcome this 
opportunity to be back, and appreciate your giving me this time 
to speak to the committee today.
    This hearing is a wonderful opportunity for Representatives 
across our great country to express their views on the 
President's budget proposal for the 2007 fiscal year. Mr. 
Chairman, there is no doubt that the State of our Nation's 
finance is grim. The budget deficit is undeniable and requires 
immediate action. As Members of Congress, we all have an 
obligation to ensure that the burden is not passed on to our 
grandchildren.
    The President's budget takes steps toward achieving fiscal 
responsibility by keeping the growth of government programs to 
a minimum. Most importantly, the budget takes into account the 
dangers America faces every day, increasing funding for 
programs vital to our national security, and providing support 
to the men and women of our great Armed Forces.
    That having been said, we have an obligation to keep our 
promises to those who have defended our freedoms. As you may be 
aware, my district is home to nearly 107,000 veterans. I have 
more than any other Member of this House. I have the 
extraordinary charge to advocate for policies and legislation 
that best care for veterans' needs. Since 2001, before you and 
I were here, Mr. Chairman, and certainly continued since then, 
Republicans have increased the VA's budget authority by 47 
percent. This year is no different. The 2007 proposal would 
increase the budget for the Department of Veterans Affairs by 
another $8.8 billion. At $80.6 billion in total budget 
authority, this request represents a 12.2-percent increase over 
the 2006 budget.
    Among other things, the President's plan would increase 
funding for VA medical programs by 11 percent and take into 
account the growing importance of the mental health of our 
veterans, particularly those returning from Iraq and 
Afghanistan. Total funding for mental health services would 
increase by $339 million, for a total of $3.2 billion. With 
thousands of our young men and women returning from Iraq and 
Afghanistan, some of whom are experiencing the effects of 
posttraumatic stress disorder, it is imperative that Congress 
provide the resources necessary to care for these individuals.
    Despite the many positive effects of this proposal, it 
should be noted that the budget is not perfect. I am troubled 
by this year's budget proposal once again that it includes a 
$250 annual enrollment fee and an increase in prescription drug 
copays for Category 7 and 8 veterans. At the same time we are 
asking veterans to pay more, the President's budget proposes 
increasing foreign aid to organizations and governments that in 
some instances oppose the very foundations of American ideals 
of democracy and freedom.
    As you remember, the President offered a similar proposal 
last year only to meet stiff resistance in Congress. Category 8 
veterans as classified by the Department of Veterans Affairs 
are individuals who have served our Armed Forces and have 
income and/or net worth above a means test threshold 
established by the VA and HUD geographic indexes. Category 7 
veterans are individuals whose incomes are above the VA means 
test threshold, but below the HUD geographic index. Veterans in 
these categories have already agreed to certain copayments for 
health care.
    Proponents of enrollment fees and higher copays actually 
estimate that 200,000 veterans would be discouraged from using 
the VA system, allowing the VA to focus on the neediest 
veterans. I fundamentally disagree that Congress should be 
discouraging veterans from using the VA system. We should be 
encouraging them. Category 7 and 8 veterans fought just as hard 
and just as nobly as their comrades did. This government should 
not penalize them for their financial status once they finish 
their service.
    I believe that veterans, regardless of age, disability, or 
income, deserve respect and help from the very same Nation that 
they served so proudly. These fees would be a monetary barrier 
and unnecessary burden to quality health care for so many 
veterans. It is unfair to ask the hard-working men and women 
who sacrificed so much defending our country to pay ever more 
for their health care expenses. Enrollment fees make the VA 
more expensive without even making it any better. TRICARE 
recipients pay fees and are guaranteed access to care, but 
veterans are once again being asked to pay enrollment fees with 
no such promises of access to care.
    We would be in denial if we didn't realize that health care 
costs are placing an extraordinary burden on the Department of 
Veterans Affairs health system. However, we won't solve this 
problem by merely shifting the burden to Category 7 and 8 
veterans who fought for our country. Congress does have an 
obligation to ensure that these individuals have access to 
quality health care as well. These brave men and women have 
made substantial sacrifices to ensure that we can all enjoy our 
freedom. These individuals answer the call in time of need. It 
is only fitting that we take care of them in their time of 
need.
    As this committee addresses the budget resolution for the 
2007 fiscal year, it is my sincere hope that you heed my advice 
and not include any proposal to increase fees for veterans 
health care.
    Mr. Chairman, thank you again for allowing me to testify 
before the committee today. And I yield back my time.
    [The prepared statement of Ms. Brown-Waite follows:]

   Prepared Statement of Hon. Ginny Brown-Waite, a Representative in 
                   Congress From the State of Florida

    Mr. Chairman, I would like to thank you for giving me the 
opportunity to testify before the Committee today. This hearing is a 
wonderful opportunity for Representatives from across the country to 
express their views on the President's budget proposal for the 2007 
fiscal year.
    Mr. Chairman, there is no doubt that the state of our nation's 
finances is grim. The budget deficit is undeniable and requires 
immediate attention. As Members of Congress, we have an obligation to 
ensure that this burden is not passed along to our grandchildren. The 
President's budget takes steps toward achieving fiscal responsibility 
by keeping the growth of government programs to a minimum. Most 
importantly, the budget correctly takes into account the dangers 
America faces every day, increasing funding for programs vital to our 
national security and providing support to the men and women of our 
armed forces.
    That having been said, we have an obligation to keep our promises 
to those who have defended our freedom. As you may be aware, my 
district is home to nearly 107,000 veterans, the most of any Member of 
the House of Representatives. I have an extraordinary charge to 
advocate for policies and legislation that best care for veterans' 
needs.
    Since 2001, Republicans have increased the VA's budget authority by 
47%. This year is no different. The 2007 proposal would increase the 
budget for the Department of Veterans' Affairs by another $8.8 billion. 
At $80.6 billion in total budget authority, this request represents a 
12.2-percent increase over the 2006 budget. Among other things, the 
President's plan would increase funding for VA medical programs by 11 
percent and take into account the growing importance of mental health. 
Total funding for mental health services would increase by $339 million 
to a total of $3.2 billion. With thousands of soldiers returning from 
Iraq and Afghanistan, some of whom are experiencing the effects of 
post-traumatic stress disorder, it is imperative that Congress provide 
the resources needed to care for these individuals.
    Despite the many positive aspects of this proposal, it should be 
noted that this budget is not perfect. I am troubled that this year's 
budget proposal once again includes a $250 annual enrollment fee and an 
increase in prescription drug co-pays for category 7 and 8 veterans. At 
the same time we are asking our veterans to pay more, the President's 
budget proposes increasing foreign aid to organizations and governments 
that oppose the very foundations of America's ideals of democracy and 
freedom.
    As you know, the President offered a similar proposal last year, 
only to meet stiff resistance in Congress. Category 8 veterans, as 
classified by the Department of Veterans' Affairs, are individuals who 
have served in our armed forces and have income and/or net worth above 
both a means test threshold established by the VA and the HUD 
geographic index. Category 7 veterans are individuals whose incomes are 
above the VA means test threshold but below the HUD geographic index.
    Veterans in these categories have already agreed to certain co-
payments for health care. Proponents of enrollment fees and higher co-
pays estimate that 200,000 veterans would be discouraged from using the 
VA health system, allowing the VA to focus on the neediest veterans.
    I fundamentally disagree with the position that Congress should be 
discouraging veterans from using the VA system. Category 7 and 8 
veterans fought just as hard and just as nobly as their comrades did. 
This government should not penalize them for their financial status 
once they finish their service. These fees would be a monetary barrier 
and unnecessary burden to quality healthcare for veterans.
    It is unfair to ask the hard-working men and women who sacrificed 
so much defending our country to pay ever more for their health care. 
Enrollment fees make the VA care more expensive without making it 
better. TRICARE recipients pay fees and are guaranteed access to care, 
but veterans are being asked to pay enrollment fees with no such 
promise. There is no doubt that rising health care costs are placing an 
extraordinary burden on the Department of Veterans Affairs Health 
System. However, we will not solve this problem by merely shifting the 
burden onto category 7 and 8 veterans who fought for this country.
    Congress has an obligation to ensure that these individuals have 
access to quality health care as well. These brave men and women have 
made substantial sacrifices to ensure that we can all enjoy our 
freedom. These individuals answered the call in our time of need; it is 
only fitting that we take care of them in theirs.
    As the committee drafts the budget resolution for the 2007 fiscal 
year, it is my sincere hope that you heed my advice and not include any 
proposal to increase fees for veterans' health care. Again, thank you 
for allowing me to testify before the committee today.

    Mr. Diaz-Balart. If I may, Congresswoman, last year in this 
committee you were the strongest vote, the strongest voice on 
behalf of the many veterans that obviously that you represent. 
And it should be no surprise to anybody that even though you 
are no longer on this committee, here you are once again 
advocating for those that you obviously have such passion for. 
We thank you for your leadership there. Last year you were 
instrumental; I am sure that we will see a lot of you on this 
issue in this year as well. I imagine that is going to happen. 
Correct?
    Ms. Brown-Waite. Absolutely, Mr. Chairman. I will 
personally lobby the members of this committee, as other 
Members. And I believe that Members on both sides of the aisle 
do want to do what is right by our veterans, as certainly 
evidenced by the increase historically in the veterans budget.
    Mr. Diaz-Balart. Appreciate that. Appreciate your 
leadership.
    Ms. Brown-Waite. Thank you.
    Mr. Diaz-Balart. Mr. Salazar, from the State of Colorado. 
It is great to have you here.

STATEMENT OF HON. JOHN T. SALAZAR, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. Salazar. Thank you very much, Mr. Chairman. I 
appreciate the opportunity to come before you today and voice 
my views on the Third Congressional District of rural America. 
I ask for unanimous consent to enter my full statement into the 
record.
    Mr. Diaz-Balart. Without objection.
    Mr. Salazar. Thank you, sir.
    I know you have heard from many of my colleagues today 
about where we should be heading as a Nation in our domestic 
programs. Now, this is only my second year in Congress, but my 
first year was a crash course on how this institution works. 
What I did learn is that in time we often forget about the 
people behind the numbers. We forget about the family farmers 
struggling to raise crops during times of drought and record 
high fuel prices. We forget about the lone doctor working to 
provide care for sometimes an entire county. But this is the 
world I live in back in the San Luis Valley of Colorado.
    As a member of the Blue Dog Coalition, I believe in fiscal 
discipline and responsible budgeting principles that include 
PAYGO spending and balancing the budget. This is no fancy math 
tricks, just plain, honest numbers. You may have to count on 
your pennies, but you spend your money most where it matters 
most to you and community.
    Over the past week I spent time reviewing the 
administration's proposed budget, and I am deeply concerned 
about the program cuts that I saw. From cuts to the AG 
commodity programs to downsizing the essential air service 
programs to cutting funds for rural outreach grants, this 
budget, Mr. Chairman, fails rural America, and I urge the 
Budget Committee to consider this as you begin to draft a 
budget blueprint to bring before this House.
    My time here is short, so I will not throw out too many 
numbers. Instead, my goal is to communicate one message: Rural 
America is the backbone of this great Nation, and we should not 
fail rural America.
    I have always said that there are two things that can bring 
this country down: our dependence on foreign oil, and our 
dependence on other countries to produce our food. By cutting 
vital programs such as crop and commodity programs, we place 
our domestic food supply in jeopardy. By reducing crop 
insurance premium subsidies, we again place our domestic food 
supply in jeopardy. Without family farmers, it will get harder 
to sustain efforts to build renewable energy projects. Without 
folks like Ernie Ford out in Central Colorado who grow potatoes 
and canola for canola oil for renewable energy such as 
biodiesel, we will feel the hit on food prices.
    Investing in rural America goes beyond supporting family 
farmers and ranchers. Just like big cities, we need 
infrastructure to keep trade and commerce flowing. Our 
communities need airport services and road expansions to keep 
pace. We need access to health care and good doctors. You 
cannot achieve these when the very programs meant to encourage 
growth are cut.
    We in rural America are working hard to redefine our role 
in the 21st century. We are looking at growth areas such as 
biofuels and capitalizing on unique landscapes for ecotourism, 
which brings valuable dollars and jobs to economically 
depressed areas. I am excited about the possibilities. I ask 
that this Budget Committee not fail rural America and instead 
acknowledge help. Programs like this are an investment in our 
Nation and in rural America.
    Third, I would like to end today by expressing my dismay 
that the President's budget funds his proposal to privatize 
Social Security. Ever since I introduced the Social Security 
Trust Fund Protection Act last year, I have called for both 
Democrats and Republicans to come together, and I was glad to 
hear the President say that he wanted to create a bipartisan 
commission to lead this effort. So the budget this week was a 
big surprise to me, $712 billion to privatize Social Security 
and billions more in benefit cuts. I had really hoped that we 
were ready to come together in good faith to find a solution.
    In rural America, Social Security keeps tens of thousands 
of seniors from falling into dire poverty. I hope that this 
committee will steer clear of efforts to privatize and 
dismantle Social Security. And as I sit before you today, I 
know that each of us has our country's best interests at heart.
    I would like to close by asking each one of you to make a 
personal commitment to support and invest in a region that 
often goes unrecognized for its cultural and economic 
contributions to our Nation.
    Once again, sir, I thank you for allowing me to testify 
today, and I look forward to working with each one of you for 
fiscal year 2007, and I would hope that we have a much happier 
answer and a much happier outcome than what the proposed budget 
is today. Thank you, sir.
    Mr. Diaz-Balart. Thank you, Mr. Salazar.
    [The prepared statement of Mr. Salazar follows:]

    Prepared Statement of Hon. John T. Salazar, a Representative in 
                  Congress From the State of Colorado

    Chairman Nussle and Ranking Member Spratt, thank you for the 
opportunity to testify before you today on the upcoming Budget 
Resolution for Fiscal Year 2007.
    I know you have heard from many of our colleagues today about where 
we should be heading as a nation with our domestic programs. I have 
said time and again that our budget is a moral document, it is about 
our priorities and values as a nation.
    Now, this is only my second year in Congress and my first year was 
a crash course on how this institution works. What I learned in that 
time is we often forget about the people behind the numbers. We forget 
about the family farmer struggling to raise crops during times of 
drought and record-high gas prices. We forget about the lone doctor 
working to provide care for sometimes an entire county. But this is the 
world I live in back in the San Luis Valley of Colorado.
    As a Blue Dog, I believe in fiscal discipline and responsible 
budgeting principles that include pay-as-you-go spending and balancing 
the budget. No fancy math tricks--just plain, honest numbers. I learned 
this lesson while running the family farm. I know what it means to work 
within a budget. You may have to count your pennies, but you spend your 
money where it matters the most to you and your community.
    Over the past week, I have spent time reviewing the 
Administration's proposed budget and I am deeply concerned about the 
program cuts that I saw. I cannot overemphasize how detrimental a 
budget like this would be to rural America. From cuts to the 
Agricultural Commodity programs to downsizing the Essential Air Service 
program to cutting funds for rural outreach grants, this budget fails 
rural America. And I urge the Budget Committee to consider this as you 
begin to draft a budget blueprint to bring before this House.
    My time here is short so I will not throw numbers at you. In my 
time here today, my goal is to communicate one message--rural America 
is the backbone of this great nation and we should not fail rural 
America. We cannot pass the burden of debt onto the backs of our 
farmers who work hard to put food on our family tables.
    I have always said that there are only two things that can bring 
this country down--our dependence on foreign oil and our dependence on 
other countries to produce our food. By cutting vital programs such as 
crop and commodity programs, we place our domestic food supply in 
jeopardy. By reducing crop insurance premium subsidies, we again place 
our domestic food supply in jeopardy.
    Without family farmers, it will get harder to sustain efforts to 
build renewable energy projects. Without folks like Ernie Ford who 
grows potatoes and canola out in Center, Colorado, we will feel the hit 
in prices at the grocery store and our own household budgets.
    Investing in rural America goes beyond supporting family farmers 
and ranchers. Just like the big cities, we need infrastructure to keep 
trade and commerce flowing. Our communities need airport service and 
road expansions to keep pace with the growing number of NAFTA trucks 
that barrel up the trade corridors. We need access to healthcare and 
good doctors, but you cannot achieve that when the very programs meant 
to encourage growth are cut.
    Rural America is working hard to redefine our role in 21st Century 
America. We are looking at growth areas such as bio-fuels and 
capitalizing on unique landscapes for ecotourism, which brings valuable 
dollars and jobs to economically depressed areas. I am excited about 
the possibilities. I ask that this Budget Committee not fail rural 
America, and instead begin to see how programs like these are an 
investment in our nation and in an area that does so much for our 
country.
    Finally, I would like to end today by expressing my dismay that the 
President's budget funds his proposal to privatize Social Security. 
Ever since I introduced the Social Security Trust Fund Protection Act 
last year, I have called for Democrats and Republicans to come together 
and I was glad to hear the President say he wanted to create a 
bipartisan commission to lead the effort.
    So the budget this week was a big surprise--$712 billion to 
privatize Social Security and billions more in benefit cuts. I had 
really hoped we were ready to come together in good faith to find a 
solution, but a sneak in provision is by no means an honest start.
    In rural America, Social Security keeps tens of thousands of people 
from falling into extreme poverty. Around the time we began this debate 
last year, I was approached by Amelia Valdez from Pueblo, CO, a woman 
about my own mother's age. She gave me a photograph of Franklin D. 
Roosevelt signing the Social Security Act into law and said with tears 
in her eyes: ``Hang it in your office as a reminder--please, do not let 
them dismantle my only source of income.''
    I hope this Committee will think of women like Amelia Valdez and 
steer clear of efforts to privatize and dismantle Social Security.
    As I sit before you today, I know each of us has our country's best 
interests at heart. There are many worthwhile and competing interests 
to consider as we move forward with the FY07 Budget Resolution. I would 
like to close by asking each of you to make a personal commitment to 
support and invest in a region that often goes unrecognized for its 
cultural and economic contributions to our nation.
    Mr. Chairman, Ranking Member Spratt: Once again, thank you for 
allowing me to testify today. I look forward to working with each of 
you this year to develop a budget that truly reflects America. I would 
be more than happy to answer any questions you may have at this time.

    Mr. Diaz-Balart. Appreciate you coming down here and 
testifying on issues that are important to you. It is important 
that the Budget Committee have an opportunity to hear you, so 
we thank you for your time.
    Mr. Salazar. We thank you for allowing me, sir.
    Mr. Diaz-Balart. Thank you, sir.
    We are waiting for one Member of Congress that we think is 
on his way here, so what we will do is take a short break at 
the call of the Chair until the time that Member shows up.
    [Recess.]
    Mr. Diaz-Balart. We are called back to order. Mr. 
Fitzpatrick from Pennsylvania is here to testify before the 
Budget Committee now.
    And it is a pleasure to have you here, sir. The floor is 
yours.

 STATEMENT OF HON. MICHAEL G. FITZPATRICK, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF PENNSYLVANIA

    Mr. Fitzpatrick. Thank you for the opportunity to appear 
before you today to express my hopes and my reservations with 
respect to the President's Federal budget request for fiscal 
year 2007.
    After taking a week to carefully review the President's 
budget request, I discovered some encouraging proposals to 
assist the Nation on the road toward ensuring our independence 
on foreign oil, expanding math and science education, and 
supplying our troops with the equipment they need to fight and 
to win the war on terror. While there are many encouraging 
proposals incorporated within the President's budget, there are 
some spending decisions that do concern me, especially one that 
directly affects my constituents. That program is the USDA 
National Resource Conservation Service Flood Mitigation 
Program. And I want to focus on the President's decision to 
zero out his funding today.
    I agree that the government must be fiscally responsible 
with taxpayers' money. Federal spending over the course of the 
past 5 years has risen faster than at any time during the past 
four decades. In addition, the Nation faces a costly war in 
Iraq, Hurricane Katrina clean-up costs, and rising entitlement 
spending. The largest entitlement programs, Medicare, Medicaid, 
and Social Security, are projected to cost $1.132 trillion this 
year and account for about 42 percent of the entire Federal 
budget, as Congressional Budget Office figures show. By 
comparison, defense is 15.8 percent of the 2007 budget. As a 
result, budget deficits remain high and are expected to soar 
when the baby boom generation begins to retire over the next 
few years.
    We need to slow the growth of Federal spending in order to 
regain control over the spiraling costs of our mandatory 
programs. The recent passage of the Deficit Reduction Act will 
place the government on the path to fiscal responsibility and 
slowed growth. The economy is primed for this, as yesterday's 
announcement of the government posting its first surplus in 3 
years demonstrates. Tax receipts surpassed spending by $10.98 
billion in December, the result of congressional action to cut 
taxes and spur investment in our economy. Our policies are 
working, and Congress must now focus on cutting spending.
    However, such reforms should not be made on the backs of 
America's most needy citizens. The President's call to curb 
Medicare spending, to reduce funding for national critical 
health research assets such as the National Heart, Lung and 
Blood Institute and the National Cancer Institute, a $100 
million reduction in the Department of Homeland Security's 
Assistance to Firefighters Grant Program, and the inclusion of 
an increase in the copay and enrollment fee for veterans 
seeking care from the VA are all issues that concern me greatly 
and must be addressed through congressional action.
    As a Member of Congress representing eastern Pennsylvania 
and the greater Philadelphia region, I am concerned that Amtrak 
is severely underfunded in the President's request. Thousands 
of commuters rely on Amtrak's Northeast corridor rail service 
each day to commute to their jobs up and down the east coast 
from Boston to Washington, D.C. Although Amtrak has been the 
target of criticism for its management system and business 
structure, its operation is integral to the health of our 
economy. Additionally, as more Americans take the train each 
day, they leave their cars behind, which means there are fewer 
cars on the road contributing to pollution as well as gasoline 
demand.
    I support the full funding of Amtrak rail service. The 
President's proposed $900 million for Amtrak falls woefully 
short of the estimated $1.5 billion necessary to prevent cuts 
in service and will not allow for future investment in 
America's rail system.
    However, one specific program that has a direct impact on 
my constituents in the Eighth District concerns me the most, 
the elimination of funding for the NRCS and flood mitigation 
programs. I have written to Chairman Nussle on this subject; 
however, I wanted to come here to speak to you personally and 
have my concerns placed in the record.
    We must continue to protect Americans from the threat posed 
by natural disasters--Katrina and Rita demonstrate this need 
clearly. Flooding continues to destroy homes, businesses, and 
communities throughout America. I am concerned that the 
President's fiscal year 2007 budget eliminates all funding for 
the NRCS Watershed Protection and Flood Prevention programs. 
The budget proposes zero for watershed planning, zero for 
watershed operations, and $15.3 million for rehabilitation of 
aging watershed dams, in spite of the fact that these watershed 
programs have improved the safety of lands previously 
considered to be in a constant threat of flood damage.
    Even before Katrina, flood damage in the United States was 
estimated to cost $2 billion each year. Hurricane Katrina has 
taught us that an adequate infrastructure is vital to protect 
and maintain our communities' homes, businesses, and roads from 
flooding. Zeroing out funding for watershed planning and 
watershed operations will have a severe effect on flood 
mitigation projects like elevating and flood-proofing 
properties and implementing resource management systems across 
the United States.
    In my district alone, severe flooding has caused millions 
of dollars in damages to homes along the Nishamany Creek. A 
combination of State and Federal funding has allowed many of 
these houses to be raised or elevated to prevent future damage. 
Those projects and nearly 2,000 other projects like it across 
the Nation would be restricted, if not terminated, if the 
President's request is to go forward. Therefore, I strongly 
support continued funding for the USDA and RCS watershed 
programs. This funding is essential to the preservation of 
storm-ravaged areas of our Nation, and I encourage my 
colleagues' support of this necessary program.
    Thank you, Mr. Chairman, for making the time for me to 
testify today.
    Mr. Diaz-Balart. Thank you, sir. And I appreciate you 
taking your time coming out here. We know how important these 
issues are to you, so we really appreciate that.
    [The information referred to follows:]

Prepared Statement of Hon. Michael G. Fitzpatrick, a Representative in 
                Congress From the State of Pennsylvania

    Mr. Chairman, members of the committee, thank you for the 
opportunity to appear before you today to express my hopes and 
reservations on the President's Federal budget request for fiscal year 
2007. After taking a week to carefully review the President's budget 
request, I have discovered some encouraging proposals that will assist 
the nation on the road toward assuring our independence from foreign 
oil, expanding math and science education and supplying our troops with 
the equipment they need to fight the War on Terror. While there are 
many encouraging proposals incorporated within the President's Budget 
there are some spending decisions that concern me; especially one that 
directly affects my constituents. That program is the USDA-NRCS Flood 
Mitigation Program and I want to focus on the President's decision to 
zero out its funding today.
    I agree that the government must be fiscally responsible with 
taxpayer's money. Federal spending, over the course of the past 5 
years, has risen faster than at any time in the past four decades. In 
addition, the nation faces a costly war in Iraq, Hurricane Katrina 
clean-up costs, and rising entitlement spending. The largest 
entitlement programs; Medicare, Medicaid and Social Security, are 
projected to cost $1.132 trillion this year and account for about 42 
percent of the entire Federal budget, as Congressional Budget Office 
figures show. By comparison, Defense is 15.8 percent of the 2007 
budget. As a result, budget deficits remain high and are expected to 
soar when the baby boom generation begins retiring in the next few 
years. We need to slow the growth of Federal spending in order to 
regain control over the spiraling costs of our mandatory programs.
    The recent passage of the Deficit Reduction Act will place the 
government on the path of fiscal responsibility and slowed growth. The 
economy is primed for this, as yesterday's announcement of the 
government posting its first surplus in 3 years demonstrates. Tax 
receipts surpassed spending by $10.98 billion in December--the result 
of congressional action to cut taxes and spur investment in our 
economy. Our policies are working, and Congress must now focus on 
cutting spending. However, such reform should not be made on the backs 
of America's most needy citizens.
    The President's call to curb Medicare spending; to reduce funding 
for critical national health research assets such as the National 
Heart, Lung and Blood Institute and the National Cancer Institute; a 
$100 million reduction in the Department of Homeland Security's 
Assistance to Firefighters Grant Program; and the inclusion of an 
increase in the copay and enrollment fee for veterans seeking care from 
the VA are all issues that concern me greatly and must be addressed 
through congressional action.
    As a Member of Congress representing Eastern Pennsylvania and the 
greater Philadelphia region, I am concerned that Amtrak is severely 
under-funded in the President's request. Thousands of commuters rely on 
Amtrak's Northeast Corridor rail service each day to commute to their 
jobs, up and down the East Coast from Boston to Washington, DC. 
Although Amtrak has been the target of criticism for its management 
system and business structure, its operation is integral to the health 
of our economy. Additionally, as more Americans take the train each 
day, they leave their cars behind which means there are fewer cars on 
the road contributing to pollution as well as gasoline demand. I 
support the full funding of Amtrak rail service. The President's 
proposed $900 million for Amtrak falls woefully short of the estimated 
$1.5 billion necessary to prevent cuts in service and will not allow 
for future investment in America's rail system.
    However, one specific program that has a direct impact on my 
constituents in the 8th District of Pennsylvania concerns me the most--
the elimination of funding for USDA-NRCS flood mitigation programs. I 
have written to Chairman Nussle on this subject, however, I wanted to 
come here and speak to you personally and have my concerns placed into 
the record.
    We must continue to protect Americans from the threat posed by 
natural disasters. Hurricanes Katrina and Rita demonstrate this need 
clearly. Flooding continues to destroy homes, businesses and 
communities throughout America. I am concerned that the President's 
FY07 Budget eliminates all funding for USDA-NRCS watershed protection 
and flood prevention programs. The budget proposes $0 for Watershed 
Planning, $0 for Watershed Operations and $15.3 million for 
Rehabilitation of aging watershed dams in spite of the fact that these 
watershed programs have improved the safety of lands previously 
considered to be in a constant threat of flood damage. Even before 
Hurricane Katrina, flood damage in the United States was estimated to 
cost $2 billion annually.
    Hurricane Katrina has taught us that adequate infrastructure is 
vital to protect and maintain our communities' homes, businesses and 
roads from flooding. Zeroing out funding for watershed planning and 
watershed operations would have a severe effect on flood mitigation 
projects like elevating and flood proofing properties and implementing 
resource management systems across the United States. In my district 
alone, severe flooding has caused millions of dollars in damage to 
houses along the Neshaminy Creek. A combination of state and Federal 
funding has allowed many of these houses to be razed or elevated to 
prevent future damage. Those projects; and nearly 2,000 other projects 
like it across the nation would be restricted, if not terminated, if 
the President's request is to go forward.
    Therefore, I strongly support continued funding of the USDA-NRCS 
Watershed Programs. This funding is essential to the preservation of 
storm ravaged areas of our nation and I encourage my colleague's 
support of this necessary program. Thank you, Mr. Chairman, for the 
time to speak to you today. With that, I yield the balance of my time.

    Mr. Diaz-Balart. We are waiting for one more Member, and we 
will take a short pause until he shows up, and then we will 
reconvene the meeting.
    [Recess.]
    Mr. Diaz-Balart. We will reconvene the Budget Committee 
once again. And we are privileged to have Mr. Bass.

STATEMENT OF HON. CHARLES F. BASS, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF NEW HAMPSHIRE

    Mr. Bass. Thank you very much. And they have made things a 
lot fancier here since I was on this committee. I was honored 
to serve here for 8 years, and I am here today to submit 
written testimony, and I will make my testimony very, very 
brief. I have three issues I would like to bring up.
    First, I am hopeful that the Budget Committee can pay the 
kind of attention that is necessary to adequately fund 
individuals with disabilities education, otherwise known as 
special education. When I was on the committee, we were able to 
get in essence approximately $1 billion to $1.5 billion a year 
increase in these programs, in this program in particular. It 
is certainly the most important, in my opinion, education 
funding initiative, because it does represent an unfilled 
obligation that the Federal Government needs to make to 
adequately fund its fair share of that program.
    Secondly, I would like to address the issue of the 
President's Advanced Energy Initiative. I hope the Budget 
Committee can focus on a great opportunity that exists that the 
President began with the State of the Union Address to assure 
that we develop alternative energy resources for this country. 
We are indeed addicted to oil, and we need to have a Congress 
that recognizes that and moves in that direction.
    And, thirdly, and not inconsistent with my prior discussion 
about alternative energy, is the need not to use drilling in 
the Arctic National Wildlife Refuge (ANWR) as a revenue 
enhancer for reconciliation. We have been through this debate 
already this year. I am hopeful that we can leave NWAR out of 
the budget documents so that we at least begin the process of 
not having that long debate which was so difficult in this last 
fiscal year.
    So, with that, Mr. Chairman, I will conclude my remarks and 
thank you very much.
    Mr. Diaz-Balart. Well, thank you very much. And without 
objection, your full remarks will be placed in the record.
    Mr. Bass. Thank you, sir.
    Mr. Diaz-Balart. Thank you very much.
    [The prepared statement of Mr. Bass follows:]

    Prepared Statement of Hon. Charles F. Bass, a Representative in 
                Congress From the State of New Hampshire

    I would look like to thank Chairman Nussle and Ranking Member 
Spratt for providing members the opportunity to testify before the 
Committee today. As a former member of this committee, I am well aware 
of the challenges that you face when trying to craft a budget that 
meets our needs at home and abroad in a responsible manner. In this 
fiscal climate we must prioritize and ensure that the programs that 
have the biggest impact on our local communities and nation are 
adequately funded. It is for this reason that I would like to focus on 
the importance of increased special education funding and a commitment 
to a comprehensive renewable energy policy.

                              IDEA FUNDING

    Since 1975 when Congress first passed the Individual with 
Disabilities Education Act, we outlined the steps communities must take 
to ensure that all students, regardless of any disability, receive a 
free and appropriate education. As a result of this Federal mandate, we 
also promised to provide 40 percent of the national average per pupil 
expenditure (APPE) for special-needs students. It has been over 30 
years and we have yet to fulfill this promise.
    I believe that it is safe to say that every Member of Congress has 
heard from at least one community in their district regarding the 
strain that rising special education costs has placed on their local 
budgets. In fact, I am positive that 105 of our colleagues have heard 
because they joined me in signing this letter that I will present to 
you asking that we fund special education at the level we agreed to in 
the 2004 IDEA reauthorization law. It was in this law that 397 members 
recognized the significance of fully funding IDEA by supporting a glide 
path that will allow us to reach full funding by 2011. As Majority 
Leader Boehner stated on November 19, 2004--``Our bill also puts the 
Federal Government on a 6-year glide path to reaching our original goal 
of funding up to 40 percent of the excess cost of educating students 
with special needs. And as we get closer to that goal, we are also 
going to give local communities more control over how they spend their 
own local dollars.''
    Since I arrived in Congress, IDEA spending has increased from $2.3 
billion in FY 1995 to $10.7 billion in FY 2006. While this overall 
increase in funding is certainly impressive and one that we should be 
proud of, the reality is the Federal share in special education costs 
is actually dropping. In FY 2004, we reached an all time high of 
18.6%--almost half of what we promised but an improvement--the 
President's budget request would bring the Federal share to 17%. We 
cannot afford to go backwards.
    Giving our communities more control over how they spend their own 
local dollars should be our goal when debating education funding. 
Providing IDEA with the Federal funds that we promised does exactly 
that. Every extra dollar that the Federal Government provides to 
special education is an extra dollar that is freed up on the local 
level. The local school boards do not have an option when it comes to 
funding what is necessary for its learning disabled population but if 
the Federal Government provides the share it promised, local funds 
could be used for other equally important educational measures of their 
own choosing. Increasing special education funding is my number one 
education priority and I will not be asking for an increase in any 
other line item under the Department of Education. Mr. Chairman, I 
would request that you would assist me by establishing a clear path for 
appropriators to follow in this budget with regards to IDEA funding.
    I recognize that we are facing fiscal restraints and agree that we 
need to reign in spending to control rising deficits but I believe that 
school boards should not have to cut education budgets, taxpayers 
shouldn't have to pay higher property taxes, and families with special 
needs students should never feel isolated or be criticized because the 
Federal Government is not paying its fair share of the cost of special 
education.

                            RENEWABLE ENERGY

    In his State of the Union just 2 weeks ago, the President declared 
``America is addicted to oil.'' He continued, ``By applying the talent 
and technology of America, this country can dramatically improve our 
environment, (and) move beyond a petroleum-based economy. We'll also 
fund additional research in cutting-edge methods of producing ethanol, 
not just from corn, but from wood chips and stalks, or switch grass. 
Our goal is to make this new kind of ethanol practical and competitive 
within 6 years.''
    Mr. Chairman, the President is right. If we accomplish the goals of 
the Advanced Energy Initiative, we will not only free ourselves from 
the entanglement of foreign energy, we will also clean the air, water 
and land we all enjoy, and we will develop new technologies and 
industries that provide jobs and a higher quality of life for all 
Americans. This must be among our highest national priorities.
    I ask you to not only meet the President's goals, but to exceed 
them. The U.S. Department of Energy Biomass Fuels Initiative funds 
research, development, and technology validation on advanced 
technologies that will enable future biorefineries to sustainably 
convert cellulosic biomass to fuels, chemicals, heat and power. The 
President has requested $120 million, up from $91 million in FY06 for 
this task. I challenge this committee to support an even higher level 
and to anticipate higher levels in the future until we are able to 
power the automobiles we drive with the crops, forestry, and other 
biomass we produce.
    I also urge the Committee to recommend at least $1.42 billion for 
basic energy science, which supports a substantial basic research 
budget for materials sciences, chemical sciences, energy biosciences, 
engineering, and geosciences.
    As a member of the House Energy and Commerce Committee, I intend to 
work toward greater support and parity for these clean and renewable 
energy sources. The Energy Policy Act of 2005 was the best effort yet 
to pass Congress, but I know we can still do better.

                    ARCTIC NATIONAL WILDLIFE REFUGE

    Finally, I want to comment on the issue of including any 
instructions for ANWR in the budget. We are all aware of last year's 
effort and outcome and I don't see any reason why this year would be 
different.
    Using the budget process to open ANWR is a gimmick and must be 
resisted. An instruction to create a stand-alone reconciliation bill on 
ANWR would place the separate legislation containing the rest of the 
reforms and savings, regardless of how valuable, in jeopardy. As a 
conference and Congress, we must ask ourselves where our priorities 
lie.

                                     U.S. Congress,
                                            Washington, DC,
                                                 February 14, 2006.
Hon. Jim Nussle, Chairman,
Hon. John Spratt, Ranking Member,
House Budget Committee, Cannon Building, Washington, DC.
    Dear Chairman Nussle and Ranking Member Spratt: In 1975, the 
Individuals with Disabilities Education Act (IDEA) was enacted into law 
to ensure that students with disabilities received the quality 
education that they both need and deserve. With this legislation came a 
promise to federally fund 40 percent of special education costs, a 
promise that still has yet to be honored. For nearly 30 years, this 
lack of adequate federal funding has unfairly burdened local school 
districts and taxpayers struggling to meet the educational needs of all 
students, including a growing number of students with disabilities.
    In 2004, the House of Representatives approved and the President 
enacted the Individuals with Disabilities Education Improvement Act, 
establishing a concrete timetable of incremental funding increases in 
order to obtain the full 40 percent of promised Federal funding for 
special education by Fiscal Year 2011. This commitment was agreed to by 
an overwhelming majority of both the House and the Senate, and yet we 
were still unable to meet the goal we set for the first year of that 
timetable.
    As you prepare your Fiscal Year 2007 House Budget Resolution, 
please honor our commitment and include the $16.94 billion authorized 
in this law for the Part B State Grants, thereby putting the Federal 
Government back on track to fully funding our share of IDEA costs. 
While we recognize the challenges and tough decisions that you face in 
the current fiscal climate, we believe that increasing IDEA funding 
enables our local communities to devote the scarce resources that are 
currently being spent to meet the unfunded Federal requirements of the 
IDEA law to other areas of significant need. Even during this time of 
restrained spending, we must help ease the burden that this current 
unfunded mandate places on state and local budgets.
    We look forward to working with you on this critical matter, and 
are hopeful that our efforts will afford our schools greater financial 
freedom and the local control necessary to best serve their students 
and communities.
            Sincerely,

Charles F. Bass,   Rob Simmons,       Mike Ferguson,    Ed Case,
William Lacy       Brian Higgins,     Mike Doyle,       Bob Etheridge,
 Clay,
Rush Holt,         Michael McNulty,   Tammy Baldwin,    Doris O. Matsui,
Rick Boucher,      Elliot L. Engel,   Jay lnslee,       Patrick F.
                                                         Kennedy,
Jim Marshall,      Major R. Owens,    Sanford Bishop,   Darlene Hooley,
Sherrod Brown,     John M. McHugh,    Sandy Levin,      Chris Smith,
Earl Pomeroy,      Jim Saxton,        James McGovern,   Tom Udall,
Zoe Lofgren,       Todd R. Platts,    Lynn Woolsey,     Lane Evans,
Dennis Moore,      Carolyn McCarthy,  Lincoln Davis,    Stephanie Tubbs
                                                         Jones,
Sam Farr,          Albert Wynn,       Raul M.           Carolyn B.
                                       Grijalva,         Maloney,
Mark Udall,        Eleanor H.         Silvestre Reyes,  Jerrold Nadler,
                    Norton,
Bob Filner,        Sue Kelly,         Juanita           Bart Gordon,
                                       Millender-
                                       McDonald,
Betty McCollum,    Jim Matheson,      Loretta Sanchez,  Judy Biggert,
Ben Chandler,      Danny K. Davis,    Diana DeGette,    C.A. Dutch
                                                         Ruppersberger,
Emmanuel Cleaver,  Grace F.           Michael Honda,    Barbara Lee,
                    Napolitano,
Chris Shays,       Greg Walden,       Jim Ramstad,      Rick Larsen,
Joe Schwarz,       Tom Lantos,        Frank Pallone,    Tim Ryan,
Madeleine          Shelley Berkley,   Michael Michaud,  Ted Strickland,
 Bordallo,
Ed Whitfield,      Jim Davis,         Elijah E.         Jim Leach,
                                       Cummings,
Ruben Hinojosa,    Frank A.           John F. Tierney,  Collin C.
                    LoBiondo,                            Peterson,
Adam Smith,        Debbie Wasserman   David Price,      Nick Rahall,
                    Schultz,
Xavier Becerra,    Linda Sanchez,     Anthony Weiner,   Timothy Johnson,
Robert Scott,      Steve Israel,      Peter King,       Tom Osborne,
Dennis J.          John Conyers,      Gwen Moore,       Ben Cardin,
 Kucinich,
Donald M. Payne,   Rosa L. DeLauro,   Jim McDermott,    Vic Snyder,
Shelley Moore      John Dingell,      Leonard Boswell,  Nancy Johnson,
 Capito,
William Delahunt,  Maurice Hinchey,   John T. Salazar,


                                               Members of Congress.

    Mr. Diaz-Balart. Also, I would just remind that all Members 
have until Friday to submit their statements for the record, 
without objection.
    [The prepared statement of Mr. Price follows:]

Prepared Statement of Hon. Tom Price, a Representative in Congress From 
                          the State of Georgia

    Our economy is thriving as more and more Americans are finding 
jobs. Over the last two-and-a-half years, we have added over 2.5 
million jobs and the country's unemployment rate is 4.7 percent--the 
lowest level since July 2001. Our revenue growth is strong and is 
expected to be so for years to come. We have had many successes--over 
the past 5 years we increased funding for veterans, education, and many 
other programs.
    Yet, in light of all these successes our spending continues to 
exceed our revenues and the rate of inflation. As a result, even though 
we have made major strides to bring the economy back on track, deficits 
persist. Mandatory spending for programs such as Medicare, Medicaid, 
and Social Security continue to grow at rates that endanger their 
viability.
    It is becoming increasingly clear that we do not have a revenue 
problem, we have a spending problem. We must slow the rate of spending 
growth if we are to get our economic house in order. As we examine ways 
to exercise fiscal responsibility I ask you to be open to ideas that 
aim to rein in spending.
    The recently passed Deficit Reduction Act is a step in the right 
direction. It allowed Congress to re-examine our spending priorities. 
It also has let our committees here in the House of Representatives to 
further eliminate waste, fraud, and abuse in programs that has been 
long overdue.
    If we are to reduce our deficits we must have sound fiscal 
discipline. I ask the committee to slow the rate of growth for 
automatic programs in a fair and responsible manner.
    One of the items of legislation that I have introduced is an 
earmark resolution to bring greater transparency to the appropriations 
process. Each earmark would have the name of the Member of Congress 
next to their appropriations request. Adding sunlight to this process 
will ensure that the hard-earned money of the American taxpayers is 
spent in the most appropriate manner.
    Sound fiscal discipline is the key to accelerating economic growth 
and reducing deficits. We must continue deficit reduction measures to 
reduce spending and allow economic growth to flourish.

    [The prepared statement of Mr. Evans follows:]

  Prepared Statement of Hon. Lane Evans, a Representative in Congress 
                       From the State of Illinois

    Chairman Nussle, Ranking Member Spratt, thank you for hearing my 
views regarding the proposed FY 2007 budget for the Department of 
Veterans Affairs (VA). As Ranking Democratic Member of the Committee on 
Veterans' Affairs, I am currently working with my colleagues in 
developing our views and estimates, which we will submit to your 
Committee next week. I, and my fellow Democratic members, will agree 
with the Majority in areas where we can, but we will be charting an 
independent course in making our recommendations as to the resource 
levels required by the programs under the jurisdiction of the Committee 
on Veterans' Affairs.
    I am pleased that the Administration asked for an increase in 
appropriated dollars this year for veterans' medical care. This stands 
in sharp contrast to last year when the Administration requested an 
increase in appropriated dollars of less than 1 percent. At first 
glance the requested increase looks like a step in the right direction, 
however, compared to veterans' needs and demand for services, it 
clearly does not deliver the necessary resources to provide veterans 
with the health care and benefits they have earned. Although the 
proposed increase was a welcome surprise, I do not believe we should 
applaud too loudly when the job is not done.
    Last Congress I testified before this Committee, stating:
    I have been concerned that the Administration's budget submission 
falls far short of what is necessary to address serious problems within 
the system. I am also concerned about the practice the Administration 
continues to employ of proposing unpalatable legislative initiatives in 
the budget as if Congress had already authorized them. This puts 
Congress at a distinct disadvantage from the start. Instead of leaving 
Congress with the ability to fund its own priorities, we are forced to 
compensate the VA for legislation we have never authorized.
    Once again this year, the Administration has included legislative 
proposals that would levy a health care enrollment fee and sharply 
increase pharmaceutical co-payments. Once again, we will need to 
provide the funding to cover these legislative proposals, proposals 
rejected by Congress time and time again. This will provide an 
additional $800 million in appropriated dollars for VA health care.
    The Administration uses its legislative proposals to diminish its 
appropriation request, then turns around and uses a portion of the 
proposed cost savings again to increase its collections estimate. 
Therefore, we will need to provide an additional $544 million. In 
addition, the Administration's estimated collections amount of $2.3 
billion may not be realized, and may not represent the actual net 
amount being realized by the VA. Additional dollars will be needed to 
fill this gap.
    The Administration includes a total of $1.1 billion in ``management 
efficiencies'' in this year's budget. To quote its budget submission, 
``VA is estimating cumulative efficiencies of $1.1 billion in 2007 
which results in additional efficiencies of $197 million over the 2006 
level of $884 million.'' On February 1, 2006, the Government 
Accountability Office issued a report, ``Veterans Affairs: Limited 
Support for Reported Health Care Management Efficiency Savings'' (GAO-
06-359R), that concluded the ``VA lacked a methodology for making the 
health care management efficiency savings assumptions reflected in the 
President's budget requests for fiscal years 2003 through 2006 and, 
therefore, was unable to provide [GAO] with any support for those 
estimates.'' So there is no actual proof this $884 million exists, but 
it is in the budget this year, and is used to offset increased 
appropriations. Additional resources will be needed to account for 
these phantom ``savings.''
    The Administration, again this year, estimates a decline in the 
number of unique patients, from the current estimate of 5.4 million to 
5.3 million. Last July, the Administration conceded that it had 
underestimated the number of patients and requested an additional $677 
million in supplemental funding. I hope we are not going to have to 
seek an additional $700 million because of this lower estimate. The 
Administration relies on a change in ``unobligated balances,'' totaling 
$442 million to offset its appropriation request. This was a strategy 
employed in last year's budget, a strategy that proved to be 
shortsighted and unrealistic. Additional resources will need to be 
provided to ensure that the VA is not faced with budgetary shortfalls 
triggered by bad estimates and unrealistic assumptions again in FY 
2007.
    The Administration proposes continuing its ban on enrollment by new 
Priority 8 veterans, a ban instituted in January 2003. I know I speak 
for many of my colleagues when I voice my strong opposition to this 
ban. We will be recommending additional resources to bring these 
forgotten veterans, many of them lower-income and combat-decorated, 
back into the system.
    I am also concerned that not enough has been provided to meet the 
needs of veterans returning from Iraq and Afghanistan. In fact, the VA 
estimates that it will see fewer OIF/OEF veterans in FY 2007. We need 
to do more. We also need to do more in the areas of mental health and 
post-traumatic stress disorder (PTSD) and prosthetics. We need to 
restore the Administration's proposed cut in VA medical and prosthetic 
research, and provide additional resources to cover inflation.
    Finally, I will be looking closely at the ability of the VA to 
handle benefits claims quickly and accurately. I will also be looking 
to make improvements in the Montgomery GI Bill, and in providing job 
training and employment opportunities to veterans.
    Mr. Chairman, and Mr. Spratt, providing for veterans is a 
continuing cost of war, and a continuing cost of our national defense. 
We simply have no excuse for not meeting their needs. It is sometimes 
easy to forget that budgets and numbers ultimately come down to real 
people. We must not forget them. I hope that you will carefully 
consider the views and estimates that I and my Democratic colleagues 
will be submitting to this committee next week. Working together, we 
can make sure that our veterans are not forgotten, and that we meet our 
obligations to them as a nation.
    Thank you.

    [The prepared statement of Mr. Gibbons follows:]

 Prepared Statement of Hon. Jim Gibbons, a Representative in Congress 
                        From the State of Nevada

    It should come to no surprise to anyone here today that I am in 
strong opposition to Yucca Mountain, because it is an unsafe and 
unsuitable solution to our nuclear waste problem. I also represent Nye 
County, where unfortunately the Yucca Mountain project is located.
    The Yucca Mountain project was based on 1980's science and has no 
place in our country today. We need to focus on 21st Century solutions, 
like reprocessing and transmutation, which will help to reduce our 
nuclear waste. Going forward with Yucca Mountain is like still using 
cassette tapes or even 8-tracks, in the era of mp3 players and ipods.
    As Members of Congress, we have the constitutional obligation to 
objectively oversee the Federal Government. This includes objective 
analysis regarding the feasibility of the Yucca Mountain Project as a 
deep geologic repository.
    Unfortunately, it is extremely disturbing to see that since the 
birth of this project, the Department of Energy (DOE) has consistently 
failed to use science as their guide and has instead been blinded by 
it's obsession to do anything to rubber stamp this project so it can be 
finished. Allegations have been made that workers at the project have 
falsified their data to make the project work, and these allegations 
are now being investigated by my colleague Jon Porter on the Government 
Reform Committee. Such utter disregard for scientific integrity should 
be completely unacceptable to Members of Congress. And it is completely 
unacceptable to the people in Nevada and throughout this country who 
will have to live with the reality of the deadliest substance known to 
man being shipped past our schools, hospitals, and communities to a 
hole in the Nevada desert where it will endanger our water supply, 
environment, and public health.
    Most recently, it was reported that only after 9 years, the Yucca 
mountain project is in need of repairs. To quote DOE spokesman Allen 
Benson from the Las Vegas Sun ``Everything in there is old * * * this 
is a safety issue.'' This is a project that is expected to safely hold 
highly dangerous material for hundreds of thousands of years, and after 
only 9 years in its existence and already is requiring additional 
upgrades and repairs. Again, this is unacceptable to the people of 
Nevada and should be unacceptable to every tax-payer in this country.
    If the DOE scandal over falsification of science and the need for 
repairs were not enough, even the National Research Council of the 
National Academies has found that there are serious challenges that 
still need to be addressed before moving forward and that these 
challenges should not be underestimated. Their list included the need 
to more closely analyze the security risks for any plan to move nuclear 
waste on a large scale.
    As Members of Congress, we must fulfill our constitutional 
obligations and hold DOE accountable to these challenges and failures. 
While the Yucca Mountain Project might reside in Nevada, the dangers of 
transporting this waste will impact every community and every 
constituent across this country. It is my hope that when you examine 
the feasibility of this project, you reject the proposed $544 million 
for the failed Yucca Mountain Project in the President's FY 2007 
Budget. It is time to stop wasting taxpayer dollars on a project that 
is unsafe and unnecessary. It is the 21st century, we have better and 
safer solutions to reduce the amount of nuclear waste, and it time to 
invest in them.

    Mr. Diaz-Balart. And, with that, I believe this committee 
now will adjourn.
    [Whereupon, at 6:03 p.m., the committee was adjourned.]

                                  <all>

</pre></body></html>
